Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 1 of 147

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DONNA CURLING, et al.,
Plaintiffs,
v.
BRAD RAFFENSPERGER, et al.,
Defendants.

:
:
:
:
:
:
:
:
:

CIVIL ACTION NO.
1:17-cv-2989-AT

OPINION AND ORDER
I.

Introduction and Overview
In the 1983 film Groundhog Day, weather man Phil Connors is doomed to

repeat the same day over and over again: “I wake up every day, right here, right in
Punxsutawney, and it’s always February 2nd, and there’s nothing I can do about
it.” The Court can relate; it feels like it’s February 2nd in Punxsutawney. But quite
likely, the Court is not alone in this sentiment in many respects. Amidst the many
other serious concerns facing the public in this challenging era, issues surrounding
election system security, reliability, fairness, and the correct counting of votes
continue on the forefront of citizen concerns. And so too, in turn, does voting
litigation perforce continue.

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 2 of 147

Now in Act 4, this voting case raising fundamental First Amendment and
Fourteenth Amendment constitutional claims is before the Court on Plaintiffs’ 1
current Motions for Preliminary Injunction seeking relief before the November 3,
2020 general election. The Court held three days of hearings on Plaintiffs’ motions
and has reviewed the parties’ extensive briefs and evidentiary submissions. The
Plaintiffs’ motions are identified and described below.
(a) The Curling Plaintiffs’ August 19, 2020 Motion for Preliminary
Injunction [Doc. 785] seeks to require Defendants “to conduct in-person voting in
elections by a hand-marked paper ballot system” in combination with “provisions
for pre-certification, post-election, manual tabulation audits of paper ballots and
to independently check the accuracy of equipment and procedures used to tabulate
votes . . . based on well-accepted audit principles that assure a high probability that
incorrect outcomes will be detected and remedied”; and
(b) The Coalition Plaintiffs’ August 24, 2020 Motion for Preliminary
Injunction on BMDs, Scanning and Tabulating, and Auditing [Doc. 809] seeks to
require the State Defendants to: (i) refrain from forcing in-person voters to use
ballot marking devices (“BMDs”) and instead cause voters to use hand-marked
paper ballots as the standard method for in-person voting; (ii) adopt scanning
threshold settings for the Dominion optical scanners and vote review procedures

1

The two sets of Plaintiffs in this case are represented by separate counsel and seek overlapping
but somewhat differently articulated, equitable relief. Donna Curling, Donna Price, and Jeffrey
Schoenberg are referred to as the “Curling Plaintiffs.” The Coalition for Good Governance
(“Coalition”), Laura Digges, William Digges III, Ricardo Davis, and Megan Missett are referred
to as the “Coalition Plaintiffs.”

2

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 3 of 147

that will ensure all voter marks on mailed and hand-marked paper ballots are
counted; and (iii) require election superintendents to conduct meaningful,
effective pre-certification audits of scanned hand-marked paper ballots to ensure
the correctness of election outcomes.
The Coalition Plaintiffs’ Motion for Preliminary Injunction on Paper
Pollbook Backups also sought related relief requiring the Secretary of State to
direct county election superintendents to use paper backups of the electronic
pollbook at each precinct polling location to facilitate issuance of regular or
emergency ballots on election day in the event of voting machine breakdowns and
mishaps, power outages, and associated long voter lines. (Doc. 800.) This Court’s
Order of September 28, 2020 (Doc. 918) addressed these issues at length and
granted that separate motion.
Plaintiffs’ motions challenge the State Defendants’ mode of implementation
of a new voting system enacted by the Georgia Legislature on April 2, 2019 2 and
their ongoing use of software, data systems, policies and practices that allegedly
burden and impede Plaintiffs’ exercise of their First and Fourteenth Amendment
rights to cast ballot votes that will be reliably counted. The Plaintiffs allege that
Defendants have failed to implement a constitutionally acceptable election system
by requiring all in-person voters to use a BMD system that, as a whole, in its design
and operation, is not voter-verifiable, secure, or reliable. They contend this system

See O.C.G.A. § 21–2–300(a)(2); O.C.G.A. § 21–2–2(7.1); O.C.G.A. § 21–2–300(a)(2); Ga. Comp.
R. & Reg. r. 590–8–1–.01(d).
2

3

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 4 of 147

suffers from some of the same major cybersecurity vulnerabilities posed by
Defendants’ deeply flawed, outdated Direct Recording Electronic (“DRE”) Voting
System addressed by the Court’s lengthy Order of August 15, 2019 that granted
injunctive relief. 3 (Doc. 579.) Plaintiffs’ challenge embraces an array of associated
issues involving the electronic voting process that impact if an individual’s vote
(whether recorded from a scanned BMD-generated barcode or a hand-marked
paper ballot) will be correctly captured, scanned, and accurately counted. 4 Their
claims thus also raise significant issues regarding the auditing of the election
system’s voting results and ballot processing.
First and foremost, Plaintiffs’ challenge focuses on the Defendants’
implementation of the new statewide BMD system, pursuant to the terms of the
State’s 2019 contract with Dominion Voting Systems. 5 The software and hardware
system purchased provides for each citizen’s BMD ballot vote selections to be
printed on a paper ballot generated by a printer connected to the BMD. But the
tabulation of the vote is actually based on the ballot’s non-encrypted QR barcode
The Court summarized the three-year background history surrounding this case in its Order of
August 7, 2020 (Doc. 768) that denied without prejudice Plaintiffs’ earlier facial challenge of the
BMD system, filed in October 2019, before any elections using the system had been held.
4 Plaintiffs in this connection present evidence of the votes on some hand-marked ballots being
treated as blank votes because the optical scanner failed to recognize the hand-made mark that
did not fully fill in the vote bubble, although the hand votes still demonstrated the voter’s ballot
intent through a check or X or otherwise, and therefore would satisfy the requirement of Georgia
law for being counted. The State Board of Elections has recently approved some modifications in
the scanning program settings that may result in more of these “blank” votes being flagged and
referred to county adjudication panels for review. The Coalition Plaintiffs have offered expert
testimony that other scanner adjustments can be made that would more completely address this
ballot scanning issue. Defendants dispute this.
5 Dominion Voting Systems, Inc.’s contract with the Georgia Secretary of State calls for
Dominion’s provision of all equipment and software components of the BMD system as well as
training and technical assistance. (Doc. 786.)
3

4

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 5 of 147

on the ballot – designed to summarize the voter’s ballot selections in code – that
by itself is not voter reviewable or verifiable. Thus, Plaintiffs contend that the
system precludes direct voter verification of the QR barcode of votes cast on the
ballot. The printed ballot is fed into an ImageCast optical scanner that tabulates
the ballot votes solely based on the QR code – and not based on the human
readable text on the printed ballot. Plaintiffs challenge the constitutionality of the
State Defendants’ implementation of a barcode-based system for all in-person
voting, based on (1) this alleged fundamental vote verification defect; (2) the
system’s purported known and demonstrated risk vulnerabilities to access and
manipulation identified by national cybersecurity experts; and (3) the inherent
problems posed in properly auditing votes tallied based on QR barcodes that
cannot be verified by voters. 6
Additionally, the Coalition Plaintiffs press their separate but related claim
for relief based on the alleged intrusion on voters’ free exercise of their right to cast
a secret ballot at the polls. The nature of this claim is two-fold. First, the Coalition
Plaintiffs assert that in-person voters are required to make their ballot selections
on oversized voting touchscreens that are not shielded and that expose the voter’s
ballot choices to easy viewing by other people in the precinct voting location.

As detailed in the Court’s Order of September 28, 2020, Plaintiffs’ challenge also addresses
dysfunctions in the voter registration information database system and the pollbook voter checkin system, both of which they contend fundamentally impact the voting process and voter access
to the ballot. (Doc. 918.)
6

5

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 6 of 147

Second, they assert that a timestamping feature on the precinct scanner could be
used to identify voters to reveal their vote choices.
As a whole, the State Defendants have steadfastly denied the factual and
legal merits of Plaintiffs’ constitutional claims. They argue that Plaintiffs have not
carried their high burden of proof to show they are substantially like to prevail on
their claims or their entitlement to relief under the rigorous legal standards for
grant of a preliminary injunction. 7 Defendants have also urged the Court to per se
deny all relief on the grounds that it would interfere with the State Defendants’
authority and responsibility for oversight of election process and procedures,
unfettered by burdens and confusion that can be caused by Court ordered changes
to state election procedures or requirements on the eve of an election under
Republican Nat'l Comm. v Democratic Nat'l Com., 140 S. Ct. 1205, 1207 (2020)
and Purcell v. Gonzalez, 549 U.S. 1, 4 (2006).
The General Election will be held on November 3, 2020. In-person early
voting will proceed in select polling locations in every Georgia county from October
12, 2020 through October 30, 2020. While early voting in counties is done on BMD
machines, the state still denominates these votes as “absentee” ballots. Under
Georgia law, counties are authorized to begin sending out traditional paper
Although Defendant Fulton County has also taken an active role in the defense of this litigation
the State Defendants’ counsel have assumed by far the primary role in presentation of the defense.
Representatives of both the State Defendants and Fulton County at various points have
acknowledged some of the genuine challenges and major problems experienced in the first
statewide in person election for a large array of offices that was held on June 9, 2020 using the
new BMD system. (The March 24, 2020 presidential primary election was postponed twice –
once until May 19, 2020 and then until June 9, 2020. Some voters cast absentee mail ballots and
absentee in-person “early voting” ballots before the March primary was postponed.)

7

6

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 7 of 147

absentee ballots this year on September 15, 2020 and to continue to do so
thereafter in the weeks ahead prior to the election. The last date for submitting an
application for an absentee mail paper ballot in Georgia is October 30, 2020.
October 5, 2020 is the deadline for voter registration. 8
Faced with this looming timeline, the Secretary of State just two weeks
discovered a system-wide ballot display issue on the BMD touchscreen voting
machines for the U.S. Senate special election with 20 candidates in the race. The
Secretary of State designed the ballot using a two-column display to ensure that all
20 candidates appeared at the same time to voters on a single screen. Because
BMDs primarily display candidates in a single column list, the two-column display
is not a typical setup. Logic and Accuracy testing performed on the BMDs by two
counties in the last week of September revealed that the second column of
candidates did not appear in some instances. Dominion engineered a software
modification as a fix and within a few days the Secretary of State began distribution
of the new software to counties for installation on all 30,000 plus BMDs before the
start of early voting. Dominion submitted its application to the U.S. Election
Assistance Commission (“EAC”) for approval for the software engineering change
on October 5, 2020 and secured the EAC’s approval in a one sentence letter issued

See generally, O.C.G.A. § 21-2-384, § 21-2-385(a); see also Georgia Secretary of State’s web
posting,
Elections
and
Voter
Registration
Calendar,
https://sos.ga.gov/admin/files/2020%20Revised%20Short%20Calendar.pdf
(last
visited
September 17, 2020).

8

7

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 8 of 147

on October 9, 2020. EAC approval was secured after the modified software had
been installed throughout the state.
Not surprisingly, the parties take wildly different positions on the magnitude
of the problem and its impact on the general election. The State Defendants
characterize this as a very minor issue and the fix as a de minimis change to the
voting system software. Plaintiffs assert instead that the State is undertaking
substantial changes to the election equipment two weeks before early voting begins
without adequate testing that further jeopardizes the reliability and security of the
Dominion voting machines. These unforeseen circumstances, Plaintiffs insist,
justify an emergency switch to hand-marked paper ballots.
Given the complex findings and analysis already covered by the Court’s
review of several lengthy preliminary injunction motions and issuance of related
procedural orders over the last two years of intensive litigation, the Court refers
the reader to its earlier orders for a further overview of the course of proceedings,
relevant legal context, rulings, and factual findings. (See, e.g., Doc. 309, September
17, 2018 Order (denying motion to dismiss and motion for preliminary injunction);
Doc. 579, August 15, 2019 Order (granting in part preliminary injunction motions);
Doc. 751, July 30, 2020 Order (granting in part and denying in part Defendants’
most recent motion to dismiss including new BMD claims); Doc. 768, August 7,
2020 Order (denying without prejudice Plaintiffs’ initial motions for preliminary
injunction, Docs. 619 and 540, that facially challenged the BMD system and were

8

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 9 of 147

filed in October, 2019, long prior to the 2020 election cycle, and summarizing case
history).)
Finally, the Court notes that it has already addressed and rejected the State
Defendants’ renewed contention that several of Plaintiffs’ requests for relief fall
outside the bounds of the case as pled and presented to this Court. (See, e.g., Order
on Motion to Dismiss, Doc. 751 at 20-25; August 15, 2019 Order, Doc. 579 at 8889.) Portions of the relief requested by Plaintiffs are clearly associated with their
contentions regarding the Defendants’ non-implementation of some of the relief
granted in the Court’s August 15, 2019 Order, as discussed in the Court’s Opinion
and Order issued on September 28, 2020. (Doc. 918.) Similarly, Plaintiffs have
repeatedly advocated in their amended and supplemental complaints, motions,
and briefs as well as at court hearings for the relief addressed in the current
preliminary injunction motions before this Court.
II.

Legal Standards
A. Preliminary Injunction Standard
A preliminary injunction is an “extraordinary remedy” designed to prevent

irreparable harm to the parties during the pendency of a lawsuit before a final
decision on the merits can be rendered. See Winter v. Nat. Res. Def. Council, 555
U.S. 7, 24 (2008). “A request for equitable relief invokes the district court’s
inherent equitable powers to order preliminary relief . . . in order to assure the
availability of permanent relief.” Levi Strauss & Co. v. Sunrise Int’l Trading Inc.,
51 F.3d 982, 987 (11th Cir. 1995); Federal Trade Comm’n v. United States Oil and
9

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 10 of 147

Gas Corp., 748 F.2d 1431, 1433–34 (11th Cir. 1984). To support a preliminary
injunction, Plaintiffs must present evidence that clearly establishes: (1) a
substantial likelihood of success on the merits on their claims; (2) a substantial
threat of irreparable injury if the injunction were not granted; (3) that the
threatened injury to the plaintiffs outweighs the harm an injunction may cause the
defendants; and (4) that granting the injunction would not be adverse to the public
interest. McDonald’s Corp. v. Robertson, 147 F.3d 1301, 1306 (11th Cir. 1998). At
the preliminary injunction stage, a district court “need not find that the evidence
positively guarantees a final verdict in plaintiff’s favor,” and may rely on affidavits
and hearsay materials which would not be admissible evidence for a permanent
injunction, if the evidence is “appropriate given the character and objectives of the
injunctive proceeding.” Levi Strauss & Co., 51 F.3d at 985 (quoting Asseo v. Pan
American Grain Co., 805 F.2d 23, 26 (1st Cir. 1986)); McDonald’s Corp., 147 F.3d
at 1306 (11th Cir. 1998).
Federal courts “possess broad discretion to fashion an equitable remedy.”
Black Warrior Riverkeeper, Inc. v. U.S. Army Corps of Engineers, 781 F.3d 1271,
1290 (11th Cir. 2015); Castle v. Sangamo Weston, Inc., 837 F.2d 1550, 1563 (11th
Cir. 1988) (“The decision whether to grant equitable relief, and, if granted, what
form it shall take, lies in the discretion of the district court.”).

“Crafting a

preliminary injunction is an exercise of discretion and judgment, often dependent
as much on the equities of a given case as the substance of the legal issues it
presents.” Trump v. Int’l Refugee Assistance Project, 137 S. Ct. 2080, 2087 (2017)
10

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 11 of 147

(per curiam); Kansas v. Nebraska, 574 U.S. 445, 456 (2015) (noting that a court of
equity may “‘mold each decree to the necessities of the particular case’ and ‘accord
full justice’ to all parties”). In formulating the appropriate remedy, “a court need
not grant the total relief sought by the applicant but may mold its decree to meet
the exigencies of the particular case.” Int’l Refugee Assistance Project, 137 S. Ct. at
2087 (citation omitted). And the Supreme Court has repeatedly advised, “[w]hen
federal law is at issue and ‘the public interest is involved,’ a federal court’s
‘equitable powers assume an even broader and more flexible character than when
only a private controversy is at stake.’” Kansas v. Nebraska, 574 U.S. at 456 (citing
Porter v. Warner Holding Co., 328 U.S. 395, 398 (1946) and Virginian R. Co. v.
Railway Employees, 300 U.S. 515, 552 (1937)).
B.

Standard for Challenging Constitutionality of State Election
Laws/Systems

When considering the constitutionality of an election law, the Court applies
the framework established by the Supreme Court in Anderson v. Celebrezze and
Burdick v. Takushi. Under this framework, referred to as the Anderson-Burdick
test, when deciding whether a state election law violates the due process rights
guaranteed by the Fourteenth Amendment, the Court must weigh the character
and magnitude of the burden the State’s rule imposes on those rights against the
interests the State contends justify that burden, and consider the extent to which
the State’s concerns make the burden necessary. Timmons v. Twin Cities Area
New Party, 520 U.S. 351, 358 (1997); Burdick v. Takushi, 504 U.S. 428 (1992);
Anderson v. Celebrezze, 460 U.S. 780 (1983). “[T]he level of the scrutiny to which
11

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 12 of 147

election laws are subject varies with the burden they impose on constitutionally
protected rights.” Stein v. Alabama Sec’y of State, 774 F.3d 689, 694 (11th Cir.
2014). A law that severely burdens the right to vote must be narrowly drawn to
serve a compelling state interest. Burdick, 504 U.S. at 434; Democratic Exec.
Comm. of Florida v. Lee, 915 F.3d 1312, 1318 (11th Cir. 2019). But “reasonable,
nondiscriminatory restrictions” that impose a minimal burden may be warranted
by “the State’s important regulatory interests.” Common Cause/Ga. v. Billups, 554
F.3d 1340, 1352 (11th Cir. 2009) (citing Anderson, 460 U.S. at 788). “And even
when a law imposes only a slight burden on the right to vote, relevant and
legitimate interests of sufficient weight still must justify that burden.” Lee, 915 F.3d
at 1318-19; Billups, 554 F.3d at 1352.
III.

Discussion of Claims and Relief Issues
A. Background Context
Georgia’s new 2019 Election Code mandates that “all federal, state, and

county general primaries and general elections as well as special primaries and
special elections in the State of Georgia shall be conducted with the use of scanning
ballots marked by electronic ballot markers and tabulated by using ballot scanners
for voting at the polls and for absentee ballots cast in person, unless otherwise
authorized by law; provided, however, that such electronic ballot markers shall
produce paper ballots which are marked with the elector’s choices in a format
readable by the elector.” O.C.G.A. § 21-2-300(a)(2). The legislation places the
responsibility of selecting the equipment for the new voting system with the
12

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 13 of 147

Secretary of State. See O.C.G.A. § 21-2-300(a). The law expressly requires that the
“equipment used for casting and counting votes in county, state, and federal
elections shall be the same in each county of this state and shall be provided to
each county by the state, as determined by the Secretary of State.” O.C.G.A. § 212-300(a)(1) (emphasis added).
The Election Code further requires the Secretary of State to certify the new
BMD voting system as “safe and practicable for use” in compliance with the Rules
of the Georgia State Election Board prior to authorizing its implementation in
state, federal, and county elections in the State. O.C.G.A. § 21-2-300(a)(2); see
also Ga. Comp. R. & Reg. 590-8-1-.01(d). It also requires that the state furnished
uniform electronic ballot system “be certified by the United States Election
Assistance Commission prior to purchase, lease, or acquisition.” O.C.G.A. § 21-2300(a)(3).

The Election Code tasks the Georgia State Election Board with

promulgating rules and regulations governing audit procedures and requires that
“[t]he procedures prescribed by the State Election Board shall include security
procedures to ensure that collection of validly cast ballots is complete, accurate,
and trustworthy throughout the audit.” O.C.G.A. § 21-2-498(b)&(d).
The legislation enacted in April 2019 was adopted on the heels of a number
of public events revolving around Georgia’s outdated DRE election system: a
widely publicized breach of the State’s election server maintained by the State’s
election services contractor, Kennesaw State University, that exposed voluminous
voter data, as well as sensitive software applications and passwords that triggered
13

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 14 of 147

the transfer of the University’s Center for Election Services election operations
directly to the Secretary of State’s office from its contractor after December 31,
2017; 9 a prior failed effort to pass election legislation during the winter legislative
session of 2018 to phase out the old DRE voting machines and State Global
Election Management Systems (“GEMS”) that dated back to 2001; and this Court’s
Order in September 2018 on the Plaintiffs’ Motions for Preliminary Injunction
declining to enter the injunctive relief requested but finding that the Plaintiffs had
demonstrated a likelihood of prevailing on the merits of their claim that the
outdated DRE system as implemented was constitutionally not sustainable. 10
The State commenced replacement of the DRE/GEMS system with
Dominion’s BMD system beginning in the summer of 2019 after conclusion of the
request for proposals and contracting processes. This voting system change,
targeted for completion in time for full implementation in 2020, was a major shift
and undertaking. Dominion plays a large role in all dimensions of the
implementation of the new voting system in partnership with the Secretary of

As found in the Court’s 2018 and 2019 Orders, the Secretary of State contracted with Kennesaw
State University from 2002 to December 2017 to maintain the central server and provide critical
related election services for the State at a unit in the University called the Center for Election
Services (“CES”). Evidence reviewed in detail by the Court showed that the central server was
accessible via the internet from at least between August 2016 and March 2017. After an
information security engineer KSU’s Information Security Office performed a scan of the server
on March 4, 2017, it was immediately taken down. The FBI was contacted and took temporary
possession of the elections server. Prior to returning it to KSU, the FBI made two forensic images
of the server. KSU destroyed the original server and backup server soon after the news of the
breach was publicized and after Plaintiffs’ lawsuit was served on Defendants.
10 Curling v. Kemp, 334 F.Supp.3d 1303 (N.D. Ga. 2018).
9

14

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 15 of 147

State’s Office. 11 The contract was entered at a time when the cybersecurity risks
and vulnerabilities of digital election systems had emerged as a major concern of
national leadership and as well as prominent computer engineering and
cybersecurity experts and academic organizations. Election systems were now
classified as critical national infrastructure.

Voter-verified ballots and hand-

marked ballots in particular were deemed important tools for protecting the
security of voting systems by leaders in the academic cybersecurity field, including
the sole information technology and cybersecurity expert on the Commission 12
appointed by the Secretary of the State to provide recommendations regarding the
replacement of the DRE System. (See August 15, 2019 Order, Doc. 579 at 35-42;
September 17, 2018 Order, Doc. 309 at 11-12.)
Georgia is the only state using the Dominion barcode-based BMD system
statewide as the mandatory voting method for all in-person voters. (See Decl. of
Dr. Eric Coomer, Doc. 658-2 ¶ 5) (“Dominion’s ImageCast X BMD system is
currently used by Cook County and the City of Chicago, Illinois, several
jurisdictions within the States of Michigan and Pennsylvania, and will be used by
several California counties including San Francisco, Alameda, Riverside, Contra
Costa, and San Diego in the upcoming 2020 election cycle.”). According to a study

The leadership of the Secretary of State’s Elections Division and Center for Elections Systems
(transferred from Kennesaw) has remained intact throughout.
12 Dr. Wenke Lee, Professor of Computer Science at Georgia Tech University and Co-Executive
Director of the Institute for Information Security, was the sole computer scientist appointed to
the Secretary of State’s Secure Accessible Fair Elections (“SAFE”) Commission.
11

15

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 16 of 147

by Verified Voting, Georgia and South Carolina 13 are the only states that require
the use of BMDs as the primary method for all voters. (Decl. of Warren Stewart, 14
Doc. 681-2; Decl. of Dr. Alex Halderman, Doc. 785-2 ¶ 47; Decl. of Dr. Alex
Halderman, Doc. 855-1 at ¶ 3.) The majority of election jurisdictions across the
U.S. use hand-marked paper ballots as the primary method of voting and provide
BMDs exclusively for voters who request them for accessibility (e.g., those with
certain disabilities) or upon voter request. 15
The Secretary of State’s Office contracted with Dominion for all equipment
and software components of the system (the BMD touchscreens, attached ballot
printers, ImageCast optical scanners that tabulate ballot votes, and the KnowInk
PollPads) but continued to use its ENET voter registration database system. The
ENET system provides the voter data foundation for the PollPads used for voter
check-in at the polls.
In entering into the Dominion contract, the Secretary of State proceeded
with an agreement for the current level of capacity of Dominion’s ImageCast
optical scanner to tabulate votes based on the scanned image of the QR barcode
encoded with the voter’s designated ballot selections. The Dominion ImageCast
optical scanners used by Georgia in tandem with the BMDs are capable of scanning

In 2019, South Carolina began using the ExpressVote ballot marking system developed and
marketed by ES&S.
14 Warren Stewart is a Senior Editor and Data Specialist at Verified Voting.
15 See Verified Voting, The Verifier, https://verifiedvoting.org/verifier/#mode/navigate/
map/ppEquip/mapType/normal/year/2020 (last visited Aug. 18, 2020). (See also Ex. 1 to
Stewart Decl., Doc. 681-2 at 6-14.)
13

16

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 17 of 147

and tabulating votes without a QR barcode. (Decl. of Dr. Eric Coomer, Doc. 658-2
¶ 9; Decl. of Dr. Alex Halderman, Doc. 785-2 ¶¶ 4, 37-40.) In response to the
State’s request for proposals during the procurement process, Dominion
represented that an upcoming version of its BMD software would not need to print
barcodes on ballots. 16 The BMDs under the prospective option would instead
produce a human-readable ballot that would be counted by the optical
scanner/tabulators based on voters’ electronic vote designations on the ballot by
reading particular target areas associated with the voter selections, similar to how
they are programmed to read hand-marked paper ballots. (Decl. of Dr. Eric
Coomer, Doc. 658-2 ¶ 9; Decl. of Dr. Alex Halderman, Doc. 785-2 ¶ 37.) This
option is described as an “upgrade” available only after “certification is complete
at the EAC.” 17 The Court assumes that cost considerations, among others, may
have played a role in this purchasing decision, as it was currently available through
some other vendors. 18 However, the State’s actual option in the long run of
upgrading the system to one that tabulates from the voter designations, and not a
QR barcode is potentially relevant. 19 When that might occur is another question,

“Clarification Questions\MS 16-1 Supply Chain Dominion and KnowInk Final.docx” available
at https://sos.ga.gov/admin/uploads/Dominion.zip.
17 EAC is the acronym for the U.S. Election Assistance Commission.
18 Other manufacturers offer EAC-certified non-barcode BMDs, including the Clear Ballot
ClearAccess system and the Hart Verity Touch Writer. Instead of a barcode for vote tabulation,
these systems print a ballot that looks like a hand-marked paper ballot but has scan targets filled
in for the selected candidates. (Decl. of Dr. Alex Halderman, Doc. 785-2 ¶ 37.)
19 If the referenced Dominion software upgrade moved forward and was purchased, this would
also allow an independent audit's capacity to track voting back to scanned ballots that are counted
by a scanner based on human text identified voter selections that serve as the actual basis for the
scanner/tabulators’ tallying of ballot votes.
16

17

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 18 of 147

as the EAC has apparently yet to certify Dominion’s upgrade option, and in any
event, it may entail costs the State might not be willing to incur.
The Court focuses in this Order on the salient evidence that Plaintiffs have
presented in support of their Motions to demonstrate the constitutional infirmity
of the system because of its alleged impact on voters’ exercise of the right to vote
and whether their votes will be counted as cast or at all.
The Court recognizes from the outset that the State Defendants did face
significant challenges in implementing a new statewide voting system in barely 15
months and that early elections and primaries would occur prior to the ultimate
election date of November 3, 2020. The Covid-19 pandemic further complicated
that challenge. While this fact does not in any way erase the issues raised by
Plaintiffs, especially in the context of the particular record in this case, the Court
still bears this pragmatic reality in mind.
The Court divides its discussion below of the motions before it as follows.
Section B addresses the evidence presented in conjunction with the Curling
Plaintiffs’ Motion for Preliminary Injunction and a portion of the Coalition
Plaintiffs’ Motion for Preliminary Injunction on BMDs, Scanners and Tabulators
and Audits. Section C addresses the Coalition Plaintiffs’ Motion related to the issue
of ballot secrecy. Section D addresses that portion of the Coalition’s Motion as to
Scanners and Tabulators focused on the review and counting of hand-marked

18

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 19 of 147

ballots, including absentee ballots, provisional ballots, and finally, some portion of
emergency ballots cast. 20
B.

Claims Relating to BMDs, Scanners/Tabulators, and Audits
1.

Cybersecurity Risks and Reliability Issues Presented
by Implementation of the BMD System

The evidence, expert opinion testimony, and argument Plaintiffs offer in
support of their challenge to the constitutionality of the State Defendants’
implementation of a barcode-based system for all in-person voting falls into three
main areas. They contend that the evidence shows:
(1) The QR barcode-based BMD voting system does not produce a voterverifiable paper record of the votes cast. Therefore, voters will be unable to
conduct any verification of the information encoded in the non-human readable
barcode, will have no way of knowing what votes they are actually casting, and will
instead be forced to trust that the barcode accurately conveys their intended ballot
selections. Both the QR barcode recording of votes and the text summary of ballot
selections are subject to being accessed and manipulated through hacking,
unauthorized intrusion into the BMD computer system or its various components
(scanner, printer, etc.), by USB flash drives (or similar devices), or by other

For a variety of reasons, local precinct polling stations end up sending emergency ballots to
their Counties’ election office for scanning and tabulation rather than handling this themselves.
Local precincts in the past have treated emergency ballots like provisional ballots that must be
sent to the County office for a determination to be made of voter eligibility. However, consistent
with current state regulations, precincts processing emergency ballots are authorized to allow
voters to cast and scan their own emergency ballots, assuming voting equipment is operational.

20

19

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 20 of 147

interfaces with the internet through cyber attacks or applications that may be
carrying malware (whether intentionally or not).
(2) The QR barcode-based BMD voting system poses major security and
fidelity of vote issues because the BMD system is susceptible to significant
cybersecurity risks and manipulation through hacking access to any one of its
multiple components (BMD, printer, scanner) and through untraceable
manipulation or alteration of code. The QR barcode is not encrypted and may also
be a vector of data system manipulation.
(3) The QR barcode-based BMD voting system is incapable of being
meaningfully audited for a variety of reasons: (a) the QR code cannot itself be
verified by a voter; (b) the length and complexity of many ballots and the printed
ballot text’s condensed mode of summarizing the voter’s ballot selections
(identifying solely the candidate selected by office or condensed constitutional
amendment summaries identified by question number or by a few words); and (c)
research reflecting that most voters do not review these printed ballot summaries,
and those that do, will not detect errors in ballots presented for verification based
solely on their memories.
Plaintiffs presented multiple expert witnesses to address their assessment of
the Dominion system’s cyber risk vulnerabilities and incapacity to provide a voter
verifiable or auditable vote. 21 Plaintiffs’ experts testifying at the hearing or by
State Defendants requested that some of the Plaintiffs’ expert testimony be presented in sealed
proceedings and affidavits to ensure the protection of Dominion’s intellectual property and the
21

20

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 21 of 147

affidavit included: Dr. Andrew W. Appel, Dr. Richard DeMillo, Dr. J. Alex
Halderman, Mr. Harri Hursti, Mr. Vincent Liu, Mr. Kevin Skoglund, and Dr. Philip
B. Stark.
Defendants have contested Plaintiffs’ cybersecurity, vote fidelity, and voting
system evidence through cross-examination as well as through the testimony of the
State’s witnesses and Dr. Eric Coomer, Director of Product Strategy and Security
for Dominion Voting Systems, and the testimony of Jack Cobb, the Director of Pro
V&V, the United States EAC accredited private laboratory retained by the Georgia
Secretary of State to assess and test Dominion’s Democracy Suite 5.5-A voting
system software and associated components 22 and the KnowInk electronic
pollbook as deployed in Georgia for EAC certification. Although Mr. Cobb’s
affidavits addressed cybersecurity related matters, his testimony at the injunction
hearing plainly indicated that he actually claims no specialized knowledge or
background in cybersecurity engineering and did not himself perform any security
risk analysis of the BMD system. Defendants did not introduce any evidence from

security of the voting system. The Court preliminarily granted these requests by and large so as to
rapidly move proceedings forward as it could not predict precisely what matters would be covered
in the testimony or the import of information in advance. Plaintiffs preserved their objections to
the sealing. The Court will reconsider these sealing decisions, if appropriate, upon a properly
supported motion.
22 According to Mr. Cobb’s first affidavit, “Georgia certified the Dominion Voting’s Democracy
Suite 5.5-A in August 2019. Pro V&V did not test this specific version of the voting system for the
EAC, but had previously engaged in testing the baseline system (D-Suite 5.5),” apparently for
another client. (Doc. 821-6 at 3-4.) Later, in 2020, another modification was made to the software
relating to scanner software (denominated 5.5-A GA) and approved on April 13, 2020 by EAC.
Georgia conducted pilot elections in 2019 and some early voting during the March 2020 primary
(before it was postponed and combined with the statewide primary) on the system while this
certification was pending.

21

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 22 of 147

Fortalice Solutions, the cybersecurity consulting firm that previously has
performed security analysis regarding the Secretary of State’s information
technology system, as discussed in the Court’s Order of August 15, 2019 and which
conducted a confidential initial evaluation of the BMD system in November 2019
at Defendants’ counsel’s request on behalf of the Secretary of State. Thus, the State
Defendants did not present any independent cybersecurity expert to directly
address the cybersecurity issues and risk vulnerabilities of Dominions’ QR code
voting system raised by Plaintiffs. Instead, State Defendants relied on Dr. Coomer’s
testimony, to address – based on his professional experience 23 – some of the
significant cybersecurity issues raised by Plaintiffs. The State Defendants also
provided expert testimony regarding the issue of whether a QR code based voting
system, where votes are recorded and tabulated based on a scanner/tabulator’s
reading of the QR code, can be properly subject to a risk-limiting audit as to the
outcome of any specific election in response to the extensive testimony provided
by Plaintiffs’ experts on this subject.
Plaintiffs’ substantive evidence regarding the Defendants’ implementation
or usage of the BMDs, scanner/tabulators, and audits is the most complex, expertintense evidence presented in this case. Indeed, this array of experts and subject
Dr. Coomer previously served as Vice President of U.S. Engineering for Dominion and prior to
that was the Vice President of Research and Development for Sequoia Voting Systems. He has
worked in product development for election systems since 2005. He obtained his Masters degree
and Ph.D. in nuclear physics and plasma physics from the University of California, Berkeley and
a bachelor of science degree in engineering physics from Rensselaer Polytechnic Institute. (Tr.
Vol. II at 99-100.) He additionally testified that he had designed the vote adjudication system
used by Dominion, had written code for various election components, and provides primary
election support for major Dominion customers.
23

22

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 23 of 147

matter specialists provided a huge volume of significant evidence regarding the
security risks and deficits in the system as implemented both in witness
declarations and live testimony at the preliminary injunction hearing. 24

As

authorized discovery only commenced shortly before the preliminary injunction
hearing, no expert or other depositions had been conducted.
While Plaintiffs’ experts provided illuminating evidence, this evidence still
had its own constraints. First, security information from the Secretary of State’s
office was limited. The Secretary of State’s response to Plaintiffs’ authorized
expedited discovery requests indicated that its cybersecurity consultant, Fortalice
Solutions, had not generated any consulting studies, audits, or assessments of data
system security issues since August 1, 2019 when the State commenced its early
work on implementation of the Dominion system, other than a November 2019
report requested by Defendants' counsel and withheld based on attorney work
product privilege. 25 (See September 2, 2020 Order, Doc. 858 (approving nondisclosure based on assertion of privilege and in turn, granting on limited terms
Plaintiffs’ request for inspection of BMD equipment); see also, August 15, 2019
Order, Doc. 579 at 73-90 (discussing the focus of Fortalice evaluations of security

Additionally, witness declarations and testimony given in connection with earlier preliminary
injunction motions was available for consideration to the extent that it was relevant and filed in
the record.
25 The Court’s August 15, 2019 Order provided this explicit remedial relief: “The Secretary of
State’s Office should work with its consulting cybersecurity firm to conduct an in-depth review
and formal assessment of issues relating to exposure and accuracy of the voter registration
database discussed here as well as those related issues that will migrate over to the State’s
database or its new vendor’s handling of the EPoll voter database.” (Doc. 579 at 150.) The
consulting firm referenced is Fortalice.
24

23

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 24 of 147

and software issues prior to August 2019).) Second, while some of Plaintiffs’
experts had accessed other related BMD models and Dominion software
previously, the specific BMD model and software variation (along with the optical
scanners/tabulators programed with Dominion’s proprietary software) used in
Georgia was not accessible to the Plaintiffs and their cybersecurity expert, Dr.
Halderman, until Friday, September 4, 2020 at 5:30 p.m. – and then, only by Court
Order. 26 This was just days before the preliminary injunction hearing commenced
on September 10, 2020. Upon the Plaintiffs’ filing of a discovery dispute notice
regarding their access issue, the Court ordered the swift production of a BMD and
related ImageCast precinct scanner for Plaintiffs’ expert’s testing and assessment,
subject to various confidentiality provisions and other terms. 27 (As the Dominion
system uses an off-the-shelf printer, the Plaintiffs provided their own new printer
of the same model used by the Defendants.)
Dr. Halderman’s testing of the equipment and software occurred over the
short period of time before the scheduled hearing. 28 His evaluation in this
abbreviated time frame yielded some supplemental results that supported the

Other cybersecurity experts such as Mr. Hursti also appear to have also consulted with Dr.
Halderman in this process.
27 The Defendants sought this confidentiality for two purposes: to protect the confidentiality and
secrecy of this portion of the election system’s functioning as well as to protect Dominion’s
confidential intellectual property pursuant to its contract with the State.
28 Dr. Halderman is a Professor of Computer Science and Engineering and Director of the
University of Michigan Center for Computer Security and Society. He is a nationally recognized
expert in cybersecurity and computer science in the elections field. He testified before the United
States Senate Select Committee hearings held on the topic of on Intelligence held on Russian
interference in the 2016 U.S. Elections. His testimony and work was referenced in the Senate
Committee’s report. Professor Halderman has testified multiple times in this case.
26

24

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 25 of 147

Plaintiffs’ cybersecurity analysis of the malware vulnerability risks of this specific
BMD system. In particular, Dr. Halderman’s testing indicated the practical
feasibility through a cyber attack of causing the swapping or deletion of specific
votes cast and the compromise of the system through different cyber attack
strategies, including through access to and alteration or manipulation of the QR
barcode. 29 As the National Academies of Sciences, Engineering, and Medicine,
found in its seminal report, Securing the Vote: Protecting American Democracy 42,
80 (National Academies Press, 2018)(“National Academies Report” or “NAS
Report”):
[A]ll digital information – such as ballot definitions, voter choice
records, vote tallies, or voter registration lists – is subject to malicious
alteration; there is no technical mechanism currently available that
can ensure that a computer application – such as one used to record
or count votes – will produce accurate results; testing alone cannot
ensure that systems have not been compromised; and any computer
system used for elections – such as a voting machine or e-pollbook –
can be rendered inoperable.
(Doc. 285-1, Ex. 1.)
Dr. Halderman had physical access to the BMD system when conducting his
tests, which expedited his experimentation and intrusion into the software system.
Evidence presented in this case overall indicates the possibility generally of
hacking or malware attacks occurring in voting systems and this particular system
through a variety of routes – whether through physical access and use of a USB

The Defendants disputed this evidence and implied the existence of other possible factors.
Given that Dr. Halderman’s testimony was presented under seal, the Court only describes this
portion of the evidence in a general manner.
29

25

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 26 of 147

flash drive or another form of mini-computer, or connection with the internet. As
discussed in the declarations and testimony of the proffered national cybersecurity
experts in this case, a broad consensus now exists among the nation’s cybersecurity
experts recognizing the capacity for the unobserved injection of malware into
computer systems to circumvent and access key codes and hash values to generate
fraudulent codes and data. In these experts’ views, these risk issues are in play in
the operation of Dominion’s Democracy Suite 5.5-A GA, and take on greater
significance because the system is one that does not provide a verifiable and
auditable ballot record because it relies on the QR code for vote tabulation and that
code itself cannot be read and verified by the voter. (See, e.g, Declaration of
Vincent Liu, Doc. 855-2 at 6-8; Tr. Vol. II at 59, 64; Declaration of Dr. Andrew
Appel, Doc. 855-3 at 6; Declarations of Dr. Alex Halderman, Doc. 682 at 4-11, Doc.
785-2; see also Appel, A.W., R. DeMillo, and P.B. Stark, 30 Ballot-Marking Devices
Cannot Ensure the Will of the Voters, Election Law Journal (2020), Doc. 619-10.)
Hacking alterations of the barcodes and/or predicate text, security keys, or hash
values renders tracing or auditing of the fraudulent change in voting data difficult

As will be discussed further later in this Order, Dr. Stark serves on the Advisory Board of the
U.S. Election Assistance Commission and as a member of the EAC’s cybersecurity committee.
(Doc. 296-6.) Dr. Appel is the Eugene Higgs Professor of Computer Science at Princeton
University and has over 40 years’ experience in computer science and 15 years if experience in
studying voting machines and elections. He has served as Editor in Chief of ACM Transactions on
Programming Languages and Systems, the leading journal in his field. (Doc.681-3). Dr. DeMillo
is the Chair of Computer Science at Georgia Tech University. He previously served as the Director
of the Georgia Tech Center for Information Security and Chief Technology Officer for HewlettPackard. (Doc. 548 at 74; Doc. 579 at 34.) Dr. DeMillo has conducted research relating to voting
system and election security since 2002. He helped write guidelines for using electronic voting
machines for use by the Carter Center. He has also served on the advisory boards of Verified
Voting and the Open Source Election Technology Institute. (Id.)

30

26

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 27 of 147

or impossible in their viewpoint – and in turn impacts the capacity to conduct
appropriate auditing of ballot data or to implement corrective “re-count”
measures.
Dr. Halderman’s empirical evaluation of the Georgia programmed BMD
voting equipment and software was partial and incomplete due to the short time
allocated for the examination prior to the injunction hearing. And Dr. Halderman
indicated that he would need more time with the equipment and software to
conduct further testing of the software and modeling of other malware that could
attack any component of the BMD system and infect the system and recording of
votes or cause other mayhem. Dr. Halderman provided directly relevant
information to a demonstration of the risks facing this specific voting system.
However, his evaluation and testing of the system was limited as described and not
fully subject to being itself examined in depth by Dominion’s own cyber security
staff given the last moment nature of the testing. 31
That said, Dr. Halderman has also offered other core relevant testimony in
this case in open and sealed hearings as well as in sworn declarations. (See, e.g.,
Doc. 785-2.) He as well as other cybersecurity experts testifying on behalf of
Plaintiffs here have provided evidence credibly explaining how malware can mask
itself when inserted in voting software systems or QR codes, erase the malware’s

The Court makes this point not as a criticism of Dr. Halderman but simply to point out that due
to a variety of circumstances and the timing of the Court’s ruling on the Defendants’ motion to
dismiss the BMD claims at a late date, discovery did not proceed here until the eleventh hour –
and only then on a highly expedited, curtailed basis prior to the preliminary injunction motion.
31

27

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 28 of 147

tracks, alter data, or create system disruption. And while some attacks can be
detected, their results often are not susceptible to full correction. For all these
reasons, Dr. Halderman and Plaintiffs’ other cybersecurity expert witnesses
testified that heightened proactive protection measures are needed beyond what
the current Dominion system as implemented in Georgia provides 32 or

There was some back and forth in the parties’ submissions regarding one of Dr. Halderman’s
affidavits pointing to a 2019 finding of one or more of the Texas Secretary of State’s examiners’
determining that Dominion’s Democracy Suite 5.5-A version was substantively deficient and did
not meet certification standards. Dr. Coomer dismissed the significance of that one report in his
affidavit in this case. Ultimately, on January 24, 2020, the Texas Secretary of State's Office, based
on the multiple reports of different Texas examiners on varied technical and substantive issues,
concluded along lines quite close to Dr. Halderman’s ultimate opinion in this case that
certification should be denied. The Texas Secretary of State's Office found this same Dominion
5.5-A version should be denied certification for use in Texas elections on this basis: “The examiner
reports identified multiple hardware and software issues that preclude the Office of the Texas
Secretary of State from determining that the Democracy Suite 5.5-A system satisfies each of the
voting-system requirements set forth in the Texas Election Code. Specifically, the examiner
reports raise concerns about whether the Democracy Suite 5.5-A system is suitable for its intended
purpose; operates efficiently and accurately; and is safe from fraudulent or unauthorized
manipulation. Therefore, the Democracy Suite 5.5-A system and corresponding hardware devices
do not meet the standards for certification prescribed by Section 122.001 of the Texas Election
Code.” https://www.sos.texas.gov/elections/laws/dominion.shtml (last visited September 25,
2020) (emphasis added). The Court also notes, though, that there are other jurisdictions that have
approved the certification of the 5.5-A system, as Defendants assert. As noted in the affidavit of
Jack Cobb, Defendant’s witness who is the Laboratory Director for Pro V&V, the State of
Pennsylvania has certified Dominion's Democracy Suite 5.5-A for usage. The Report of the
Pennsylvania Commonwealth of Pennsylvania Department of State approving the usage of
Democracy Suite 5.5. and 5.5A (in Pennsylvania jurisdictions choosing to utilize it), highlights
that the approval is given “provided the voting system is implemented with the
conditions listed in Section IV” of the Report. Commonwealth of Pennsylvania, Department
of State, Report Concerning the Examination Results of Dominion Voting Systems Democracy
Suite 5.5A With ImageCast X Ballot Marking Device (ICX-BMD), ImageCast Precinct Optical
Scanner (ICP), ImageCast Central Station (ICC), and Democracy Suite EMS (EMS), available at
https://www.dos.pa.gov/VotingElections/Documents/Voting%20Systems/Dominion%20Demo
cracy%20Suite%205.5- A/Dominion%20Democracy%20Suite%20Final%20Report%20scanned
20with%20sig nature%20011819.pdf (emphasis in original.) These conditions are substantive,
addressing items ranging from system security and prohibition of the connection of the system's
components with any interface with modems or networks, to requirements for manual statistical
audits, robust Logic and Accuracy testing on each device, voter education and warnings, needed
voter instruction changes, and a host of other proactive substantive measures. Pennsylvania’s
review indicates that jurisdictions using the Dominion system do so in principal part with a handmarked ballot based version of the system in tandem with scanners for vote tabulation. However,
32

28

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 29 of 147

alternatively, are simply not feasible given the system’s central reliance on a
humanly unverifiable QR code.
Plaintiffs’ voluminous expert testimony describes an interrelated range of
systemic software and operational practices that define and impact the functioning
of the voting system. The Plaintiffs maintain that the BMD system and software
design as well State Defendants’ identified practices independently and as a whole
undermine the integrity, security, and functionality of the voting system and in
turn, adversely impact whether citizens’ votes will be counted as intended or
counted at all. The Court has considered this challenge on its merits because a
voting system, procedure, or practice can in reality subvert or impair citizens’
exercise of the franchise and the counting of their votes. Still, the Court notes from
the outset that the voting system challenged here is a new system for Georgia, 33
replacing the outdated DRE system that was dependent on totally obsolete
software and defective usage practices that patently made it unreliable. Whatever
the new BMD system’s flaws in design, age, and reliability of components, or
implementation – some of which may be significant – the evidence would at this
early point in time have to be highly compelling to justify the Court’s considering
enjoining on a wholesale basis the State’s use of the a BMD voting system approved

all voters are given the opportunity to use the ADA compliant marking device feature of the
Democracy Suite 5.5 A. System.
33 However, as Plaintiffs’ experts Mr. Liu and Dr. Halderman testified in their respective affidavits
in connection with the instant motions, BMDs use an Android operating system that is more than
five years old and outdated.

29

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 30 of 147

by the Secretary of State, pursuant to his authority under a state law enacted as
recently as 2019.
The issues and alleged practices identified by Plaintiffs as a basis for enjoining
the system include:
• the BMD QR code’s lack of encryption, that opens voting data up to breach,
alteration, and other security weaknesses;
• cybersecurity risk management and practices that allegedly render the
voting system vulnerable to compromise and breach, and alteration or loss
of votes;
• alleged major shortcuts taken in state protocols now used for conducting
Logic and Accuracy testing (“L & A”) of voting machines required under
Georgia law preceding each election, even though L & A testing constitutes
a fundamental threshold standard to verify the correct functioning and
accurate output of the BMD system and its component parts;
• the alleged impossibility or inadequacy of using Risk-Limiting Audit
methodology meaningfully to audit BMD ballots and votes tallied based on
a scanned QR code, where evidence indicates that only a fraction of voters
review their printed ballot;
• scanning software, practices, and settings that allegedly result in voters’
ballot selections on paper ballots (whether cast as absentee, provisional, or
emergency ballots) being interpreted as blank and not counted, though
clearly appearing on the hand-marked ballots cast by voters;
30

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 31 of 147

• the alleged failure to protect the confidentiality of the voting process by the
use of timestamps on scanners that trace back to the voters at the precinct
and by the large BMD screens that expose the voter's selection choices to
other individuals in the precinct and burdening their free exercise of the
franchise.
2.

Encryption & Risk Exposure

The Court at some length described in its August 15, 2019 Order the changed
landscape of cybersecurity in which election systems operate. More evidence
emerging in the past year has added to this picture of heightened security concerns.
The Court does not further delve into this reality here because the Defendants do
not appear to actually dispute that cybersecurity risks are significant in the
electoral sphere. Dr. Halderman’s voting machine testing exercise in the 2020
preliminary injunction hearing – as in 2019 – showed how this might play out. As
several of Plaintiffs’ national cybersecurity and engineering experts explained in
their testimony, the issues presented for any cyber electoral system is how to fortify
the system’s protection against unauthorized intrusion or accessing of software
and databases, the system’s detection and limitation of the impact of malware, and
minimization of risk overall, including through active auditing procedures. 34

See generally, Mr. Liu testimony, Tr. Vol. II, Mr. Liu Declaration at Doc. 855-2; Dr. Halderman
testimony, Tr. Vol II and Vol. III (and in conjunction with both preceding preliminary injunction
hearings and related filings); Dr. Halderman Declarations at Docs. 785-2, 855-1; Mr. Skogland
testimony, Tr. Vol. III; Mr. Skoglund Declarations at Docs. 853-5, 853-6; Dr. Appel Declaration,
Doc. 855-3; Mr. Hursti testimony, Tr. Vol. I; Hurti Declarations at Docs. 809-3, 800-2, 680-1; Dr.
Demillo Declarations, Docs. 285, 716-1; Dr. Stark testimony, Tr. Vol. I; Dr. Stark Declaration, Doc.
809-2.

34

31

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 32 of 147

The State Defendants presented the BMD system’s cybersecurity as reliable
and fortified both based on the testimony of Dr. Coomer as Dominion’s Director of
Product Strategy and Security and the testimony of Mr. Jack Cobb, the Laboratory
Director for Pro V&V. 35 The Secretary of State retained Pro V&V to perform a
review of its newly adopted BMD voting system, as required for EAC certification
purposes, for submission to the EAC for approval. Pro V&V originally certified the
Dominion Democracy Voting’s Democracy Suite 5.5-A system in August 2019 and
has certified a modified version since that time – once in November 26, 2019 and
once on October 2, 2020. 36

Mr. Cobb represented in his affidavits filed by

Defendants that the Dominion system’s security was fortified by the encryption of
the QR code and accompanying digital signature code as well as various other
security measures such as use of a built in security feature that generates SHA-256
hash values. (Doc. 821-6 at 4.)
Mr. Cobb testified at the injunction hearing that he had fourteen years of
experience in testing voting machines, but as became apparent in the course of
these proceedings, he does not have any specialized expertise in cybersecurity
testing or analysis or cybersecurity risk analysis. Further, Mr. Cobb had not
personally done any of the security testing referenced in his affidavits.

Pro V&V, Inc., a private company, is a National Institute of Standards Technology (NIST)
Accredited Voting Systems Test Laboratory (VSTL) and a United States Election Assistance
Commission Accredited Voting Systems Laboratory.
36 Pro V&V similarly was previously retained by the Secretary of State and certified Georgia’s DRE
system in 2012 to the EAC. (Tr. Vol. II at 233.) The company’s last October 2, 2020 report is
addressed later in this Order. The EAC has as of the date of this Order not approved or acted upon
this last recommendation.
35

32

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 33 of 147

In his first affidavit, Mr. Cobb stated that the BMD printed ballot’s QR codes
are signed and encrypted. (Doc. 821-6 at 4.) When Plaintiffs’ experts disputed this
encryption claim, Mr. Cobb in his second affidavit pointed to Dominion’s own
documentation as the source of his prior statement that the encoded QR codes and
digital signature were encrypted. 37 And at the injunction hearing, Mr. Cobb
conceded that he accepted such representations on face value rather than on any
testing that he had actually done. (Tr. Vol. II at 243.) The evidence plainly
contradicts any contention that the QR codes or digital signatures are encrypted
here, as ultimately conceded by Mr. Cobb and expressly acknowledged later by Dr.
Coomer during his testimony. (Tr. Vol. II at 123, 146, 237, 243.) In his second
affidavit, Mr. Cobb averred that his prior description of the QR code as encrypted
as opposed to “encoded” was just a difference in verbiage because he is not an
academic.

As discussed later below in connection with Mr. Vincent Liu’s

testimony, this is simply not correct. Similarly, during cross examination, after
conceding that malware could affect hash value generation, Mr. Cobb indicated he
was not familiar with the fact that malware could defeat or disable the hash
values 38 – a concern addressed by all of Plaintiffs’ cybersecurity specialists who
provided declarations or testimony in this case.

Mr. Cobb’s second affidavit referenced the basis of his earlier statements regarding encryption
as Dominion documentation about digital signing and encrypting. “My statement about digital
signing and encrypting . . . come directly from Dominion Voting 2.2 – Democracy Suite System
Overview Version 5.5:146 Dated August 18, 2018 Section 2.6.1 Electronic Mobile Ballot” that
describes QR barcode encoded data as encrypted.” (Doc. 865-1.)
38 Tr. Vol. II at 236.
37

33

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 34 of 147

Mr. Cobb’s first affidavit discloses that Pro V&V did not itself conduct any
form of penetration or security testing of the 5.5-A software version specifically to
be used in Georgia (certified by Dominion in August 2019) but relied on another
company’s security testing of earlier versions of the Dominion Democracy Suite
software. 39 (Doc. 865-1 at 5; Tr. Vol. II, at 233.) 40 Dr. Coomer testified that there
is a difference between the 5.5 and 5.5-A Dominion Democracy Suite versions – a
change to the ICX software that was not deemed de minimis. (Tr. Vol. II at 138.)
Pro V&V’s assessment of the modified software version in November 2019 (“5.5.A
GA” update) (classified as de minimis) was performed by an employee no longer
with the company. Mr. Cobb’s affidavit did not indicate that he actually had
personal familiarity with that specific testing or actually any specific testing, as he
testified he did not engage in this type of activity. (Tr. Vol. II at 243.) At the
injunction hearing, he indicated that Pro V&V had never tried or tested alteration
of the QR code in Dominion version 5.5-A, though he had previously declared in
effect that this could not be done. (Tr. Vol. II at 238.) While Mr. Cobb’s affidavits
addressed cybersecurity matters and criticisms of Plaintiffs’ cybersecurity and
engineering expert affidavits, he was candid in his testimony at the injunction
hearing that he actually had no specific expertise in cybersecurity testing.

Pro V&V had conducted an assessment of an earlier version of the Dominion Democracy Suite
software.
40 Pro V&V’s August 2019 certification documentation indicates that “[t[he state certification test
was not intended to result in exhaustive tests of system hardware and software attributes.” (See
discussion of this in Dr. Halderman’s affidavit, Doc. 785-2 at 10.)
39

34

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 35 of 147

Mr. Vincent Liu, is a leading international cybersecurity analyst and
consultant. He has focused on the “offensive side of security for 21 years,” starting
with the National Security Agency as a global network exploitation analyst and
moving from there to work at Ernst & Young in their advanced security centers. He
subsequently led the global penetration team for Honeywell International and in
2005 co-founded the cybersecurity firm of Bishop Fox of which he is CEO. As he
describes, “we are hired by some of the most sophisticated, largest companies in
the world to perform product security testing, application security testing,
penetration testing, code reviews, red teaming. Essentially, companies hire us to
find vulnerabilities within their system to identify weaknesses.” 41 (Liu Testimony,
Tr. Vol. II at 54.)
Mr. Liu addressed head-on the inaccuracy of any contention that the QR
code or signature utilized in the Dominion BMD system in Georgia is encrypted.
Mr. Liu testified at the injunction hearing that based on his and his firm’s
examination of the QR codes, the codes were not encrypted. “And the process that
we undertook to perform the verification was to develop code that read the QR
code. Wherein, we were able to extract the raw data and determine . . . whether or
not it was encrypted. And our conclusion was that it was not.” (Liu Testimony, Vol.
II at 56.)

Mr. Liu further explained that encryption and encoding have

Mr. Liu further explained that his firm performs this consulting work for 8 of the top technology
companies in the world, 10 of the top 20 retailers, 5 of the 10 top media companies. (Tr. Vol. II at
54; Liu Decl., Doc. 855-2.) At Honeywell, Dr. Liu led the penetration testing team for Honeywell
International’s global security team, “where our mission was to assess and breach the security of
Honeywell’s IT infrastructure and applications.” (Doc. 855-2 at 2.)
41

35

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 36 of 147

fundamentally different meanings. “The use of encryption implies that there is an
algorithm that confers some measure of security to the system . . . . [A] way to think
about it is encryption is used to provide security. Encoding is intended for
usability. It is to make information more easily accessible, which is oftentimes
counter to, say, encryption, which is something more secret . . . . [I]t is a concept
that is very, very fundamental.” (Id. at 57.) QR codes, in short, are made to
facilitate access, not to conceal the code.
Mr. Liu also addressed whether the digital signature in the Dominion QR
code provided security for the QR code:
[T]ypically when you are thinking about digital signatures you are referring
to the use of public-key cryptography. And the intention is to provide for
integrity. In this case, public-key cryptography was not being used with QR
codes. And so the implication is that with the BMDs and the generation of
the QR codes the QR codes themselves -- the implication with the design of
the Dominion BMD system is that any device that has necessary keys to
operate would be able to generate a fake QR code. And you would not be able
to determine which machine generated it, whether it was the EMS, the BMD,
the ICP, or any other system that had that key loaded on to it.
(Id. at 58.)
Mr. Liu goes on to dismiss Pro V&V’s and Dominion’s reliance on hash
values as a central software security protective device. “[I]f you have an infected
BMD that has been compromised [by malware], it can just tell you whatever value
that it wants.” (Id. at 59.) “[A]s it is deployed within the Dominion devices, it does
not appear to be used in a fashion that could be considered secure. It can easily be
circumvented.” (Id. at 64.) Liu similarly addresses the insecurity of the encryption
key and other gateways to the system that he states can be bypassed by malware to
36

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 37 of 147

allow access to QR codes (and faking of such). (Id. at 60-61, 63; Liu Decl., Doc.
855-2 at 5-8.)
On cross-examination, Mr. Liu explained that while he had not personally
physically examined the BMD system in Georgia because it has not been accessible
for independent evaluation, he had used established standard cybersecurity
evaluation practices for assessing the vulnerability of software. Liu reviewed the
architecture and documentation regarding this specific BMD system (including
certification documentation) and considered the outdated Android operating
system 42 and principles of how relevant checksum software works, his knowledge
of applicable technology and software principles and cybersecurity vulnerabilities.
(Id. at 63-67.) He also considered the system’s use of USB devices and portals
which in his view generally are “fraught with security concerns.” (Id. at 69-70.)
Liu concluded that in his view, the design of the security of the BMD system is not
secure and “require[s] a more in-depth review.” (Id. at 68.)
In contrast, Defendants contend that Plaintiffs’ evidence boils down to
hypothetical speculation by Dr. Halderman about what “could” happen based on
his experience with other electronic voter systems, and review of Dominion
documentation, rather than a studied evaluation of the Dominion 5.5-A GA system
or its implementation. They argue that the Plaintiffs’ experts have never actually

Mr. Liu indicated that the Android system in use was over half a decade out of date, with known
vulnerabilities. (Tr. Vol. II at 68.) Similarly, Dr. Halderman noted that the Android OS versions
used on the Dominion BMDs do not have the latest security features of later Android releases.
(Halderman Decl., Doc. 785-2 at 9-11.)

42

37

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 38 of 147

seen malware that would actually alter a ballot on the Dominion voting system.
The State Defendants also question Dr. Halderman’s mode of testing the BMD
system when the Court ordered the equipment be made available for confidential
testing in early September 43 and assessment of the vulnerability of the system’s
design.
Given the Court’s assessment of the limitations in Mr. Cobbs’ and Pro V&V’s
evaluation of cybersecurity elements of Georgia’s BMD system and affidavit
accuracy issues, the Court looks to Dr. Coomer’s testimony for a fuller picture. Dr.
Coomer averred in his November 2019 affidavit, “while all computers can be
hacked with enough time and access, Dominion is not aware of any situation where
an individual used the barcode on one of its units to launch software or to affect
the operation of the unit.”. (Doc. 852-1 at 8.) In his court testimony, Dr. Coomer
describes Dominion’s Democracy Suite system as a protected “end-to-end”
election management system that is a “self-contained, self-functioning election
management system and tallying tabulation system.” (Tr. Vol. II at 117.)
Dr. Coomer represents that the servers and work-stations are “hardened” to
meet benchmarks set by NIST, the National Institute of Standards Technology.
And he represented to the Court that the NIST benchmarks do not address whether
other software applications – i.e., game applications that Mr. Hursti observed on

Dr. Halderman suggests that the “test mode” that the equipment was “on” when delivered was
designed to limit his testing capacity. And on the other hand, Defendants imply in their
questioning that Dr. Halderman may have modified the equipment in some other fashion. The
Court sees no value in such guessing now.
43

38

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 39 of 147

servers in Georgia county voting offices – must be removed to ensure that servers
are securely hardened and protected. 44 Dr. Coomer testified that one of the strong
assets of the system’s touchscreen interface is that voters cannot cast overvotes
(more than one vote in a single race) and that undervotes (no vote cast) are clearly
indicated to the voter on the screen, thereby addressing “a lot of the voter intent
issues you have with hand-marked ballots.” (Id. at 119.) And in this connection,
he commented on the clarity of the touchscreens that do not have the calibration
problems posed by legacy voting systems. (Id. at 121.)
Dr. Coomer testified at the injunction hearing that Dominion did not intend
to encrypt the QR barcode. He also testified regarding the use of digital signatures,
secure keys in the system “that are part of the system and the standard SHA-256
hashing algorithm” as protective security architecture for the software system and
the QR codes. 45 (Tr. Vol. II at 123.) Responding to State Defendants’ question
regarding what would be necessary to generate a valid (but false) QR code accepted
by the ICP scanner, Dr. Coomer discussed how all physical and software defenses
of the system would have to be defeated and source code accessed, which his
testimony as a whole suggests he did not think likely. (Tr. Vol. II. at 124.) He also
in his 2019 affidavit testified that as the BMD touch-screen tablets run the
Dominion Voting Systems software in Kiosk mode (in a mode only showing the

As discussed later, Mr. Hursti testified based on his cybersecurity experience and observations,
that a host of the game and other applications on the servers and equipment he observed as well
as internet connectivity created an obvious source for injection of malware.
45 Mr. Liu’s and Dr. Halderman’s testimony and declarations, addressed earlier, discussed their
views of the fallibility of this approach.
44

39

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 40 of 147

Touchscreen voting display), “this prevents any access to software or features
outside of the certified installed program.” (Doc. 821-1 at 2-3.) Finally, Dr.
Coomer’s affidavit represents that “the BMD has no physical component that
would allow for wireless transmissions.” 46 (Id.) Dr. Coomer acknowledged on
cross examination, however, that the Democracy Suite software works on an
Android operating system that is separate from the software and hardware, and
that is not written by Dominion. (Tr. Vol. II at 86-87.) He further acknowledged
the potential for compromise of the operating system, by exploiting a vulnerability,
that could allow a hacker to take over the voting machine and compromise the
security of the voting system software. (Id.)
The evidence of actual implementation presented by Harri Hursti’s
testimony suggest a very different picture as to the system’s implementation at this
juncture. Mr. Hursti is a nationally recognized cybersecurity expert who has
worked in security-oriented IT technology for over 30 years, with a particular
expertise in the knowledge, observation and prevention of malicious activities in
networked environments. Mr. Hursti also has an expertise in optical scanning.
(Doc. 680-1 at 37; Doc. 853-2; Tr. Vol. I at 120-121.) Mr. Hursti is the co-founder
and organizer of one of the largest annual cybersecurity and hacker community
meetings, attracting over 30,000 participants in Las Vegas in the four years prior
to the Covid-19 pandemic. He also organized the 2018 Voting Machine Hacking

The Court’s Opinion and Order of September 28, 2020 (Doc. 918) addressed in depth issues
relating to the PollPads and the continuation of prior issues involving the ENET database and
program. The Court therefore does not revisit these issues here.
46

40

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 41 of 147

Village for which he was awarded a Cyber Security Excellence Award and has
engaged in other organized efforts to work with local election officials to assist
them in gaining security expertise.
In response to the State Defendants’ critique of his specific qualifications,
Mr. Hursti indicates that “there are only a few independent voting system
researchers with more hands-on experience than I have with key components of
the Dominion Voting System elements. To my knowledge, no jurisdiction has
permitted, and Dominion has not permitted, independent research, academic or
otherwise, to be conducted on its systems, which greatly limits the number of
people with any experience with the Dominion systems.” (Doc. 853-2 at 2.) He
notes that the Voting Machine Hacking Village issued its 2019 annual report that
addressed security weaknesses, vulnerability, and exploitations discovered by the
participants regarding an array of computing systems, including a different hybrid
piece of Dominion voting equipment, the ImageCast Precinct with Ballot-Marking
Device. 47 (Id. at 3.) The report intentionally did not provide a public disclosure of
how the exploits were conducted but instead a high-level overview. Hursti states
that he was actively engaged with the underlying work and that the discoveries
were intentionally not included in the annual report for protective security reasons.
He has evaluated BMD-type devices during the DEF CON conference and

Voting
Machine
Hacking
Village
2019
Annual
Report,
pp.
17-18,
media.defcon.org › voting-village-report-defcon27 (last visited October 8, 2020). (See Doc. 6193.)
47

41

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 42 of 147

otherwise. He has also conducted in-person observations of electoral operations
and scanning in Georgia precincts and county offices during the last year since the
introduction of Dominion’s BMD system.
Mr. Hursti testified at the September 2020 injunction hearing and through
several declarations regarding his observations made while visiting county
facilities where voting activity was transpiring in the August 2020 elections and in
other sites both before and after the August observations. Based on his
cybersecurity expertise and in-depth knowledge hacker strategies, Hursti
identified concerns regarding the security of these systems. He found that in the
two county election offices he visited, election servers enabled unsafe remote
access to the system through a variety of means, extending from frequent use of
flash drives and accessing of the internet to the use of outside unauthorized
applications (such as game programs) residing on election management and
tabulation servers and other practices. Mr. Hursti testified that these practices
drive a hole through the essential cybersecurity foundation requirement of
maintaining a “hardened” 48 server (and associated computers) as well as air

“Hardening is the standard basic security practice under the well-accepted principle that a
general-purpose device when used with a lot of software for different purposes is more vulnerable
than a limited system which has [includes only] the minimum necessary to accomplish the task.”
This is accomplished by “eliminating and removing all unnecessary services, and removing all
drivers to make it the bare bone minimum needed for the task. And that is by reducing using the
attack surface making it inherently more secure.” (Hursti testimony, Tr. Vol. 1 at 126-27.) “In
essence, hardening is the process of securing a system by reducing its surface of vulnerability,
which is larger when a system performs more functions; in principle it is to the reduce the general
purpose system into a single-function system which is more secure than a multipurpose one.
Reducing available ways of attack typically includes changing default passwords, the removal of
unnecessary software, unnecessary usernames or logins, grant accounts and programs with the

48

42

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 43 of 147

gapped secure protection of the system. Without these basic protections, malware
can far more easily penetrate the server and the operative BMD system software in
turn.
Hursti found that in one of the counties, server logs were not regularly
recording or updated in full and that Dominion’s technical staff maintained control
over the logs and made deletions in portions of the logs. Yet secure and complete
logs, Hursti testified, are essential as the most basic feature of system security as
they provide the detailed activity trail necessary for the identification of security
threats and server activity and are required for purposes of conducting a sound
audit. 49 (See Hursti Decl., Doc. 853-2; Tr. Vol. II at 117-169.)
In sum, at the preliminary injunction hearing, Mr. Hursti succinctly
presented his opinion that given the irregularities that he observed as a
cybersecurity expert he had serious doubt that the system was operating correctly
and that “when you don’t have an end-to-end chain of the voter’s intent” and when

minimum level of privileges needed for the tasks and create separate accounts for privileged
operations as needed, and the disabling or removal of unnecessary services.” (Hursti Decl., Doc.
809-2 ¶ 28.) “Computers performing any sensitive and mission critical tasks such as elections
should unquestionably be hardened. Voting system are designated by the Department of
Homeland Security as part of the critical infrastructure and certainly fall into the category of
devices which should be hardened as the most fundamental security measure.” (Id. ¶ 29.) Hursti’s
personal first-hand observations and review of server log entries “confirmed that services which
would have been disabled in the hardening process are running on the server.” (Hursti Decl., Doc.
853-2 ¶ 6.) And he testified that it was visibly evident that “this system was not hardened both
based on icons observed” and on “logs showing all programs running, all drivers running, and
software installed. And that list is comprehensively proving that the system has been not
hardened.” (Tr. Vol. 1 at 127.)
49 “The most basic security practice is never to let the operators have privileges to delete or alter
log events, because that makes supervision impossible and performing forensics difficult, if not
impossible. In addition, trustworthy logs are essential to detect and deter malicious software or
intrusion.” (Doc. 853-2 at 12.)

43

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 44 of 147

a system could be maliciously or unintentionally compromised, there is no
capability of auditing the system results.
3.

Other Issues: Software Changes and Installation

In addition to the above issues, approximately two weeks after the last day
of the injunction hearing in this case, a new development or crisis (depending on
which party’s perspective) was brought to the Court’s attention.

Logic and

Accuracy testing in at least two counties demonstrated an unpredictable defect or
bug in the presentation on the ballot of the 20 candidates for one of Georgia’s U.S.
Senate seats. A column of the senatorial candidates erratically would disappear
from the ballot. Dominion conducted expedited testing to identify the source of
the bug. At first it determined it would have to replace the database system wide
across Georgia to address the issue. On the afternoon of September 25, 2020,
Chris Harvey, the Director of Elections for the Secretary of State’s Office, issued a
written notice to all County election directors regarding a ballot problem that had
arisen that might require replacement of the entire voting database. He therefore
directed that all county election offices cease Logic & Accuracy testing until further
notice. Georgia’s 159 counties thus temporarily halted all Logic and Accuracy
testing preparation of voting equipment for the elections.
Plaintiffs’ counsel notified the Court over the ensuing weekend of this
significant new election system problem. The Court held a phone conference with
counsel along with Dr. Coomer regarding the issues raised on September 28th.
The Court was at that time advised that Dominion had now determined after
44

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 45 of 147

further testing that the issue should be addressed by a software modification to run
on the ICX BMD Touchscreen voting machines that would have to be installed in
each of these BMD voting machines across the state. Meanwhile, Dominion sent
a modified version of the software for running the election on the operative ICX
BMD Touchscreen voting equipment to Pro V&V for independent testing.1
Although as it turns out, Pro V&V had not started their testing of the software
modification (or so it seems) aimed at remedying the issue at the time of the
September 28th phone call, Dr. Coomer initially advised the Court then that “so
the testing lab has already deemed the change de minimis” – an instantaneous
conclusion that bears consequences and raises questions, as later discussed here.
(Tr., Sept. 28, 2020, Doc. 926 at 38.) Dr. Coomer then responded to the Court’s
question of when therefore did the testing actually occur. He further responded
that Pro V&V had first analyzed the code change to determine if the change was
“de minimis” pursuant to EAC standards and then, based on that finding, would
conduct testing, which was proceeding on that day, Monday, September 28th. 50
By Tuesday at latest, Pro V&V had given its full approval of the software
modification, though it had yet to issue a written testing report. By that Tuesday
afternoon or evening (or earlier), Pro V&V had transmitted the modified software
to the State Elections Division for review, use, and distribution to counties on
Wednesday.

(Doc. 928-1.)

The State in turn transmitted on Wednesday,

Based on the sudden change in circumstances, the Court issued an express directive that the
State Defendants file information and documentation as to the timing of the production of the
testing documents to Pro V&V and the EAC. (See Doc. 957.)

50

45

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 46 of 147

September 30th one flash drive to each county elections office for mass
reproduction in hundreds of flash drives for installation of replacement software
on all BMDs.
At the time it was distributed to the counties, the Dominion software
modification had not yet been reviewed or approved by the Election Assistance
Commission. 51 The State contends it could immediately legally proceed without
such approval and has now launched and apparently completed the process of
Counties’ (whether by county staff or Dominion staff or contract employees)
removal of the prior software and installation of the new modified software in
thousands of voting machines across the state. At conferences held by the Court on
September 28th and October 1st, the State Defendants’ counsel maintained that
the State did not need EAC approval to implement newly modified software
essential to running all critical aspects of the voting machines as state law only
requires that the BMD system be “certified by the United States Election Assistance
Commission prior to purchase, lease, or acquisition.” O.C.G.A. § 21–2–300(a)(3).
(Tr. of Sept. 28, 2020 hearing, Doc. 925.) The State Defendants filed at the Court’s
directive the Pro V&V written testing documentation on October 2, 2020 and

HAVA authorized the creation of the Election Assistance Commission as an independent,
bipartisan organization, to establish minimum election administration and equipment standards
in the administration of federal elections. (Issues with Florida’s election machines in the 2000
presidential election were one of the triggers for Congress’s creation of the Commission.) While
state participation in EAC’s review and approval regime is voluntary, once a state has elected to
do so as in Georgia’s case, the EAC treats state compliance with its standards and procedures as
required. There is no provision for half compliance or half participation in EAC’s review
procedures. On the other hand, the EAC is not vested with actual coercive regulatory authority
and thus relies on state cooperation in connection with compliance with its standards and
determinations.
51

46

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 47 of 147

represented in the same filing that the Pro V&V summary letter had been
submitted to the EAC. However, Dominion did not in fact submit the software
modification for approval to the EAC as a de minimis change until Monday,
October 5, 2020 and then re-submitted its engineering change order request on
Tuesday evening, October 6, 2020, a day after installation of new software
statewide in BMDs across the state’s 159 counties was completed. 52 (Doc. 959-5.)
And on Wednesday, October 7, 2020, upon the EAC’s request, Pro V&V submitted
the engineering change order to the EACT verifying that it viewed the software
change as de minimis and did not require further testing. (Doc. 959-5 at 11.) The
EAC notified Dominion of its approval on Friday, October 9, 2020 in a one-line
sentence. (Doc. 960-1.) The Court is certainly not in the position to second guess
the EAC’s approval. But it does delineate here the entire sequence of events and
review to make transparent that the EAC review process and associated
independent private laboratory review process does not offer exactly a firm
protective shield as the EAC functions on a voluntary cooperation basis and does
not exercise independent regulatory authority.
EAC Certification requirements specify that pre-approval of software
program modifications is necessary, even if considered “de minimis” because of
the potential systemic impacts of software changes. Section 3.4.3 of the EAC
Certification Manual (revised November 19, 2019) provides: “Manufacturers who

Given the nature of the communications between counsel reflected in Plaintiffs’ filing of
October 6, 2002, the Court does not know what documents precisely were filed with the EAC.

52

47

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 48 of 147

wish to implement a proposed de minimis change must submit it for VSTL review
and EAC approval. A proposed de minimis change may not be implemented as
such until it has been approved in writing by the EAC.”

The EAC Manual

regulatory revision at 3.4.3.1. (3) specifies that a Voting System Test Laboratory
(VSTL) (in this case, Pro V&V) must review and assess the proposed change and
among other requirements, detail “the basis for its determination that the change
will not alter the system’s reliability, functionality, or operation.” It also must
determine whether the change meets the definition or instead “requires the voting
system to undergo additional testing as a system modification.” Section 3.4.3.1(7).
In turn, if the VSTL endorses the proposed change as de minimis and provides
requisite documentation, EAC “has sole authority to determine whether the VSTL
endorsed change constitutes a de minimis change under this section.” Section
3.4.3.3. If the EAC determines that the proposed de minimis change cannot be
approved, “the proposed change will be considered a modification and require
testing and certification” consistent with the requirements of the EAC manual. The
Manual provision goes on to delineate six types of features of a proposed software
change that should be reviewed in determining whether a change is de minimis or
a modification that requires more testing.
The Plaintiffs maintain that the software changes are far more than de
minimis and can have broad systemic impact. Three of their cybersecurity experts
submitted affidavits regarding the issues raised by the new software and its testing,
thus far.

The Plaintiffs’ experts’ affidavits address the EAC delineated
48

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 49 of 147

characteristics for determining if a software change is de minimis and conclude
that the VSTL (Pro V&V) failed to implement requisite testing measures and
analysis to determine the impact of the proposed software code changes on overall
system software functionality, as required for assessment of whether a software
change is “de minimis.” They further contend that Pro V&V conducted a rubberstamp highly abbreviated testing review of the software changes that failed to test
the software changes properly to determine (a) the source of the bug or that the
software modification actually fixed the actual source of the bug or (b) how or if
the new modified code included in the software would impact the structure and
function of other code in the software or functionality of the software as a whole.
(Pro V&V Testing Report, Doc. 939; Declarations of Dr. Halderman and Kevin
Skoglund, Docs. 941, 943.)
Other substantive concerns were also raised in Plaintiffs’ experts’ affidavits
regarding the nature of the Pro V&V testing, review, and issues posed by the
software change. Pro V&V reproduced the bug on a mock election panel database
it had created and ran Dominion’s new software version on that sample to
determine the bug did not reappear. However, as Pro V&V was never able to
reproduce the flickering on/off appearance of one column of the 20 candidate
screen on a copy of Douglas’ County’s actual database that first demonstrated the
bug, there is no indication that Pro V&V actually identified the root cause of the
bug or that Pro V&V actually verified that the new software fixed the bug or fixed
it without impacting other portions of the software. Finally, Plaintiffs’ two experts
49

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 50 of 147

discuss how in their experience, rushed, last minute software code changes without
assessment of their impact on the functionality of software and code as a whole
constitutes an enormous functionality and security risk for the election system. 53
Mr. Skoglund additionally states that Logic and Accuracy testing, that should
follow the new software installation process in every county, will not be able to
catch the range of errors and software functionality problems potentially created
by the new software. (Skoglund Decl., Doc. 943.)
Additionally, Plaintiffs have offered an affidavit from cybersecurity expert
Harri Hursti who witnessed on October 1, 2020 some of the initial installation of
the software now proceeding on approximately 3,300 of Fulton County’s ballot
marking device touchscreen units to ICX software version 5.5.10.32 in the Fulton
County Election Preparation Center. (Doc. 942.) He describes in detail how 14
Dominion technicians en masse engaged in removal of the old software and
installation of the new software in disorganized, rushed, and careless form –
without consistent implementation of various required steps and Dominion
directives for installation of the software or any evident security standards or
tracking of flash drives containing sensitive information. In Hursti’s view, the
entire hasty and unprofessional software swap out and installation process is itself

Both Dr. Halderman and Mr. Skoglund’s affidavits discuss a host of problems that they have
seen arise with last minute software fixes that are not thoroughly tested and evaluated for impact
on the rest of the software system and in connection with use on a copy of the actual database. Dr.
Halderman discusses the analogy – i.e., worst case scenario – of what happened with Boeing’s
late “minor” software fix in its Boeing 737 Max plane. Halderman and Skoglund’s affidavits also
discuss the security risks posed by last minute installation of software in voting machines in their
experience.

53

50

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 51 of 147

cause for grave concern as to the future security and consistent functionality of the
new system.
4.

Logic and Accuracy Testing

Pre-election Logic and Accuracy Testing (L & A) is an important operations
verification practice and standard in jurisdictions across the nation that use any
form of computerized voting equipment. L & A testing is required under the 2019
Georgia statutory provisions enacted as part of the adoption of legislation
approving the statewide usage of the BMD system. As discussed below, L & A
testing is designed to verify pre-election that all voting equipment, BMD
touchscreens, printers, scanners, and PollPads are properly configured and
functioning. L & A testing should also confirm that the voting system tabulators
are accurately tabulating cast ballots going into the election. The testing gives
election staff an opportunity to identify basic errors in election and ballot
configuration and related vote attribution in scanning and ballot printing as well
as to address other basic functionality problems.
O.C.G.A. § 21-2-379.25(c) provides:
On or before the third day preceding a primary or election, including special
primaries, special elections, and referendum elections, the superintendent
shall have each electronic ballot marker tested to ascertain that it
will correctly record the votes cast for all offices and on all
questions and produce a ballot reflecting such choices of the
elector in a manner that the State Election Board shall prescribe
by rule or regulation. Public notice of the time and place of the test shall
be made at least five days prior thereto; provided, however, that, in the case
of a runoff, the public notice shall be made at least three days prior thereto.
Representatives of political parties and bodies, news media, and the public
shall be permitted to observe such tests.
51

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 52 of 147

(Emphasis added). The language of Georgia’s 2019 statutory provision appears
transparent: Each County superintendent shall have each electronic ballot marker
machine (i.e., BMD and its components) tested to ascertain that “it will correctly
record the votes cast for all offices and on all questions and produce a ballot” for
such offices. O.C.G.A. § 21-2-379.25(c) (emphasis added). This provision was
adopted simultaneous to the Legislature’s enactment of O.C.G.A. § 21-2-300,
authorizing the Secretary of State’s mandatory statewide implementation of the
BMD system.

O.C.G.A. § 21-2-379.25(c) in essence, defines the pre-election

standard operational verification process required to implement the BMD election
system specified in O.C.G.A. § 21-2-300.
Dr. Coomer, Dominion’s Director of Product Strategy and Security,
“absolutely” agreed in his hearing testimony “that one of the goals of logic and
accuracy testing and equipment is to do some measure of confirmation that that
the equipment is working properly.” (Tr. Vol. II at 83.) His affidavit submitted
earlier by Defendants both in 2019 and 2020 summarized in more detail the
purpose and function of pre-election L & A testing in connection with the
Dominion voting systems used in Georgia:
Dominion’s optical scanners (ICP) can be used with BMD-marked paper
ballots or hand-marked paper ballots. The ICP units do not interpret the
human-readable (text) portion of either type of ballot. Instead, the ICP
units are programmed to read the QR Code for the BMD ballot or
particular coordinates on hand-marked ballot. . . . The target locations
are then correlated to individual choices represented on the ballot. PreLogic and Accuracy Testing (Pre-LAT) is performed each election on
every machine to verify that the target locations on hand-marked ballots,
and the barcodes on BMD-marked ballots correspond correctly to the
choices represented on the ballots and the digital cast-vote-records.
52

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 53 of 147

(Doc. 821-1 at 6.)
The Georgia State Election Board in early 2020 adopted a new Logic and
Accuracy Testing Rule, SEB Rule 183-1-12.08. 54 This Rule requires:
During the public preparation and testing of the electronic poll books,
electronic ballot markers, printers, and ballot scanners to be used in a
particular primary or election, the election superintendent shall cause
each electronic ballot marker and scanner to be programmed with the
election files for the precinct at which the electronic ballot marker and
ballot scanner unit will be used. The superintendent shall cause the
accuracy of the components to be tested by causing the following tasks
to be performed:
A. Check that the electronic poll books accurately look up and checkin voters via both the scanning function and manual lookup and create
a voter access card that pulls up the correct ballot on the electronic
ballot marker for every applicable ballot style.
B. Check that the touchscreen on the electronic ballot marker
accurately displays the correct selections and that the touchscreen
accurately reflects the selected choices.
C. Check that the printer prints a paper ballot that accurately reflects
the choices selected on the touchscreen and immediately mark all
printed paper ballots as “test” ballots.
D. Check that the ballot scanner scans the paper ballot, including both
ballots marked by electronic ballot markers and ballots marked with
a pen, and that the ballot scanner scans ballots regardless of the
orientation the ballot is entered into the scanner.
E. Check that the tabulation contained in the ballot scanner memory
card can be accurately uploaded to the election management system,
and that the tabulated results match the selections indicated on the
paper ballot.
Ga. Comp. R. & Regs, 183-1-12-.08(3)(A)-(E).
Ga. Comp. R. & Regs, 183-1-12-.08, new Rule adopted January 23, 2020, eff. Feb. 12, 2020;
amended March 2, 2020 and eff. March 22, 2020.

54

53

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 54 of 147

Yet the Secretary of State’s January 20, 2020 published procedures for
conducting L & A testing give an instruction for a fraction of the testing required
under O.C.G.A. § 21-2-379.25(c) and its implementing regulation. (Doc. 809-4 at
25; Doc. 809-5 at 2-8.) The procedure’s provision for “Testing the BMD and
Printer” requires testing of only one candidate race per BMD for each ballot style
(i.e., one designated vote for the presidential race and no other races or one
designated vote for another office and nothing else). It also provides that “[a]ll
unique ballot styles do not have to be tested on each BMD.” (Id.) The published
procedure gives this example for how to conduct the BMD machines’ ballot testing:
“Example: Ballot from BMD 1 contains a vote for only the first candidate in each
race listed in Ballot style 1. Ballot from BMD 2 contains a vote only for the second
candidate in each race on Ballot 1, and continue through the line of devices until
all the candidates in all races within the unique ballot style will have received a
single vote.” (Doc. 809-4 at 25.) In other words, the testing instructions do not
provide for a review of whether each BMD machine in the precinct can correctly
produce candidate selections on the touchscreens, and aligned ballot results in
turn on scanners and printers for all elective offices on the ballot. But whether a
BMD machine or scanner may be able to accurately relay a vote designation for one
office does not mean that it properly does so for all other races and offices listed on
the ballot.
At the October 1, 2020 follow-up hearing to address the State’s
implementation of the brand new software modification on the BMDs, the Court
54

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 55 of 147

explored whether the software change would impact the scope of L & A testing
procedures. The Court heard from Michael Barnes, Director of the Secretary’s
Center for Election Systems, who conducted acceptance testing on the BMD system
prior to distribution of the software update to the 159 counties on or about
September 29, 2020. The Court learned that Mr. Barnes was involved in the
development of the logic and accuracy testing procedures, though Mr. Harvey, as
Director of Elections, rather than Mr. Barnes apparently directly oversees their
implementation. Mr. Barnes indicated that the counties were instructed to follow
the original L & A protocols after verifying the new hash signature for the new
version of the ICX software application. (October 1, 2020 Tr. at 35.) Mr. Barnes
described a procedure for L & A testing that does not mirror the written
instructions in the Secretary of State’s January 2020 Procedures manual. Mr.
Barnes has not been in the field to observe how counties are conducting the L & A
testing pursuant to the instructions provided by the Secretary of State’s Office. (Id.
at 43.) Therefore, it is not clear what practices the counties are using in conducting
their L & A testing, and it is entirely possible different counties employ different
testing protocols or that they are implementing the narrow process delineated by
Mr. Harvey and the January 2020 procedures guide. Even though the process as
Mr. Barnes understands it is more expansive than the written guidance provided
to the counties by the Secretary of State’s Office, it is still incomplete when
compared to the requirements of the statutory or regulatory provisions in terms of

55

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 56 of 147

providing a full scope of testing of all ballot contests on every piece of the voting
equipment.
Putting aside the intent and specifications of the L & A statutory provision,
the Court looks at the basic purpose and function of L & A testing as a preliminary
threshold standard for testing and ensuring the functionality of every voting
machine to be used in an election by voters and capacity to produce pre-election
an accurate record and tabulation of votes for candidates appearing on the ballot.
First, the Court has considered Dr. Coomer’s explanation above that describes the
baseline functional examination that L & A provides of voting balloting equipment
– and how this translates into correct operation of voting machines, production of
ballot results that correlate with ballot position, and vote tabulation. Next, it
considers the testimony of Plaintiffs’ expert, Mr. Kevin Skoglund, on this subject
that goes into greater detail, along the same lines.
Mr. Skoglund, a cybersecurity expert with significant consulting experience
with public jurisdictions, testified regarding the Secretary of State’s L & A testing
directive issued in January 2020. He explained that L & A testing is aimed at
“verifying that every piece of equipment is going to operate properly and record
votes properly on election day. And so we’re crafting a set of questions to ask in
advance to try and ascertain if that is true . . . . you would want to test every ballot
style because you want every ballot style to work properly. And you want to check
every contest. At a minimum, you want to make sure that every candidate is able
to receive a vote . . . . But you also have to make sure that the votes aren’t being
56

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 57 of 147

swapped, that they are not crisscrossing.” (Tr. Vol. III at 128.) Mr. Skoglund
further clarified that this involves checking to make sure that “whatever you do on
the screen is reflected in what is output in the end. On a tabulator, you’re validating
that when you take the input of the ballot into the tabulator that the totals that
come out at the end match correctly. In both cases, you are looking to see if what
goes in gives you what you expect to come out the other side.” (Id. at 131-132.)
Finally, he explained how as an election consultant as well as when he has served
as a poll manager/voting adjudicator in his home state of Pennsylvania, he has
seen some dramatic systematic vote tallying failures that could have been
prevented if the L & A testing had properly been handled and identified the issue
causing these results that had to be reversed. 55 The tabulation for some races on a
ballot also could be totally correct while for others, they were wrong and there were
candidates who received zero votes. (Id. at 132-133.) In summary, “[i]f you are
only auditing one race, you are only going to detect problems in one race. Once
you test, the scope of your testing determines whether you will find the problems.
If you don’t look, you can’t find problems.” (Id. at 130.)
The Secretary of State’s Director of Elections, Mr. Chris Harvey, provides an
affidavit in this case that addresses the Secretary of State’s L & A testing policy. He
states the Secretary of State’s Office designed the current L & A testing process “in
consultation with Dominion and local election officials, and considered the best
practices in doing so.” (Doc. 834-3 ¶ 7.) In his opinion, the Coalition Plaintiffs’
55

The county voting machines involved were not the ones now used in Georgia.

57

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 58 of 147

proposal that all races within the unique ballot style be tested is “overly
burdensome and require[s] a test deck that is extremely large for each BMD.” (Id.
¶ 6.) According to Mr. Harvey, the State/Dominion/local election officials group
therefore concluded that the “increase in burden on local elections officials” would
be “dramatic” and “unnecessary” if it conducted any more extensive L & A testing
of the ballot than what is required in the January 2020 election procedures
manual. However, Dr. Coomer testified at the injunction hearing that he was not
aware that the Georgia Secretary of State now is only requiring testing of one
vote position on each ballot. (Tr. Vol. II at 84.)
The Court understands Mr. Harvey’s concern as to the testing burden. But
the current state procedure slices and dices standard L & A protocols and
objectives in testing for each voting machine (and scanner and printer) to only a
small fraction of the electoral races for offices on the ballots to be run on each
machine in each County precinct. This is a serious short cut that truncates L & A
testing’s basic objective of checking on a pre-election basis the voting equipment
and software’s functionality as well as logic and accuracy in producing a useable,
proper ballot printout and vote count, as discussed both by Mr. Skoglund and Dr.
Coomer, and anticipated under Georgia law. This makes no sense when the goal
is for the system to run smoothly on election day and produce ballots that
accurately reflect citizens’ votes cast on the BMD system tabulators.
The Court respects that the Secretary of State and Georgia State Election
Board are vested with considerable discretion in implementing the mandate of
58

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 59 of 147

O.C.G.A. § 21-2-379.25(c). However, the Secretary of State’s January 2020
Procedures Manual is plainly inconsistent with the state statutory objective and
requirements. The issue before the Court, though, is not whether any particular
set of procedures is in full compliance with state law or a mere error in judgment
by the Secretary of State’s Office. Voters do not have a First or Fourteenth
Amendment constitutional right to perfect implementation of state statutory
provisions guiding election preparations and operations. But they do have the right
to cast a ballot vote that is properly counted on machinery that is not compromised
or that produces unreliable results. L & A testing is not complex. It is tedious –
but it is essential homework that protects the system and voters as the elections
commence.
Recognizing that early voting starts on October 12, 2020 and the imminence
of the November 3, 2020 general election, the Court must defer to the Secretary of
State’s Office and State Board of Elections determination of whether additional
measures are pragmatically feasible at this juncture to strengthen the scope of L &
A preparations for a general election with a huge anticipated turnout. As L & A
testing has already commenced on BMD equipment to be deployed at early voting
locations, the Court is not prepared to issue a ruling on the L & A testing issue
purely standing on its own. Accordingly, the Court recommends that the Secretary
of State and State Election Board expeditiously review in conjunction with
Dominion: (1) the adequacy of the current January 2020 procedures, particularly
in light of evidence of prevailing protocols used in states nationwide for conducting
59

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 60 of 147

for logic and accuracy tests; (2) what modifications can and will be made by the
time of the January 2021 elections runoffs and thereafter, or beforehand (if at all
feasible). The Court further recommends that the process for evaluation and
change in procedures shall be made public on a timely basis and that the results of
such evaluation and any changes be made public on a timely basis. 56
5.

Audits

Plaintiffs assert that the Dominion BMDs should not be used in Georgia’s
elections because unlike hand-marked paper ballots the BMDs are unauditable. In
conjunction with their request to enjoin the use of BMDs and to require handmarked paper ballots as the primary voting method for in-person voting, Plaintiffs
request that the State be required to adopt more robust election audit procedures
based on generally accepted audit principles. Specifically, the Coalition Plaintiffs’
motion seeks an order “commanding the State Defendants to issue rules requiring
meaningful pre-certification audits of election results, focusing on contested
candidate races and ballot questions, with such auditing to be based on application
of well-accepted audit principles in order to establish to a scientifically appropriate
level of confidence that any incorrect outcomes will be detected in time to be
remedied prior to certification of results.” (Doc. 809.) The Curling Plaintiffs
similarly request that the Court order Defendants to file “a plan providing specific

State Defendants’ counsel has pointed to two counties’ successful flagging of the U.S. Senate
ballot problem through their L & A testing. The Court agrees – this was a positive net result of
the testing. For that very reason, though, thorough L & A testing, consistent with standard
protocols across the country and Georgia law, would seem to be essential.
56

60

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 61 of 147

steps the Defendants intend to take to . . . institute pre-certification, post-election,
manual tabulation audits of the paper ballots to verify election results, in sufficient
detail for the Court to evaluate its adequacy.” (Doc. 785.)
Plaintiffs presented expert testimony from Dr. Philip Stark, a preeminent
renowned statistician and original inventor and author of the risk-limiting audit
(“RLA”) statistical methodology for auditing election outcomes embraced by the
National Academies of Sciences, Engineering, and Medicine, et al. Securing the
Vote: Protecting American Democracy at 109 (National Academies Press, 2018)
(“National Academies Report” or “NAS Report”). 57 (See Declarations of Dr. Philip
A. Stark, Docs. 296; 640-1 at 40-45; 680-1 at 2-24; 809-2; 853-1.) A risk-limiting
audit is a “particular approach to catching and correcting incorrect election
outcomes before they become official.” (Stark Decl., Doc. 296 ¶ 27.)

Dr. Stark is a Professor of Statistics and Associate Dean of Mathematical and Physical Sciences
at the University of California, Berkeley, a faculty member in the Graduate Program in
Computational Data Science and Engineering, a co-investigator at the Berkeley Institute for Data
Science, and was previously the Chair of the Department of Statistics and Director of the
Statistical Computing Facility. (Decl. of Philip B. Stark, Doc. 296.) He has published hundreds
of articles and books and has served on the editorial boards of academic journals in physical
science, applied mathematics, computer science, and statistics and is a coauthor on a number of
papers on end-to-end cryptographically verifiable voting systems, including being on the
development team for the STAR-Vote system for Travis County, Texas. (Id.; Tr. Vol. I at 57.) Dr.
Stark has consulted for many government agencies and currently serves on the Advisory Board of
the U.S. Election Assistance Commission and its cybersecurity subcommittee. He also served on
former California Secretary of State Debra Bowen’s Post-Election Audit Standards Working
Group in 2007. In addition to testifying as an expert in statistics in both federal and state courts,
Dr. Stark has testified before the U.S. House of Representatives Subcommittee on the Census and
the State of California Senate Committee on Elections, Reapportionment and Constitutional
Amendments, and before California Little Hoover Commission about election integrity, voting
equipment, and election audits. Dr. Stark’s statistical “risk-limiting audits” approach to auditing
elections has been incorporated into statutes in several states including California, Colorado,
Rhode Island, and in some respects in Georgia’s new Election Code. (Doc. 296; Doc. 640-1; Tr.
Vol. I at 83.) Dr. Stark pioneered the introduction of RLAs in state sponsored studies and
elections in California and Colorado. (Stark Decl., Doc. 296; Stark Suppl. Decl., Doc. 680-1 ¶ 17.)
57

61

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 62 of 147

As Dr. Stark explains, a RLA “offers the following statistical guarantee: if a
full manual tally of the complete voter verifiable paper trail would show a different
electoral outcome, there is a known, predetermined minimum chance that the
procedure will lead to a full manual tally.” (Id.) If the RLA “does lead to a full
manual tally, the result of that manual tally replaces the reported outcome, thereby
correcting it.” (Id. ¶ 28.) In a RLA, “the ‘outcome’ means the political result: the
candidate(s) or position that won, or the determination that a run-off is needed,
not the exact vote totals.” (Id. ¶ 29.) “The maximum chance that the procedure
will not lead to a full manual tally if that tally would show a different outcome is
called the risk limit.” (Id. ¶ 30.) In other words, “the risk limit is the largest chance
that the audit will fail to correct an outcome that is incorrect, where ‘incorrect’
means that a full manual tally of the voter-verifiable paper trail would find
different winner(s).” (Id.) For example, a RLA with “a risk limit of 5% has at least
a 95% chance of requiring a full manual tally, if that tally would show an outcome
that differs from the reported outcome.” (Id. ¶ 31.)
According to Dr. Stark the “simplest risk-limiting audit is an accurate full
hand tally of a reliable audit trail: Such a count reveals the correct outcome.”
Lindeman, M. and Stark, P., A Gentle Introduction to Risk-Limiting Audits, IEEE
SECURITY AND PRIVACY, SPECIAL ISSUE ON ELECTRONIC VOTING (2012)
at 1.

Because a full hand count is administratively burdensome and time

consuming, Dr. Stark designed the RLA as a method of examining far fewer ballots
that “can provide strong evidence that the outcome is correct,” where the “ballots
62

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 63 of 147

are chosen at random by suitable means.” Id. RLAs provide “statistical efficiency”
because a RLA of an election “with tens of millions of ballots may require
examining by hand as few as several hundred randomly selected paper ballots. A
RLA might determine that more ballots need to be examined, or even that a full
hand recount should be performed, if the contest is close or the reported outcome
incorrect.” NAS Report at 95.
The RLA methods Dr. Stark designed “conduct an ‘intelligent’ incremental
recount that stops when the audit provides sufficiently strong evidence that a full
hand count would confirm the original (voting system) outcome. As long as the
audit does not yield sufficiently strong evidence, more ballots are manually
inspected, potentially progressing to a full hand tally of all the ballots.” 58 Id.
Whether the evidence is “sufficiently strong” is “quantified by the risk limit, the
largest chance that the audit will stop short of a full hand tally when the original
outcome is in fact wrong, no matter why it is wrong, including ‘random’ errors,
voter errors, configuration errors, bugs, equipment failures, or deliberate fraud.” 59
Id.

Smaller risk limits require stronger evidence that the outcome is correct: All else equal, the audit
examines more ballots if the risk limit is 1% than if it is 10%. Lindeman and Stark (2012) at 1.
Similarly, smaller (percentage) margins require more evidence, because there is less room for
error. Id.
59 RLAs therefore “address limitations and vulnerabilities of voting technology, including the
accuracy of algorithms used to infer voter intent, configuration and programming errors, and
malicious subversion.” Lindeman and Stark (2012) at 1. This is one reason why the NAS has
endorsed the use of risk-limiting audits of human-readable, voter-verifiable paper ballots. NAS
Report at 94-95.
58

63

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 64 of 147

Risk-limiting audits “do not guarantee that the electoral outcome is right,
but they have a large chance of correcting the outcome if it is wrong” but they do
“guarantee that if the vote tabulation system found the wrong winner, there is a
large chance of a full hand count to correct the results.” Lindeman and Stark
(2012) at 6. In order to provide this guarantee, a RLA must be based on a reliable
and trustworthy audit trail produced by a voting system that is software
independent. Id. at 1. (See also Stark Suppl. Decl., Doc. 680-1 ¶ 4; Stark Suppl.
Decl. 640-1 at 42 ¶ 10.)
RLAs involve manually examining and interpreting randomly selected
portions of an audit trail of ballots that voters had the opportunity to verify
recorded their selections accurately.

Lindeman and Stark (2012) at 1.

The

consensus among voting system experts is that the best audit trail is voter-marked
paper ballots; voter-verifiable paper records printed by voting machines are not as
good. Id.; see also NAS Report at 94-95. 60

60

Dr. Stark’s auditing principles are in line with the recommendation of the NAS:
An evidence-based election would produce not only a reported (or initial) election
outcome, but also evidence that the reported outcome is correct. This evidence may be
examined in a “recount” or in a “post-election audit” to provide assurance that the
reported outcome indeed is the result of a correct tabulation of cast ballots.
Voter-verifiable paper ballots provide a simple form of such evidence provided that
many voters have verified their ballots. The ability of each voter to verify that a paper
ballot correctly records his or her choices, before the ballot is cast, means that the
collection of cast paper ballots forms a body of evidence that is not subject to
manipulation by faulty hardware or software. These cast paper ballots may be
recounted after the election or may be selectively examined by hand in a post-election
audit. Such an evidence trail is generally preferred over electronic evidence like
electronic cast-vote records or ballot images. Electronic evidence can be altered by
compromised or faulty hardware or software.

64

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 65 of 147

A voting system is strongly software independent “if an undetected change
or error in its software cannot cause an undetectable change or error in an election
outcome, and moreover, a detected change or error in an election outcome (due to
change or error in the software) can be corrected without re-running the election.”
(Stark Suppl. Decl., Doc. 640-1 at 42 ¶ 10.) “Systems based on optically scanning
hand-marked paper ballots (with reliable chain of custody of the ballots) are
strongly software independent, because inspecting the hand-marked ballots allows
an auditor to determine whether malfunctions altered the outcome, and a full
manual tabulation from the paper ballots can determine who really won, without
having to re-run the election.” (Id.) Therefore, a risk-limiting audit of an election
conducted using hand-marked paper ballots “can guarantee a large chance of
correcting the outcome if the outcome is wrong.” (Id.)
Dr. Stark’s affidavits and hearing testimony address the impossibility of
conducting a reliable audit of ballots and voting totals derived from QR codes for
purposes of verifying the accuracy or integrity of election results or processes. In
Dr. Stark’s view, the risk-limiting audit methodology cannot be properly utilized to
assess the accuracy of election results in the context of a BMD system where ballots

Paper ballots are designed to provide a human-readable recording of a voter’s choices.
The term “paper ballot’’ here refers to a “voter-verifiable paper ballot,” in the sense
that voters have the opportunity to verify that their choices are correctly recorded
before they cast their paper ballots. The voter may mark the ballot by hand, or the
marked ballot may be produced by a voting machine. In the current context, the
human-readable portion of the paper ballot is the official ballot of record that acts as
the record of the voter’s expressed choices. Rather than, for example, an electronic
interpretation of the paper ballot or a non-human readable barcode appearing on a
ballot.
(NAS Report at 94-95.)

65

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 66 of 147

are tabulated based on a humanly non-readable QR code that is not voter verifiable
and where the computer voting system is vulnerable to data hacking or
manipulation that can alter votes cast in untraceable ways – including in the votes
actually shown on the ballots that are audited.
In his December 15, 2019 declaration, Dr. Stark explains,
The most compelling reason for post-election audits is to provide
public evidence that the reported outcomes are correct, so that the
electorate and the losers’ supporters have reason to trust the results.
Audits that cannot provide evidence that outcomes are correct are
little comfort. A transparent, full hand count of a demonstrably
trustworthy paper record of votes can provide such evidence. So can a
risk-limiting audit of a demonstrably trustworthy paper record of
votes.
(Stark Suppl. Decl., Doc. 680-1 ¶ 3.) But if “there is no trustworthy paper trail, a
true risk-limiting audit is not possible, because an accurate full manual recount
would not necessarily reveal who won.” (Id. ¶ 4.) Unlike voting systems using
optical scan hand-marked paper ballots, BMD based voting systems are not
strongly software independent. (Stark Suppl. Decl., Doc. 640-1 at 42 ¶ 10.)
According to Dr. Stark, a BMD “by its nature, erases all direct evidence of voter
intent.” (Tr. Vol. I at 46.) There is no way to tell from a BMD printout what the
voter actually saw on the screen, what the voter did with the device, or what the
voter heard through the audio interface. (Id.) For this reason, there is no way to
establish that a BMD printout is a trustworthy record of what the BMD displayed
to the voter or what the voter expressed to the BMD. (Stark Suppl. Decl., Doc. 6801 ¶ 10.) Because a BMD printout cannot be trusted to reflect voters’ selections,

66

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 67 of 147

auditors can only determine whether the BMD printout was tabulated accurately,
not whether the election outcome is correct. (Stark Suppl. Decl., Doc. 640-1 at 42
¶ 10.) Nor can auditors determine the correct outcome under these circumstances.
(Id.)

Therefore, because a BMD printout is not trustworthy, “applying risk-

limiting audit procedures to [a] BMD printout does not yield a true risk-limiting
audit.” (Id. ¶ 4.)
Plaintiffs provided additional affidavits, testimony, and evidence from other
nationally recognized experts that addressed their similar views that the QR code
based voting system does not produce a reliable voter-verifiable audit trail that can
be audited consistent with established RLA standards and foundation principles.
(See Decls. of Dr. Andrew W. Appel, Doc. 681-3, Doc. 855-3; Decls. of Dr. Alex
Halderman, Doc. 619-2, Doc. 682, Doc. 692-3; Decls. Of Dr. Richard A. DeMillo,
Doc. 680-1 at 45-56, Doc. 716-1; see also Doc. 615-2, Wenke Lee, Ph.D., Secure,
Accessible & Fair Elections Commission, Basic Security Requirements for Voting
Systems (October 8, 2018); Andrew A. Appel, Richard A. DeMillo, Philip B. Stark,
Ballot-marking devices (BMDs) cannot assure the will of the voters (April 21,
2019); Doc. 692-3 at 8-23, Bernhard, M., A. McDonald, H. Meng, J. Hwa, N. Bajaj,
K. Chang, and J.A. Halderman Can Voters Detect Malicious Manipulation of Ballot
Marking Devices? IEEE Proc. Security & Privacy, 1, 679-694 (2020)).
Dr. Halderman has explained the many ways a BMD could be maliciously
programed or otherwise malfunction such that the ballot printed by the BMD does
not match the voter’s intended selections. He also attests that “if voters do not
67

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 68 of 147

reliably detect when their paper ballots are wrong, no amount of post-election
auditing can detect or correct the problem.” (Halderman Decl., Doc. 619-2 ¶ 12.)
Dr. Halderman, along with others at the University of Michigan, conducted
experiments to determine how often voters fail to notice that their BMD printed
ballots differ from the selections made on the touchscreen voting machines. (Id. ¶
13.)

When not given any prompting to review their ballots, only 6.5% of

participants in the study noticed their votes had been changed by the BMD. (Id. ¶
14.)
Between November 2018 and March 2019, Dr. Appel conducted a research
collaboration with Dr. DeMillo of Georgia Tech and Dr. Stark, leading to the
publication of a joint paper, Ballot Marking Devices (BMDs) Cannot Assure the
Will of the Voters. After analyzing the consequences of a study of whether voters
review ballot cards produced by BMDs, their research concluded:
Risk-limiting audits of a trustworthy paper trail can check whether
errors in tabulating the votes as recorded altered election outcomes,
but there is no way to check whether errors in how BMDs record
expressed votes altered election outcomes. The outcomes of elections
conducted on current BMDs therefore cannot be confirmed by audits.
(Appel Decl., Doc. 681-3 ¶¶ 11, 13, 21.)
Dr. Wenke Lee, the only cybersecurity expert appointed to the Georgia
Secretary of State’s “Secure, Accessible & Fair Elections Commission,” echoed Dr.
Stark’s opinions in advising the Commission on basic security requirements for
voting systems:

68

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 69 of 147

In order to support risk-limited‐auditing, paper ballots must be
easily and clearly readable and manually countable. In particular, a
paper ballot must show each and every vote exactly as cast by the
voter. It cannot be just a summary of the votes (e.g., only a tally, or
only the presidential ballot and not the down ballots). A manual count
absolutely cannot rely upon a barcode, QR code, or any other kind of
encoding scheme that is readable only by a machine because the cyber
system that reads those codes also can be compromised and lie to the
voter or auditor. In short, during a manual review, a human must be
able to clearly see evidence of the voter’s original act.
(Doc. 615-2 at 3.)
In the face of this consensus as to the role of voter verification and auditing
in ensuring voters’ ballots are properly and accurately counted, and that the voting
tallies are reliable, the State Defendants presented two rebuttal expert witnesses
regarding the viability of conducting a valid risk-limiting audit of a QR code based
voting system. Both Dr. Gilbert and Dr. Adida’s declarations focused on the RLA
as the essential tool for protecting against voting system mishaps in the
implementation of a BMD system. (Doc. 834-2 at 7; Doc. 658-3 at 13-14, 20-21.)
Professor Juan Gilbert, Professor and Chair of the Computer & Information
Science & Engineering Department of the University of Florida and leader of the
Department’s Human Experience Research Lab 61 testified regarding his views as
to the value and reliability of RLA as part of the BMD system, which he endorses.

Dr. Gilbert also was a member of the National Academies of Science, Engineering and Medicine
Committee on the Future of Accessible Voting: Accessible Reliable, Verifiable Technology, among
other leadership and publishing accomplishments. (See Doc. 658-2.) Dr. Gilbert’s research
currently focuses on human use of technology and access to voting systems rather than
cybersecurity or cyber engineering issues. His testimony focused on the comparative benefits of
the BMD system, its broad human accessibility, its automated generation of a paper ballot that
voters have the opportunity to review, and how and if the system’s use of a QR code impacts its
auditability. Dr. Gilbert’s background and expertise is not in the field of statistics.
61

69

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 70 of 147

Dr. Gilbert’s research currently focuses on human use of technology and access to
voting systems as opposed to issues involving cybersecurity issues or statistical
methodology. He described the access benefits of the BMD system and addressed
why in his view, voters will verify their printed ballots and therefore enable a
meaningful RLA audit which he saw as a vital protective device. Dr. Gilbert has
himself not performed any studies of voter review of ballots at the polls. The Court
notes that Dr. Halderman has recently published an article on this very subject. 62
Dr. Gilbert’s risk/benefit assessment of the vote integrity or manipulation risks
entailed in a QR code BMD system clearly differed from Plaintiffs’ experts – and
specifically Dr. Appel, Dr. Halderman, and Dr. Stark’s views regarding the risks
posed by the BMD system’s reliance on tabulating votes based on a humanly
unverifiable QR code.
Dr. Benjamin Adida is co-founder and Executive Director of VotingWorks, a
non-profit vendor of election auditing technology and more recently, voting
systems in the United States, including accessible ballot-marking devices and
hand-marked ballots. 63 Dr. Adida holds a PhD in cryptography and information
security from MIT and has significant experience in the private and public sector.

Dr. Halderman and Matthew Bernhard co-authored their research in a May 2020 published
article, “Can Voters Detect Malicious Manipulation of Ballot Marking Devices?” A number of the
experts referenced the paper, which discusses low rates of voter verification of ballots and the
degree to which that may be increased by different voter prompts It also constitutes part of the
research literature that bears on the issues of the validity of RLAs where BMDs are used that
tabulate the vote based on a QR code rather than the readable information that voters might
review.
63 VotingWorks is a vendor of barcoded ballot-marking devices just like the Dominion system.
(Tr. Vol. II at 281.)
62

70

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 71 of 147

While his academic background is impressive, Dr. Adida’s background and
expertise is not specifically in statistics. 64
VotingWorks contracts with multiple jurisdictions, assisting in the design
and implementation of RLAs. According to Dr. Adida, “[t]he deployment of RLAs
is challenging” and highly variable between jurisdictions. To date Georgia has
contracted

with

VotingWorks

for

guidance

in

the

development

and

implementation of a RLA in Georgia of one major statewide race every two years
to be selected by the Secretary of State, under new rules adopted by the State Board
of Elections. Ga. Comp. R. & Regs. 183-1-15-.04. Georgia is the only state so far
that VotingWorks has contracted with that uses BMDs for all in-person voting. 65
(Tr. Vol. II at 285.)
Dr. Adida’s methodology contained the inherent assumption of voter ballot
verification. Dr. Adida testified that “[i]f the paper ballots have a chance to be
verified by the voter, they can be used in a RLA whether they were BMD-produced
or hand-marked produced.” (Id. at 284.) Under the State’s audit procedures, the

In response to the Court’s question about the methodology of the Arlo software which
incorporates Dr. Stark’s statistical algorithm, Dr. Adida admitted, “I’m going to tell you my best
understanding of it and admit that there is a level of statistics that goes a little bit outside of my
expertise . . . And exactly how that is done, that is where my expertise stops and Dr. Stark’s begins.”
(Tr. Vol. II at 302-303.)
65 Most of the states where VotingWorks has assisted in conducting RLAs primarily use handmarked paper ballots with BMDs used only for voters with accessibility needs. These include
Virginia, Michigan, Missouri, and Rhode Island. In California, and Pennsylvania, the majority of
the voters in the state use hand-marked paper ballots and only certain jurisdictions in those States
use BMDs for all voters. In Ohio, there is no uniform voting system; instead roughly half of the
jurisdictions use hand-marked paper ballots, a handful use DREs with voter verified paper audit
trails, and a handful use BMDs. See Verified Voting, The Verifier, available at
https://verifiedvoting.org/verifier/#mode/navigate/map/ppEquip/mapType/normal/year/202
0.
64

71

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 72 of 147

RLA is conducted on the human readable text of the BMD ballot printout, not on
the QR code. (Id. at 294; Adida Decl., Doc. 934-2 ¶ 12.) Therefore, according to
Dr. Adida, “[a]s long as voters verify the text, and as long as RLAs are conducted
on the basis of the same ballot text, then potential QR code mismatches are caught
just like any other tabulation mistake might be caught. A successful RLA thus
provides strong evidence that, if there were QR code mismatches, they did not
affect the outcome of the election.” (Adida Decl., Doc. 934-2 ¶ 12.)
Dr. Stark has submitted two affidavits in which he severely criticizes the
premise of Dr. Adida’s position that a valid RLA or valid RLA results can be
conducted in the context of a BMD election in which there is no meaningful audit
trail and voters cannot verify the QR code, among other things. 66
First, despite Dr. Adida’s assumption that BMD voters will review and verify
their ballot selections on the ballot printout, the overwhelming evidence from
actual studies of voter behavior “suggests that less than ten percent of voters check
their printouts and that voters who do check often overlook errors.” (Stark Suppl.
Decl., Doc. 680-1 ¶¶ 14, 30(d); Stark Suppl. Decl., Doc. 891 ¶¶ 9-10, 12.) In an
actual election, there is no way to know how many voters checked their BMD
printouts for accuracy. (Stark Suppl. Decl., Doc. 891 ¶ 16.) “The fact that a voter
has the opportunity to check the BMD printout does not make a BMD printout
trustworthy.” (Id. ¶ 7.)

Other criticisms raised focused on the statistical invalidity of auditing only one race and the
absence of any meaningful audit trail.

66

72

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 73 of 147

Second, Dr. Stark categorically disagrees with Dr. Adida’s position that a
post-election RLA can demonstrate that BMDs function correctly during elections.
According to Dr. Stark – whose opinions are affirmed by other experts – audits of
BMD-marked ballot printouts cannot reliably detect whether malfunctioning
BMDs printed the wrong votes or omitted votes or printed extra votes (whether
due to bugs, configuration errors, or hacking). 67 And “this is true even if the
malfunctions were severe enough to make losing candidates appear to win.” (Id. ¶
5.) Dr. Stark testified that “[t]here is no audit procedure that can be conducted on
the output of ballot-marking devices to confirm that the outcome of a contest is
correct in the sense that it reflects what the voters actually did on the BMD or saw
on the screen or heard through the audio.” (Tr. Vol. I at 68.) “[U]nless virtually
every voter diligently checks the printout before casting it, there is no reason to
believe that an accurate tabulation of BMD printouts will show who really won.”
(Stark Suppl. Decl., Doc. 680-1 ¶ 13.)

According to the NAS Report:
RLAs can establish high confidence in the accuracy of election results—even if the
equipment that produced the original tallies is faulty. This confidence depends on
two conditions: (1) that election administrators follow appropriate procedures to
maintain the chain-of-custody and secure physical ballots—from the time ballots
are received, either in-person or by mail, until auditing is complete; and (2) that
the personnel conducting the audit are following appropriate auditing procedures
and the equipment and software used to audit the election are independent of the
equipment and software used to produce the initial tallies. In the latter case, this
not only requires that the software be independent of the software used to tally
votes, but also that the software’s specifications/algorithms, inputs, and outputs
are transparent to permit members of the public to reproduce the software’s
operation.
(NAS Report at 96.) As Dr. Stark has attested, the BMDs are not software independent and
therefore cannot establish high confidence in the accuracy of the results “even if the equipment
that produced the original tallies is faulty.”
67

73

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 74 of 147

The fundamental disagreement between Dr. Stark and Dr. Adida boils down
to the purpose and function of a risk-limiting audit. Dr. Adida testified at the
hearing that the “point of a RLA is to check the tabulation of the votes matches
what the voters saw on the paper ballot” and that the “most important function” of
a RLA “is to make sure that bugs, malfunctions, dust on the scanner, [or] nation
state attacks do not corrupt that function.” (Tr. Vol. II at 292.) According to Dr.
Stark, ballot polling risk-limiting audits, the audit method piloted and planned in
Georgia, do not check the tabulation of votes, per se. 68 (Stark Suppl. Decl., Doc.
809-2 ¶ 12.) They do not check whether the votes were recorded or tabulated
correctly. (Id. ¶¶ 12, 13(b).) Ballot-polling risk limiting audits do not check the
tabulation of any individual BMD ballot or any group of ballots, except in the sense
that they check whether the reported total was wrong by more than the reported
margin. (Id. ¶ 13(c).) Ballot-polling audits only check whether a full hand count
of the BMD printout would find the same winners by checking whether the paper

There are two general types of risk-limiting audits: ballot-polling audits and comparison audits
(either ballot-level comparison or batch comparison). Lindeman and Stark (2012) at 2, 6. Ballotpolling audits are a bit like exit polls, but instead of asking randomly selected voters how they
voted, they manually inspect randomly selected cast ballots to see the votes they contain. (Doc.
680-1 ¶ 18.) They require knowing who reportedly won, but no other data from the tabulation
system. Lindeman and Stark (2012) at 2. Ballot-polling audits are the best method “when the
vote tabulation system cannot export vote counts for individual ballots or clusters of ballots or
when it is impractical to retrieve the ballots that correspond to such counts,” i.e., systems like
Georgia’s that use precinct level tabulators that apply randomization to scanned ballots to protect
voter anonymity. See id. In a ballot-polling RLA, “if a large enough random sample of ballots
shows a large enough majority for the reported winner(s), that is strong statistical evidence that
the reported winner(s) really won. It would be very unlikely to get a large majority for the reported
winner(s) in a large random sample of ballots if the true outcome were a tie, or if some other
candidate(s) had won. There is deep mathematics behind proving out how large is “large enough”
to control the risk to a pre-specified level, such as five percent. However, the calculations that
determine when the audit can stop examining more ballots are relatively simple.” (Doc. 680-1 ¶
18.)

68

74

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 75 of 147

trail has more votes for the reported winner than for any other candidate. “The
tabulators could misread every single vote and still find the correct winner” and a
ballot-polling audit would not detect this because the outcome could be “correct
despite the complete mistabulation.” (Id. ¶ 12; Stark Suppl. Decl., Doc. 680-1 ¶¶
20-21.) For this reason, “it is incorrect to consider ballot-polling RLAs to be checks
of the tabulation system.” (Stark Suppl. Decl., Doc. 891 ¶ 15; Stark Suppl. Decl.,
Doc. 680-1 ¶¶ 20-21.)
A ballot-polling audit of a contest conducted on a BMD system cannot
confirm the reported outcomes are correct because it cannot show that the BMDs
functioned correctly. (Stark Suppl. Decl., Doc. 680-1 ¶ 21.) All such an audit can
do is provide statistical evidence that a full manual tabulation of the BMD printouts
would find the same winner that was reported in the audited contest. 69 (Id.) “If

Somewhat confusingly, Dr. Stark also testified that “[t]he sense in which a risk-limiting audit
may still be worth doing is that it can catch – it can detect whether errors in the tabulation of a
particular pile of ballots was large enough to alter the reported outcome of one or more contests.
But what it can’t do is determine whether that particular pile of paper is a trustworthy
representation of what voters did, saw, or heard.” (Id. at 68-69.) In other words, “[a]pplying risklimiting audit (RLA) procedures to securely curated BMD printouts can check the accuracy of the
tabulation of the printouts. It can provide confidence that if errors in scanning and tabulation
were large enough to change the reported winner(s), that fact would be detected and corrected.
But such an audit does nothing to check whether the BMDs printed incorrect votes, omitted votes,
or printed extra votes. Risk-limiting audit procedures check the tabulation of BMD printouts;
they do not check the functioning of the BMDs. They cannot confirm the outcome of elections
conducted using BMDs.” (Doc. 680-1 ¶¶ 6-7.) Similarly, he remarked that “[r]igorous audits can
ensure (statistically) that tabulation errors did not alter the reported outcomes. But they cannot
ensure that errors in BMD printouts did not alter the reported outcomes.” (Id. ¶ 12.) While there
appears to be some disconnect between the use of RLAs to check tabulations, it is possible Dr.
Stark is referring to ballot-level or batch comparison RLAs here which, unlike ballot-polling
audits, check outcomes by comparing a manual interpretation of ballots selected at random to the
voting system’s interpretation of those ballots counts.
69

75

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 76 of 147

the BMD printouts contained outcome-changing errors, the audit would have no
chance of detecting that, nor of correcting the reported outcomes.” (Id.)
This is essentially what the pilot audits Georgia has conducted accomplish
and what the planned audit for the selected contest in the November 2020 election
will accomplish. 70 However, this does not serve the purpose and function of a true
risk-limiting audit as designed by Dr. Stark to statistically guarantee that the audit
will produce a large chance of correcting the election outcome if the reported
outcome is wrong. 71
Additionally, the Court pursued a range of questions with Dr. Adida when
he testified about VotingWorks’ application of the RLA for the first time in a state
of Georgia’s size in solely one race under these circumstances. The Court cannot

In conjunction with Dr. Adida’s organization, VotingWorks, the State of Georgia consulted with
the Verified Voting Foundation when it conducted a RLA pilot of two election contests in
Cartersville in November 2019. (680-1 ¶ 17.) Dr. Stark was on the Board of Directors of Verified
Voting for years until he resigned after the President of Verified Voting declined to clarify publicly
that the Cartersville pilot audit did not “confirm outcomes” or show that the voting system worked
correctly. (Id. ¶ 23.) Since that time, Verified Voting’s official positions on RLAs and BMDs have
for the most part realigned with Dr. Stark’s findings and opinions. (Tr. Vol. I at 80.) See
Statement on Ballot Marking Devices and Risk-Limiting Audits, available at
https://verifiedvoting.org/statement-on-ballot-marking-devices-and-risk-limiting-audits/.
71 Again, Dr. Stark invented virtually every extant method for performing risk limiting audits,
including ballot-polling risk-limiting audits. Dr. Stark was the first person to pilot a ballot-polling
risk-limiting audit, in Monterey, CA, in May, 2011. Dr. Stark published the first software tool to
conduct ballot-polling risk-limiting audits which was the official tool used by the State of Colorado
for its ballot-polling risk-limiting audits and is referenced in Colorado election regulations. (Doc.
809-2 ¶ 10.) The VotingWorks Arlo software to be used in Georgia’s audit incorporates Dr. Stark’s
algorithm, and Stark understands that VotingWorks benchmarked the Arlo software against his
to confirm Arlo is a correct implementation of the algorithm. (Id. ¶ 11.) Understandably, Dr.
Stark strenuously disagrees with any attempts to redefine the RLA methodology so that it only
corrects some kinds of errors or to modify its application for use on systems with an untrustworthy
paper trail because such measures go against the whole principle the RLA was designed to fulfill
and weakens the concept to a degree that it destroys the fundamental property that the audit has
a large chance of correcting the election outcome if it is wrong. (Tr. Vol. I at 80-83.)
70

76

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 77 of 147

say that it got close to understanding the rationale or specific contours of the
sampling methodology to be used by Voting Works.
Suffice it to say, the experts here are in hot debate and approach these issues
from different backgrounds and areas of expertise. The Court recognizes that the
RLA is deemed by all of the experts as a control valve essential to election integrity.
The question they differ on is whether a RLA can be validly implemented in the
context of Georgia’s QR code BMD voting system. While the Plaintiffs have
marshalled a formidable amount of evidence that casts serious doubt on the
validity of the use of the RLA with the current system (including the specific RLA
methodology that VotingWorks is pursuing here), unless the Court determines that
the BMDs must be enjoined from use in Georgia’s upcoming elections, the
requested remedy appears irrelevant. Absent such an injunction, there is no audit
remedy that can confirm the reliability and accuracy of the BMD system, as Dr.
Stark has stressed. Plaintiffs do not request, and have not offered, any other
proposed audit procedures to accomplish the goal of the RLA. Nor is the Court in
a position to reach a judgment regarding whether the Secretary of State’s plan to
conduct a single RLA assessment in one statewide race under these circumstances
provides any meaningful protection or guidance regarding the accuracy of
tabulation of the overall voting results (or system). The Court has some major
doubts, given the entirety of the evidence discussed here. But under O.C.G.A. § 212-498(e) the Secretary of State will be required to implement risk-limiting auditing
for all statewide elections “beginning not later than November 1, 2024.” The
77

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 78 of 147

Secretary and State Election Board still have the opportunity to consider other
options for effectuating a somewhat more meaningful RLA process – i.e., by at very
least strengthening voting protocols for the 2022 election cycle to encourage
voters’ ballot verification and expanding the number of electoral contests audited.
That said, the specific relief Plaintiffs ask for ultimately rises or falls on whether
the evidence as a whole establishes the Plaintiffs’ likelihood of success on their
challenge of the current QR barcode-based BMD system. And the auditing issues
considered are relevant to this central claim.
6.

Analysis of Preliminary Injunction Standards as
Applied to Plaintiffs' Primary BMD Vote Related
Claims

The Court has in Section II A. above discussed the standards the Court must
weigh and apply in determining the Plaintiffs' entitlement to preliminary
injunctive relief. The Court must first consider whether Plaintiffs have established
a substantial likelihood of prevailing on the merits of their claims and related to
that, “consider the character and magnitude of the asserted injury to the rights
protected by the First and Fourteenth Amendment.” Anderson, 460 U.S. at 789.
The interest Plaintiffs seek to vindicate now is the same interest at stake
when they brought this litigation under the old voting system in 2017. As the Court
first recognized in its August 2018 Order, the Constitution affords Plaintiffs an
interest in transparent, fair, accurate, and verifiable election processes that
guarantee each citizen’s fundamental right to cast an accountable vote. Plaintiffs
assert they will suffer immediate and irreparable harm to this interest if required
78

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 79 of 147

by the State to cast a ballot on the BMD system that cannot be confirmed or verified
as reflecting their actual vote choices because the votes are tabulated solely from a
computer generated QR barcode that is not human-readable and is vulnerable in
the current system to failure or breach. They further assert that this injury is
exacerbated because votes cast by BMDs pose the significant risk of having the
votes altered, diluted, or effectively not counted. 72

Plaintiffs have shown

demonstrable evidence that the manner in which Defendants’ alleged mode of
implementation of the BMD voting system, logic and accuracy testing procedures,
and audit protocols deprives them or puts them at imminent risk of deprivation of
their fundamental right to cast an effective vote (i.e., a vote that is accurately
counted).
The Court views the burden and the threatened deprivation as significant
under the Anderson/Burdick balancing framework. The right to vote derives from
the right of individuals to associate for the advancement of political beliefs that is
at the core of the First Amendment and is protected from state infringement by the
Fourteenth Amendment. E.g., Williams v. Rhodes, 393 U.S. 23, 30–31 (1968);
NAACP v. Button, 371 U.S. 415, 430 (1963). “Writing for a unanimous Court in
NAACP v. Alabama, Justice Harlan stated that it ‘is beyond debate that freedom
to engage in association for the advancement of beliefs and ideas is an inseparable

In addition to a burden on the fundamental right to vote, Plaintiffs also assert in-person voters
are subject to unequal treatment as compared to provisional and absentee voters whose paper
ballots are capable of being meaningfully recounted, reviewed against an independent record to
verify the accuracy of the vote tabulation, and may have discrepancies detected and corrected
through audits.

72

79

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 80 of 147

aspect of the ‘liberty’ assured by the Due Process Clause of the Fourteenth
Amendment, which embraces freedom of speech.” Anderson, 460 U.S. at 786-87
(internal citation omitted). As discussed in both the Court’s September 28, 2020
Order and this Order, the individual Plaintiffs have a strong preference to cast
votes in person and do not want to be shunted out of the regular exercise of the
shared political experience of voting with their fellow citizens at their local precinct
location. The First and Fourteenth Amendments afford them this right to associate
for the advancement of political beliefs by exercising the franchise at the voting
booth and to cast their votes effectively. See generally, Anderson, 460 U.S. at 788;
Williams v. Rhodes, 393 U.S. 23, 30-31 (1968); Reynolds v. Sims, 377 U.S. 533,
563 (1964).
“Since the right to exercise the franchise in a free and unimpaired manner is
preservative of other basic civil and political rights, any alleged infringement of the
right of citizens to vote must be carefully and meticulously scrutinized.” Reynolds,
377 U.S. at 562. “It does not follow, however, that the right to vote in any manner
and the right to associate for political purposes through the ballot are absolute.”
Burdick v. Takushi, 504 U.S. 428, 433 (1992). “Although these rights of voters are
fundamental, not all restrictions imposed by the States . . . impose constitutionallysuspect burdens on voters’ rights to associate or to choose among candidates.”
Anderson, 460 U.S. at 788. Rather, the Supreme Court has recognized that States
retain the power to regulate their elections to provide fairness, honesty, and order
in the democratic process. Id. The right to vote is the right to participate in an
80

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 81 of 147

electoral process that is necessarily structured to maintain the integrity of the
democratic system. Anderson, 460 U.S. at 788. “To achieve these necessary
objectives, States have enacted comprehensive and sometimes complex election
codes.” Id. Election laws “invariably impose some burden upon individual voters,”
whether they govern the “registration and qualifications of voters, the selection
and eligibility of candidates, or the voting process itself,” and such laws “inevitably
affect[] — at least to some degree — the individual’s right to vote and his right to
associate with others for political ends.” Id.; Burdick, 504 U.S. at 433. But,
“cumbersome election machinery can effectively suffocate the right of association,
the promotion of political ideas and programs of political action, and the right to
vote.” Williams, 393 U.S. at 39 (Douglas, concurring). And, “[w]hen a State
exercises power wholly within the domain of state interest, it is insulated from
federal judicial review. But such insulation is not carried over when state power is
used as an instrument for circumventing a federally protected right.” Reynolds,
377 U.S. at 566 (quoting Gomillion v. Lightfoot, 364 U.S. at 347).
Georgia’s Election Code mandates the use of the BMD system as the uniform
mode of voting for all in-person voters in federal and statewide elections. O.C.G.A.
§ 21-2-300(a)(2). The statutory provisions mandate voting on “electronic ballot
markers” that: (1) use “electronic technology to independently and privately mark
a paper ballot at the direction of an elector, interpret ballot selections,
communicate such interpretation for elector verification, and print an elector
verifiable paper ballot;” and (2) “produce paper ballots which are marked with the
81

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 82 of 147

elector’s choices in a format readable by the elector” O.C.G.A. § 21-2-2(7.1);
O.C.G.A. § 21-2-300(a)(2).
Plaintiffs and other voters who wish to vote in-person are required to vote
on a system that does none of those things. Rather, the evidence shows that the
Dominion BMD system does not produce a voter-verifiable paper ballot or a paper
ballot marked with the voter’s choices in a format readable by the voter because
the votes are tabulated solely from the unreadable QR code. Thus, under Georgia’s
mandatory voting system for “voting at the polls” 73 voters must cast a BMDgenerated ballot tabulated using a computer generated barcode that has the
potential to contain information regarding their voter choices that does not match
what they enter on the BMD (as reflected in the written text summary), or could
cause a precinct scanner to improperly tabulate their votes.
As a result, each of the Plaintiffs attest that they are forced to forego their
right to full and unfettered participation in the political process and to alternatively
exercise their right to vote using Georgia’s absentee ballot regime which carries its
own burdensome procedures, though they may be minimal as compared to the
burdens created by the BMDs. 74 Absentee voting itself has been the subject of
O.C.G.A. § 21-2-300(a)(2) (effective April 2, 2019) (mandating a new uniform statewide voting
system that provides for “the use of scanning ballots marked by electronic ballot markers and
tabulated by using ballot scanners for voting at the polls and for absentee ballots cast in person”).
74 Georgia law permits a registered voter to vote via absentee ballot for any reason. See O.C.G.A.
§ 21-2-380. Voters under age 65 must submit separate, distinct applications for each election (i.e.
primary, general, runoff) sufficiently early to their county registrar’s office to ensure timely receipt
of their absentee ballot. O.C.G.A. § 21-2-381(a)(1)(A); O.C.G.A. § 21-2-381(a)(1)(G). Absentee
ballot applications may be denied if the registrar determines that the information provided by the
voter in the application does not match the voter’s information on file with the registrar’s office
73

82

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 83 of 147

much constitutional litigation where the implementation of these procedures
resulted in the rejection of absentee ballots and voter disenfranchisement. To
avoid being denied the ability to verify their votes on the BMD system, Plaintiffs
must trade one unfavorable burden for another. Plaintiffs are left with the choice
of having to run another gauntlet of the absentee voting process because of
potential uncertain postal delivery issues, untimely processing by the registrar’s
office, signature matches, etc. As discussed in Section III D herein, Plaintiffs have
shown a significant burden resulting from the accuracy and voter invalidation
issues that affect Dominion’s scanner/tabulators and adjudication software used
for determining voter intent and tallying hand-marked absentee ballots. A choice
between two evils is no choice at all; the Equal Protection Clause guarantees the
opportunity for equal participation by all voters in the election regardless of which
method they choose to cast their vote.
That Plaintiffs and other voters have the alternative of casting an absentee
hand-marked paper ballot does not lessen or absolve the State of the burdens

or if the voter’s signature on the absentee ballot envelope does not match the signature on their
voter registration card. O.C.G.A. § 21-2-381(b)(2)(3). Once received and completed, voters must
sign an oath on their absentee ballot envelope and personally mail or deliver their ballot to the
board of registrars or absentee ballot clerk or to a dropbox. O.C.G.A. § 21-2-385(a). Georgia does
not provide pre-paid postage for the return of the absentee ballot, and thus, voters must pay for
their own return postage to vote by mail. The State of Georgia does not count mail ballots received
after the closing of polls at 7:00 p.m. on Election Day. See O.C.G.A. § 21-2-386(a)(1)(F). This is
true even if a ballot arrives late for reasons objectively outside the voter’s control, and even if the
ballot was postmarked weeks before Election Day or alternatively, on Election Day. Absentee
ballots will be rejected if not received by election day or “[i]f the elector has failed to sign the oath,
or if the signature does not appear to be valid, or if the elector has failed to furnish required
information or information so furnished does not conform with that on file ... or if the elector is
otherwise found disqualified to vote[.]” O.C.G.A. § 21-2-386(a)(1)(C).

83

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 84 of 147

imposed by the State’s chosen, preferred, primary voting system, in which it
invested hundreds of millions of taxpayer dollars. The State opposes a courtordered switch to hand-marked paper ballots for in-person voters at the polls. The
State does not wish to be forced into an administratively burdensome system of
carrying out an election using hand-marked ballots and voters do not wish to be
forced into an absentee regime that contains its own distinct array of burdens and
uncertainties associated with whether the ballot will be accepted and counted.
While the Court recognizes Plaintiffs’ strong voting interest and evidentiary
presentation that indicate they may ultimately prevail in their claims, the Court
must perforce address the posture of this case as a whole as well as the Plaintiffs’
burdens “against the interests the State contends justify that burden, and consider
the extent to which the State’s concerns make the burden necessary.” Timmons v.
Twin Cities Area New Party, 520 U.S. 351, 358 (1997); New Georgia Project v.
Raffensperger, ---F.3d. ---- 2020 WL 5877588, at *2 (11th Cir. 2020).
In election cases, the Supreme Court and Eleventh Circuit have made ever
more abundantly clear the mandate that district courts must exercise great
restraint in considering the grant of injunctive relief that requires new rules on the
cusp of an election where the Court’s Order could cause electoral disruption and
voter confusion. Purcell v. Gonzalez, 549 U.S. 1, 4-5 (2006); Republican National
Committee v. Democratic National Committee, --- U.S. ---, 140 S.Ct. 1205, 1207
(2006); Republican Nat'l Comm. v. Common Cause R.I., --- U.S. ---, 2020 WL
4680151, at *1 (U.S. Aug. 13, 2o2o); Merrill v. People first of Alabama, ---S. Ct --84

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 85 of 147

-, 2020 WL 3604049 (U.S. July 2, 2020); New Georgia Project v. Raffensperger,
2020 WL 5877588 at *3. The Court expressed its concerns anew to Plaintiffs’
counsel about this timing issue when Plaintiffs filed a renewed motion for
preliminary injunction in August 2020, shortly after the denial without prejudice
of their initial October, 2020 preliminary injunction motions targeting the BMD
system and other voting practices. 75 The timing of the relief sought plays a
paramount role in the evaluation of the practicality of granting the requested
remedy at this point.
Litigation since Plaintiffs’ amendment of their claims to include a challenge
to the BMD system as a whole has stretched on since October 2019, with plenty of
delays occurring. But these delays were not attributable to any lack of litigation
diligence or aggressiveness on Plaintiffs’ counsel’s part. For a variety of reasons,
including multiple motions to dismiss that stalled discovery, the Court’s own
schedule especially after the advent of the Covid-19 pandemic, and challenges
posed by the difficulty of the case as a whole, Plaintiffs’ motions for preliminary
injunction were not heard until September in this Presidential election cycle year.
Some evidentiary challenges at that point reared their heads. Due to Dominion’s
own historic unwillingness to provide independent cybersecurity researchers with
The first initial motions for preliminary injunction seeking to enjoin the BMD system, filed in
October 2019 (Docs. 619, 640), were denied without prejudice in August 2020. At that juncture,
the Court viewed the evidence as presented as closer to a quasi-facial challenge rather than one
that was rooted, at least in part, in the record evidence involving the actual use of the BMD
machines and associated Dominion equipment and attached KnowInk registration check-in
PollPad tablets at voting precincts. Covid-19 pandemic ramifications triggered major election
scheduling delays and changes that resulted in the March presidential primary being moved
ultimately to early June 2020.

75

85

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 86 of 147

access to the Dominion Suite software and equipment package (through sale or
otherwise), Plaintiffs obtained only last-minute, court-ordered access to the
Dominion system for hands-on testing. Finally, as State Defendants have not
maintained a practice of regular independent cybersecurity testing and evaluation
of vulnerability issues in their own systems impacting the elections realm and had
asserted work product privilege over the one extant report, these types of reports
were not available to the parties or Court when the hearing was about to
commence.
Plaintiffs have presented a massive and complex record in this matter for the
Court’s review that has consumed its attention for long swaths of time. Plaintiffs
also in the course of their hearing preparation presented an expanded array of
expert affidavits as well as voter and election evidence, collected primarily from
the June and August 2020 statewide primary and runoff elections. These elections
produced more substantive empirical evidence and helped to bring into sharper
focus the evidentiary issues in this case.
Defendants also have presented substantive evidence in support of their
overarching legal defense. They generally minimize the claims, concerns, and risk
threats documented in Plaintiffs’ challenge. At core, the State Defendants’ counsel
argue that Plaintiffs’ legal claims boil down to their disagreement with the policy
choices legally vested in the Secretary of State and State Election Board’s purview.
In turn, they contend that Plaintiffs have suffered no cognizable threat of harm or
burden in their exercise of their First and Fourteenth Amendment rights.
86

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 87 of 147

Defendants also maintain that they have taken sufficient proactive measures in
implementation of the new voting system to ensure its security and reliability.
The preliminary injunction hearing started on September 9, 2020 and
concluded on September 13, 2020. But that was not the end, by any means, of the
parties’ continuing supplemental submissions to the Court. And record
developments such as the State Defendants and Dominion’s last-minute
introduction of a modified system-wide software change to the voting system and
dealings with the EAC continued to roll out before the Court – some of which was
directly relevant to the evidentiary issues before the Court. Early voting in Georgia
with the use of BMD voting machines, will commence now in one day, on October
12, 2020.
Some of Plaintiffs’ claims pursued involved discrete and limited relief that
do not upset the election apple cart. The Court has considered relief in two
instances where there was strong evidence of state-imposed burdens to Plaintiffs’
First Amendment constitutionally protected exercise of the franchise as well as
narrowly tailored relief that was fully consistent with state law. The Court in those
instances balanced the state’s interests and burdens as well as relief issues relative
to the operation of the elections before granting any form of narrowly tailored relief
or delaying such relief until after the election. Indeed, the Court’s Pollbook relief 76
was expressly framed based on the State’s emergency ballot voting statutory and
regulatory provisions to ensure that these emergency procedures could
76

See Court’s Opinion and Order of September 28, 2002. (Doc. 918.)

87

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 88 of 147

pragmatically be implemented on Election Day, November 3, 2020, if necessary so
as to mitigate the severe burdens experienced by Plaintiffs and other voters in
casting votes in the new BMD-equipped system during the June and August 2020
elections.
By comparison, the Plaintiffs’ BMD systemic injunctive challenge and
request for replacement of the system with hand-marked paper ballots pose relief
issues of an entirely different, more expansive scope. After reviewing all of the
evidence in scrupulous detail, the Court must step back at this juncture, despite
the persuasive evidence that Plaintiffs have provided. Plaintiffs’ central claim
seeks statewide relief, requesting that the Court enjoin implementation of the
State’s newly designated BMD voting system under O.C.G.A. § 21-2-300 and
require instead the state’s implementation of a hand-marked ballot system in its
159 counties. The problems posed obviously go beyond whatever the State’s and
counties’ purported capacity issues are in connection with the purchase of ballot
paper stock or printing arrangements. The requested relief would entail a
fundamental modification in the election system that the Secretary of State and
county election offices are not now equipped or prepared to administer. The Court
has already seen in the record of this case enough election chaos, operational
deficiencies, and challenges on all levels, plus stress in the system spiked further
by Covid-19 complications, that the Court cannot embrace a rosy view of the
simplicity of moving to a total, comprehensive paper ballot system with so little
time to prepare for such a major transition. And this would likely have been true
88

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 89 of 147

also even if such relief had been ordered on September 15th, the day after the
injunction hearing concluded, based on election operations evidence presented in
connection with the hearing. The substantial risks and long-run threats posed by
Georgia’s BMD system, at least as currently configured and implemented, are
evident. However, the Court – especially after reviewing evidence regarding
election staff management and operations challenges in the June and August 2020
elections – cannot envision that state and county elections staff (including paid
temporary contract personnel) would be equipped to move the system and voters
through such a major operational change without chaotic disruptions occurring
anew.
Risks are posed both by a sudden shift to a statewide hand-marked paper
system and proceeding with the BMD system. Ultimately, the Court must find that
imposition of such a sweeping change in the State’s primary legally adopted
method for conducting elections at this moment in the electoral cycle would fly in
the face of binding appellate authority and the State’s strong interest in ensuring
an orderly and manageable administration of the current election, consistent with
state law. So, for this reason alone, despite the strength of Plaintiffs’ evidence, the
Court must decline the Plaintiffs’ Motions for Preliminary Injunction.
C.

Coalition Plaintiffs’ Claims Relating to Ballot Secrecy

The Coalition Plaintiffs seek to enjoin the use of BMDs on the basis that they
severely burden the fundamental right to vote by depriving voters of secrecy of the
ballot. They assert two theories as to how BMDs result in the deprivation of ballot
89

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 90 of 147

secrecy: (1) the large size of the BMD touchscreens, if not configured to shield the
screens from public view, permit anyone in the polling place to observe how a voter
is voting; and (2) the precinct scanners record timestamp information such that a
voted BMD ballot card can be traced back to the individual in-person voter by
comparing the timestamps on the scanned cast vote records with the order in
which voters used the machines.
In support of their first challenge, the Coalition Plaintiffs presented
declaration testimony from 7 individuals who served as poll watchers in the June
and August elections that the BMD touchscreens were clearly visible to the public
from 30 to 50 feet away during the voting process. Additionally, there was some
affidavit evidence of voter discomfort at the perception of the exposure of the
voting process. (See Doc. 853-4 at 25.) Despite these observations, Plaintiffs have
not established a resulting First Amendment injury where there is no evidence
from any Plaintiff or any other voter claiming that the publication of their vote
selections subjected them to threats, harassment, reprisals, or other “chilling” of
the free exercise of the franchise from either Government officials or private
parties. See Buckley v. Valeo, 424 U.S. 1, 64, 74 (1976) (per curiam); McIntyre v.
Ohio Elections Comm’n, 514 U.S. 334, 343 (1995) (noting that the “respected
tradition of anonymity in the advocacy of political causes . . . is perhaps best
exemplified by the secret ballot, the hard-won right to vote one’s conscience
without fear of retaliation”); Citizens United v. Federal Election Comm’n, 558 U.S.
310, 366-67 (2010).
90

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 91 of 147

For Plaintiffs, this is an all or nothing proposition, as they seek to enjoin the
BMDs outright and do not propose other solutions to the ballot secrecy problems
posed by the oversize BMD touchscreens. However, it is not necessary to scrap the
new voting machines where a less burdensome fix exists. Georgia’s Election Code
places the responsibility of arranging voting equipment at polling places to ensure
voter privacy with “the governing authority of each county and municipality.”
O.C.G.A. § 21-2-267. The Secretary of State’s Office has undertaken measures to
instruct local election officials on proper polling place layout and arrangement of
BMDs to maintain voter privacy. (Harvey Decl. ¶ 3, Doc. 834-3; Ex. 1 to Harvey
Decl., Doc. 834-3 at 7-11) (“The Secretary of State’s office has provided guidance to
county election officials about the setup of precincts so that [touch]screens will not
be visible to other voters when they are being used by a voter.”). If the counties fail
to follow the requirements of O.C.G.A. § 21-2-267 and the guidance provided by
the Secretary of State and voter privacy rights are violated, the State Election Board
can undertake an investigation and/or enforcement action as necessary.
In support of their second contention, Plaintiffs assert that the “Dominion
precinct scanners record timestamp information directly onto the digital cast vote
record that is created when a ballot is scanned, with the result that a voted BMD
ballot card can easily be connected afterward with the individual voter who cast
that ballot by simply comparing the scanned cast vote records (ordered by
timestamps) with the order in which voters are observed going through the voting
process.” (Br. Supp. Mot., Doc. 809-1 at 32-33.)
91

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 92 of 147

The Coalition Plaintiffs have not offered a single instance of actual
infringement of voter anonymity as a result of the use of digitally recorded scanner
timestamp records. And despite the lack of evidence of any local election official
going to such great lengths to discover how someone voted, the evidence in the
record describing and illustrating how the precinct scanners actually operate does
not bear this out.
Instead, the Coalition Plaintiffs rely on scanned ballot images from Fulton
County bearing timestamps recorded by the ICC central count scanner used to
tabulate absentee and provisional ballots by election personnel at the county
election office. The timestamp recorded on the digital record of ballots tabulated
by the ICC correlates to the time the ballot is run through the scanner by an election
official and has no demonstrated correlation to the individual voter having marked
an absentee ballot at home (or a voter having marked a provisional ballot at the
precinct). See O.C.G.A. § 21-2-386 (providing that “[t]he process for opening the
inner envelopes of and tabulating absentee ballots on the day of a primary,
election, or runoff as provided in this subsection shall be a confidential process to
maintain the secrecy of all ballots). The Coalition Plaintiffs have not offered any
theory to suggest that absentee and provisional ballots can be linked back to
individual voters using the timestamp recorded in the digital record by the ICC
central scanner.
Unlike the ICC central scanner, the ICP precinct scanner does not record a
digital timestamp on the ballots of in-person voters. Rather, ballots scanned on
92

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 93 of 147

the ICP precinct scanner/tabulator includes a “randomized sequence number” that
“preserves voter anonymity as there is no way to correlate the sequence number to
either an individual voter, or a specific point in time that the ballot was cast. When
results and images are stored on the removable memory (Compact Flash cards),
no date-timestamp information is included which prevents the ability to recreate
the sequence of how the ballots were cast thus preserving voter anonymity.”
(Coomer Decl. ¶ 10; Doc. 821-1; see also Ex. 19-A to Decl. of Marilyn Marks, Doc.
853-4 at 6 (showing ballot image from ICP scanner without any timestamp).) Dr.
Coomer confirmed this again at the September 11 hearing, stating that there is no
timestamp associated with ballot images scanned and stored in the digital cast vote
records created by the ICP precinct scanner/tabulator. (Tr. Vol. II at 91-92.)
Accordingly, the Coalition Plaintiffs have failed to establish a likelihood of
succeeding on the merits of their claim that the BMD system violates their right to
ballot secrecy.
D.

Hand-Ballot Scanning and Its Impact on Counting of the
Vote

The Coalition Plaintiffs request that the Court require the State Defendants
“to adopt scanning threshold settings for the Dominion scanners and vote review
procedures that will ensure all voter marks on mailed and hand marked paper
ballots are counted.” (Br. Supp. Mot., 809-1 at 10.) They assert that the Dominion
scanner and tabulation software and equipment are failing to count all legal votes
as defined under Georgia law, resulting in an unconstitutional denial of review of
the ballot before arbitrarily discarding perceptible ballot votes containing such
93

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 94 of 147

marks. Plaintiffs contend that Defendants' challenged practices in connection with
scanning and tabulation of such hand ballot votes violate Georgia law, which
requires votes to be counted if the intent behind a voter’s mark can be ascertained
upon review. See O.C.G.A. §§ 21-2-438(b)& (c); see also O.C.G.A. § 21-2-483(g)
(requiring manual review by the vote review panel of any overvote detected by the
central tabulator). 77 And Plaintiffs also argue the current system and its
configuration is a violation of equal protection because in-person voters who use
BMD voting machines are not subject to having their votes rejected by a scanner
due to faint marks. Each of the individual Plaintiffs additionally have submitted
affidavits in this case indicating that while they strongly prefer to vote in person,
they have felt compelled to vote by absentee ballot because of their concerns about
whether their ballots would be accurately counted in the State’s BMD and prior
DRE systems. (Decl. of Donna A. Curling, Doc. 785-3; Decl. of Donna Price, Doc.
785-4; Decl. of Jeffrey H. Schoenberg, Doc. 785-5; Decl. of Megan Missett, Doc.

Sections (b) and (c) of O.C.G.A. § 21-2-438 provide as follows:
(b) At elections, any ballot marked by any other mark than a cross (X) or check (✓) mark in the
spaces provided for that purpose shall be void and not counted; provided, however, that no vote
recorded thereon shall be declared void because a cross (X) or check (✓) mark thereon is irregular
in form. A cross (X) or check (✓) mark in the square opposite the names of the nominees of a political
party or body for the offices of President and Vice President shall be counted as a vote for every
candidate of that party or body for the offices of presidential elector.
(c) Notwithstanding any other provisions of this chapter to the contrary and in accordance with
the rules and regulations of the State Election Board promulgated pursuant to paragraph (7) of
Code Section 21-2-31, if the elector has marked his or her ballot in such a manner that he or she
has indicated clearly and without question the candidate for whom he or she desires to cast his or
her vote, his or her ballot shall be counted and such candidate shall receive his or her vote,
notwithstanding the fact that the elector in indicating his or her choice may have marked his or
her ballot in a manner other than as prescribed by this chapter.
77

94

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 95 of 147

640-1 at 149-154; Decl. of William Digges, III, Doc. 640-1 at 167-170; Decl. of Laura
Digges, Doc. 640-1 at 162-65; Decl. of Ricardo Davis, Doc. 640-1 at 156-160.)
The Coalition Plaintiffs have presented ballot images that they assert are
evidence of clear voter disenfranchisement. The 5 ballot images shown below
depict actual unadjudicated ballot images from Fulton County’s August 11, 2020
election, showing the ICC scanner interpreted as a “blank contest” several voter
marks that indicate a clear visible selection for the candidate 78:

According to the Dominion contract, for each ballot scanned, a corresponding ballot image is
created and stored for audit purposes, that consists of two parts: (1) the scanned image of the
ballot; and (2) machine generated text showing each mark that the scanner interpreted for that
particular ballot, referred to as the AuditMark. (Doc. 619-8 at 57.)

78

95

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 96 of 147

96

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 97 of 147

(Pls.’ Hrg. Ex. 7; see also Decl. of Marilyn Marks ¶ 17, Doc. 809-5; Ex. 19-D to Decl.
of Marilyn Marks, Doc. 853-4 at 41.)
97

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 98 of 147

The State Defendants assert in opposition to Plaintiffs’ motion that “[t]he
only possible burden on a voter arising from the scanner-threshold settings is if
the voter disregards the instructions that come with the ballot. That is not a burden
on the right to vote — it is a voter choosing to not follow the required regulatory
structure of the state.” (State Defs.’ Resp., Doc. 834 at 25.) In essence, the State
Defendants contend that a voter who marks their absentee paper ballot with a
check mark or an X, rather than filling in the oval to the left of the candidate name,
does not have a right to have their vote counted. (See Suppl. Decl. of Chris Harvey,
Doc. 834-3 ¶¶ 4-5) (“The instructions for absentee ballots instruct voters to fill in
the bubble next to the preferred candidate name and instructs voters not to make
check marks or X to mark their ballot. Tabulating absentee ballots where voters do
not follow the instructions takes additional time for county election officials.”).
Defendants’ litigation position, as explained below, is not in line with the
requirements of Georgia’s Election Code and the State Election Board’s regulation
providing that if the voter “has marked his or her ballot in such a manner that he
or she has indicated clearly and without question the candidate for whom he or she
desires to cast his or her vote, his or her ballot shall be counted, notwithstanding
the fact that the elector in indicating his or her choice may have marked his or her
ballot in a manner other than as prescribed.” 79 Ga. Comp. R. & Reg. r. 183-1-15.02(2)(2).
A potential explanation for the phenomenon of some voters marking their absentee ballots
without filling in the designated oval is two-fold. Hand marked ballots, where votes were cast
79

98

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 99 of 147

1.

Operation of the Scanners

The Dominion precinct (ICP) 80 and central count (ICC) 81 scanners do not
interpret the text of a hand marked paper ballot. 82 (Decl. of Dr. Eric Coomer ¶ 9,
Doc. 658-2.) Instead, the scanners detect votes by reading particular coordinates
on the ballot, what is known as a “target area” inside an oval next to a voter’s choice
as shown below:

with an X or check, were used prior to the introduction of the DRE system in Georgia in 2002.
And this may be found in Georgia’s existing election regulation that contains different provisions
for vote tabulation in statewide versus municipal elections. See Rule 183-1-15-.02(2)(2)&(3). The
Dominion BMD/optical scan system is required to be used in all statewide elections. But Georgia
still allows for other voting systems to be used in non-statewide “municipal” elections (see
provisions of rule that still pertain to lever systems, Rule 183-1-15-.02(2)(1) and non-optical scan,
i.e., hand counted paper ballots, Rule 183-1-15-.02(2)(3)). For optical scan paper ballots, the voter
must “fill in the oval” to mark their vote choice. Rule 183-1-15-.02(2)(2)(a). But for non-optical
scan paper ballots, the voter must “place an X, a check, or other similar mark” in a square to mark
their vote choice. Rule 183-1-15-.02(2)(3)(a). This might account for why a number of voters are
placing either an X or a check in the oval rather than filling it in and may create a problem if the
ICP and ICC scanners in operation disregard these types of markings on the optical scan ballots
without further review. Further, the Court notes, that prior to the instant 2020 ballot cycle, a vote
with an X or check on an absentee or provisional ballot would not have been subject to
adjudication software review programmed to kick out marks that were too light to register on the
scanner, but to the human eye were visible as an X or check vote designation.
80 The ImageCast Precinct Scanner and Tabulator is an optical scan ballot tabulator used to scan
marked paper ballots and interpret voter marks on the paper ballot. It is a proprietary Dominion
product. (Tr. Vol. II at 81.)
81 The ImageCast Central Scanner consists of a Canon DR-G1130 commercial off-the-shelf digital
high-speed document scanner configured to work with the ImageCast Central Software for high
speed ballot tabulation.
82 The scanner does not work like a camera – it does not take a picture of the paper ballot. (Tr.
Vol. I at 140-41.)

99

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 100 of 147

(Coomer Decl. ¶ 9; Ex. A to Coomer Decl., doc. 658-2 at 9.) The target areas
correlate to the voter choices represented on the ballot. (Id.) According to
Dominion’s documentation,
When a ballot is fed into an ImageCast tabulator – at the precinct level
or centrally – a complete duplex image is created and then analyzed
for tabulation by evaluating the pixel count of a voter mark. The pixel
count of each mark is compared with two thresholds (which can be
defined through the Election Management System) to determine what
constitutes a vote. If a mark falls above the upper threshold, it’s a valid
vote. If a mark falls below the lower threshold, it will not be counted
as a vote.
(Ex. M to Decl. of Harri Hursti, Doc. 809-3 at 48.) However, if a mark falls between
the two thresholds, in what is known as the “ambiguous zone,” it will be deemed
as a “marginal mark” 83 and the ballot should be flagged for review by a vote review
panel – either manually or using Dominion’s vote adjudication software
application. (Id.)
The default scanner threshold settings in Democracy Suite 5.5A for both the
ICP and ICC are 12% for the low-end and 35% for the high-end. (Defs.’ Hrg. Ex. 4
at 1, Doc. 887-4 at 2.) Dominion’s “Democracy Suite 5.5A is not designed to
register voter intent from a hand-marked ballot if the vote target area (oval to the
left of the choice) is not marked in some manner” and does not meet or exceed the

According to Dr. Coomer, when an in-person voter scans a hand-marked paper ballot (i.e., an
emergency ballot) on the precinct scanner, the scanner will alert the voter if the ballot is rejected
as having contained an ambiguous mark and that voter will have the opportunity to correct the
ballot. (Tr. Vol. II at 75-76; see also Ex. M to Hursti Decl., Doc. 809-3 at 48.) However, because
of the configuration of the ICP scanner in Georgia, if the voter marked a selection, but the scanner
did not recognize that as a vote, the voter would not be alerted if an undervote is detected for a
particular contest. (Tr. Vol. II at 75.) The ICP will only alert an in-person voter if the ballot is
completely blank for all races. (Id. at 76.)

83

100

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 101 of 147

high-end threshold setting. (Id.)

A visual representation of the threshold

interpretation of voter marks is shown below:

(Doc. 809-3 at 48.)
For all elections conducted on the new Dominion voting system to date,
including the June 2020 primary and August 2020 runoff elections, the ICP and
ICC scanners were set to the default threshold settings. Using these default
settings, when a ballot is scanned by either the ICP or ICC scanners, the scanners
are programmed to interpret voter marks as follows: (a) any mark deemed by the
scanner to be less than 12% darkened within the vote target areas (i.e., ovals) is
designated as a blank vote for the given contest; (b) any mark deemed by the
scanner to be equal to or greater than 35% darkened within the target ovals is
designated as a vote for the choice associated to the target area marked; and (c)
any mark deemed by the scanner to be equal to 12% or less than 35% darkened
within the vote target ovals is designated as an ambiguous mark. (Defs.’ Hrg. Ex.
4 at 1, Doc. 887-4 at 2.) Any ambiguous mark within a vote target oval does not

101

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 102 of 147

count toward the vote total. (Id.) Instead, “[i]t is anticipated that ballots isolated
by the ICP or ICC scanners containing scanner-deemed ambiguous marks are
adjudicated manually or electronically by the designated election official in order
to determine the voter intent that is in question by the ICP or ICC scanners.” (Id.)
According to the Coalition Plaintiffs’ expert Harri Hursti, Dominion’s
precinct and central count scanners cannot be relied upon to accurately count all
votes using the default threshold settings and the current configuration for image
resolution. (Tr. Vol. I at 125.) In addition to the use of arbitrary default threshold
settings, Hursti criticizes Dominion’s configuration of the ICC central count
scanner to intentionally downgrade the resolution quality of the scanned image.
Hursti testified that the ICC central count scanner “can be configured to capture
higher quality and more information retaining images” and is capable of producing
images of a significant higher order of magnitude than it currently produces based
on Dominion’s programming. (Id. at 126, 133-34.) As Hursti explained, “the way
the scanner is used in this environment is like driving your sports car locked on the
first gear.” (Id. at 134.) The central count scanner is recording a lower quality image
than it is capable of because “as part of the configuration, that scanner is instructed
to produce low quality images with a reduced amount of information.” (Id.) For
example, the image produced by the ICC is only 200 dots per inch (“DPI”) which
is “a fraction of what the scanner is capable” of producing and the image “has been
reduced to have only black or white pixels based on algorithms and so-called
business logic and the scanner itself is capable of producing color images and gray
102

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 103 of 147

scale images.” (Id. at 135-36.) Dominion also configured the ICC scanner to “drop
out” or ignore red pigment from the scanned image. (See Ex. E to Hursti Decl., Doc.
809-3 at 40.) As a result, any red markings do “not meet the internal algorithm
criteria for black, therefore [red] gets erased to white instead.” (Hursti Decl. ¶ 61,
Doc. 809-3.)
During the September 10, 2020 injunction hearing, Mr. Hursti explained
that he would have expected the ICC scanner to have counted the clear voter marks
shown in the ballot images of the Fulton County August 11 election interpreted by
the ICC as “blank” contests. (Tr. Vol. I at 136.) The problem according to Hursti is
that “the scanner is reducing all information to either black or white and that
predetermination tells what the image is recording. And after that, a mathematical
algorithm is applied which is only blindly counting how many black and white
pixels it sees and based on that make[s] a determination if there is a vote or not.
So based on that reduced information, the system didn’t cross the threshold to see
[those markings] as a vote or even as ambiguous mark[s].” (Id. at 137.) An
ambiguous mark means “that the system sees something, which it says that it is
not clear whether it is a mark or not. And that would have then gone to the human
[ballot review] process.” (Id. at 138.) But in the case of the Fulton County ballot
images in Plaintiffs’ Hearing Exhibit 7, “the system didn’t even see that there would
be a mark requiring a human observation.” (Id.)
The Coalition Plaintiffs conducted an examination of test ballots scanned on
the ICP precinct scanner/tabulator using test ballots with various types of
103

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 104 of 147

markings and different colors of pens.

(See Pls.’ Hrg. Ex. 7.1, Doc. 888-6.)

Plaintiffs’ Hearing Exhibit 7.1 illustrates two images of the same ballot produced
by two different image resolutions and qualities and the scanner’s resulting
interpretation of the voter markings from the lower quality scan. 84 According to
Mr. Hursti, the visible differences in the two images are “hallmarks of bad quality
scanning and bad quality technology.” (Tr. Vol. I at 139.) The poor quality of the
ballot image scanned on the ICP does not even show the ovals that would be filled
in by the voter. (Id.) Mr. Hursti believes that for the ICC scanner, the DPI level
could be increased from the current 200 DPI configuration to 300 DPI, which is
the standard setting for commercial off-the shelf scanners in order to improve the
quality of the image of the ballots scanned for interpretation by the system software
threshold settings. 85
During the court-authorized testing of the Dominion equipment supplied by
Fulton County, Coalition member Jeanne Dufort marked and scanned a series of
test ballots to see how the marks were interpreted and tabulated by the scanner.
To replicate the various ways voters might feed paper ballots into the scanner,
Dufort scanned the same ballot multiple times “top side up, top first and then
bottom first, and bottom side up, top first, and then bottom first to see if it made

As shown in Exhibit 7.1, the ballot image on the left illustrates what the ballot looks like to the
human eye when voted. The ballot image on the right shows the ballot recorded by the ICP
scanner and is the image that is tabulated for vote counting.
85 To be fair to his testimony, Mr. Hursti opined that in order to maximize the accuracy of the ICC
tabulation scanner, the ICC should be configured to capture additional information from the
images, such as gray scale or color, in addition to an increase in the DPI.
84

104

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 105 of 147

any difference in how the scanner saw the vote.” (Id. at 178.) As Dufort described
at the September 10 hearing, the test ballot “had five contests on it. Three were
races, and two were questions. When I put it through, the first thing I did was put
it through each of the four possible ways to feed it. And each time, I got a different
message from the scanner. It would return it with an error saying there were
ambiguous marks, but it never pointed out the same ambiguous marks.” (Id. at
179.) More specifically, she testified that “the first time when we put it in face up
like you see first, it told us that one SPLOST race, one of the contests on the
backside, was ambiguous. The second time when I put it in bottom first, it told me
that the liquor sale vote was what was ambiguous and it didn’t tell me anything
about the SPLOST. The third time when I turned it over and put it backside facing
up top end, it told me the SPLOST and one of the judge races was ambiguous. Then
the fourth time when I put it backside bottom in, it told me the SPLOST and the
liquor sales was in there.” (Id.) Each of the four times Dufort fed the same ballot
through the scanner, she got four different responses from the scanner. (Id. at 17980.) Dufort repeated the experiment again, this time feeding the ballot in the same
direction five separate times and still each time she got a different response from
the scanner. (Id. at 180-81.)
Dr. Eric Coomer, the Director of Security for Dominion Voting Systems
disagrees with Plaintiffs’ contention that the Dominion scanners either discard or
disregard valid votes or do not count certain marks as a vote even though the marks
are obvious to the human eye as indications of a vote. (Tr. Vol. II at 73, 77.)
105

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 106 of 147

According to Dr. Coomer, the system is simply scanning the image and detecting
the percentage fill of the target area. Based on the settings, it will automatically say
whether it is a valid counted vote, whether it is an ambiguous mark, or whether the
system does not characterize it as any. “There are further processes in the system,
mainly adjudication, which allows secondary review – voter review for voter intent
issues, which is integral to the system, which is where you can apply voter intent
guidelines and processes to essentially characterize a vote that the system is not
automatically specifying as a vote.” (Id. at 73.)
During the hearing on September 11, 2020, Dr. Coomer was shown the
Fulton County ballot images in Plaintiffs’ Hearing Exhibit 7. Although Dr. Coomer
disagrees with the contention that the scanners do not count certain marks that
are visible to the human eye as votes, he admits that the mark shown by candidate
Theodore “Ted” Jackson’s name on the first page of Plaintiffs’ Hearing Exhibit 7
looked like a vote to him but that according to the AuditMark created at the time
of scanning, the ICC did not recognize the mark as a vote and did not count it as a
vote. (Id. at 73-74.) Dr. Coomer also admitted that if a voter’s mark is below the
low-end threshold, it does not register as either an ambiguous mark or a vote. (Id.
at 77.) According to Dr. Coomer’s hearing testimony, the AuditMark created at the
time of scanning, which contains the text indicating how the scanner interpreted
the voter mark, does not indicate whether the ballot fell within the ambiguous
threshold required for adjudication. (Id. at 75.) Therefore, one cannot tell from
the AuditMark for the ballot image at page one of Plaintiffs’ Hearing Exhibit 7
106

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 107 of 147

whether the ballot was flagged for adjudication. (Id.) Dr. Coomer stated that the
“AuditMark simply shows everything that was counted as a vote. There is
additional metadata in the cast vote record, which is the electronic record, that
includes information about ambiguous marks. And that is the data that is used to
determine whether it is sent to adjudication.” (Id. at 78.) But then when asked “[i]f
the ballot in this particular case had been adjudicated to be a vote, would that
adjudication show up on this AuditMark?,” Dr. Coomer replied “Yes, it would.”
(Id.) And again, he was asked “if it had been adjudicated in the course of a normal
election process, you would have seen that on the AuditMark in front of us; right?,”
Dr. Coomer responded, “Yes. Yes.” 86 (Id. at 79.) But the AuditMark on this ballot
– Hearing Exhibit 7 – did not reflect that it had been flagged for adjudication.
Dr. Coomer also disagrees with Mr. Hursti, testifying that the accuracy of
the ICP and ICC scanners “has absolutely nothing to do with the scanner
resolution, the DPI setting.” (Id. at 72.) According to Dr. Coomer, because the
“Dominion scanners capture the percentage fill of the targets for every mark that
is made on the ballot, that has absolutely nothing to do with the scanner resolution,
the DPI setting, whether a mark is characterized as a ballot vote, an ambiguous
mark, or not a vote is wholly dependent on the threshold settings of the lower and
upper threshold limits as well as the percentage fill of the target detected by the

This is consistent with the representations made in the Dominion contract that “[a]fter a ballot
is adjudicated, the ballot image is appended with a record of that decision including the user’s
name, action taken by the user, and date and time of the action. This adjudication AuditMark is
appended to the ballot image under the original AuditMark, which was manifested during
tabulation.” (Doc. 619-8 at 54.)

86

107

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 108 of 147

system.” (Id.) He went on to “categorically state that going from the current 200
DPI to some higher level of 300 DPI does not improve the accuracy of the system.”
(Tr. Vol. II at 147.) Referring back to the ballot images in Plaintiffs’ Hearing Ex. 7,
Dr. Coomer explained that “just to put it simply, we have all seen the images. And
the images clearly show the voter’s mark . . . if you had a physical ballot and you
had some mark on there and then you showed the [scanned ballot] image and that
mark wasn’t there, then we could talk about DPI. But the fact is we’re looking at
the image. The mark is there” so the issue is “not the fact that the image is not, you
know, sufficiently fine enough resolution to capture that.” (Id. 147-48.) But, the
ballot images in Plaintiffs’ Ex. 7.1 show the exact scenario Dr. Coomer admits might
indicate a problem with low DPI resolution. In these side-by-side images of the
same ballot, the first image scanned at high resolution shows clearly the voter
marks while the second image scanned on the ImageCast shows several of the voter
marks having been erased by the system and some portions of the ballot printing
totally distorted due to the poor image quality.
Dr. Coomer also attempted to explain why Jeanne Dufort experienced
inconsistent results when she scanned the same ballot through the ICP scanner
multiple times. According to Dr. Coomer, “the scanners have what is called a CIS
array. It is contact image sensor array. That is what is used to actually digitize the
image of the ballot. And those inherently, like all electronic systems, have some
variability, plus or minus ten percent. So on one scan you could certainly have a
target area that registers 12.5 percent and you round that up to 13. And on the next
108

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 109 of 147

scan it could be 11.9 percent. There is inherent variability in all electronic systems
. . . that is irrespective of the resolution setting that’s on the system. (Tr. Vol. II at
148-149.)
2.

Vote Review Panel Evidence

The Coalition Plaintiffs presented testimony from individuals who either
served on or observed vote review panels. According to Coalition member Jeanne
Dufort, who testified at the September 10 hearing and serves on the adjudication
panel in Morgan County, the vote review panel “makes up for the limits of
technology. We take ballots that can’t be scanned or ballots that have marks that
the scanner can’t interpret, and we put human eyes on them. So I like to think of
us as backstop to make sure that every vote … where voter intent is clear gets
counted.” (Tr. Vol. I at 171.) Under the new system, counties have the option to
use the Dominion adjudication software to review scanned ballot images cued up
on a computer screen. (Id.)
Adam Shirley served on the Clarke County Vote Review Panel for the June
9, 2020 Presidential Preference Primary and General Primary. (Decl. of Adam
Shirley, Doc. 809-7.) Out of approximately 15,000 scanned absentee ballots, about
350 were flagged for adjudication by the software. When adjudicating a ballot, a
scanned image of the complete ballot was displayed on the screen. The software
indicated the flagged contests for human review by outlining them in red. The
software used highlighting to indicate how it had interpreted the voter’s mark.
This highlighting was used for the entire ballot, not only the contests that were
109

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 110 of 147

flagged for adjudication. Green highlighting indicated the software recognized the
mark as a vote and counted it unless it was also flagged as an overvote. Yellow
highlighting indicated the software categorized the mark as ambiguous and would
not be counted until there was a vote review panel adjudication.

When at least

one oval in a contest was darkened sufficiently to be categorized as “ambiguous,”
the software highlighted the ambiguous option(s) in yellow, outlined the contest in
red, and sent the entire ballot to an adjudication queue. Below is an example
illustrative of the adjudication screen:

(Exhibit 2 to Shirley Decl., Doc. 809-7 at 12.)
The most common reason for ballots to be flagged as ambiguous was the
voter having marked their intent with check marks or X marks. The Clarke County
review panel adjudicated vote marks categorized as “ambiguous” to count votes
that were clear as to voter intent. The panel took the approach that for any votes
flagged for adjudication, the vote should be counted if voter intent was clear from
110

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 111 of 147

the on-screen image. In its review, the panel attempted to answer two questions:
(1) could the voter’s intent be discerned?; and (2) what was that intent? While only
a simple majority was required, the bipartisan vote review panel’s decision on each
ballot reviewed was unanimous.
In the course of reviewing the entire ballot to inform their adjudication of
flagged contests, the panel discovered clear ballot markings made by the voter that
had not been highlighted by the software for adjudication. These markings were
not counted as a vote (and therefore were not highlighted in green by the software)
nor were they categorized as ambiguous (and therefore were not highlighted in
yellow by the software). Below is the scanned image on one such marked ballot.

(Ex. 3 to Shirley Decl., Doc. 809-7 at 13.) The top and middle contests bear the red
box flagging them for adjudication and yellow highlighting showing marks the
111

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 112 of 147

software has classified as ambiguous. The bottom contest, though clearly marked
by the voter, bears no red box or highlighting of any kind. This shows the software
did not count that vote and was programmed not to send such a ballot to
adjudication. The system seemed to simply ignore such votes.
In every instance the panel encountered where the system had not counted
such votes (or flagged them for adjudication), the review panel agreed without
question that the voter had made their intent clear though the vote had not been
counted. The panel therefore instructed the software to count the previouslyignored votes on the ballots, although the software had not flagged these particular
votes for adjudication by the panel. Based on his review of hundreds of ballots, it
is Shirley’s opinion that it is possible that there were ballots with uncounted votes
that would never be corrected by human review because no other marks on those
ballots triggered flagging for adjudication.
The vote review panel expressed these concerns to elections staff, Election
Director Charlotte Sosebee, and the Board of Elections. In response to these
concerns, the Board of Elections ordered a pre-certification partial recount of only
the absentee ballots for 5 of Clarke County’s 24 precincts. The partial recount took
place on June 17. The Election Board was not authorized by statute or rule to
conduct a recount using any method other than what had been used for the first
count. In the recount, 2,665 absentee ballots were re-scanned and 76 ballots were
flagged for adjudication. For those 76 ballots, the vote review panel unanimously
agreed that 35 individual votes had not been counted by the software. Those votes
112

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 113 of 147

were spread across 12 separate ballots. A Dominion technician confirmed the
software was programmed to classify votes in one of three ways: a normal vote
(highlighted in green), an ambiguous mark (highlighted in yellow), and an
uncounted vote (which the system recognized, quantified, but was programmed
not to count and not to be flagged for review).
As a voter, Shirley finds such a high rate of missed votes – nearly 16% of the
adjudicated ballots – to be alarming. He also found concerning the procedures
followed by the review panel in not providing a paper audit trail, not verifying the
record of changes made to vote tallies, and not referencing the original ballot to
determine if the low quality image was an accurate depiction of the voter-marked
ballot. Shirley also found troubling that there was no attempt to reconcile the votes
added to the vote tally before and after the adjudication process, leaving the
opportunity for unauthorized changes to the tallies by others with access to the
system.
Jeanne Dufort, served on the Vote Review Panel for the Morgan County
Board of Elections and Registration for the combined Presidential Preference and
General Primaries in June 2020. (Decl. of Jeanne Dufort, Doc. 809-6.) When she
arrived at 8pm on June 9 for her duties, the elections office was still in the process
of opening absentee ballots. Dufort assisted the team in opening the remainder of
approximately 3,000 mail ballots. Ballots were scanned from 10pm to 2am. Dufort
noticed voters marking their choices in a number of ways, including filling in the

113

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 114 of 147

oval, circling the oval, making X or check marks, and one who made smiley faces
in the oval to mark their selection.
The Vote Review Panel convened on the afternoon of June 10. Morgan
County used the adjudication software provided by Dominion.

The Election

Supervisor Jennifer Doran instructed the Dominion technician to pull up all
ballots with overvote and ambiguous marks. There were about 150 out of 3,000
ballots to review. The Morgan County review panel used the same procedure
described by Adam Shirley.
The first time the panel encountered a contest with no highlights (meaning
it was deemed blank by the software), but with a clearly marked vote, Dufort asked
the on-site Dominion technician whether that vote was counted, and he said “of
course, that’s a vote,” and assured the panel it was counted. The panel moved on
to the next ballot. This time Dufort asked the Dominion technician to show her the
cast vote record for the ballot. It showed “blank contest” for the race with no
highlights, despite the presence of a clear vote. By unanimous agreement, the
panel adjudicated that contest to show the vote, overriding the inaccurate tabulator
software. The panel returned to the previous ballot and did the same. During the
course of review of about 150 ballots, Dufort estimates the panel found and
adjudicated about 20 votes that were clearly marked by the voters, but the software
had interpreted as a “blank contest.”
Dufort attended the Morgan County Election Board meeting on June 11, and
spoke about her concerns as a review panel member and the need to expand the
114

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 115 of 147

adjudication process to determine whether other votes had been rejected by the
system. The Morgan County Election Board denied the motions of board member
Helen Butler to expand the adjudication process to review the remaining 2,700
mail ballots to see if there were additional uncounted votes.
Coalition member Rhonda Martin observed somewhat similar adjudication
procedures at the Fulton County Elections Preparation Center on August 14, 2020.
(Decl. of Rhonda J. Martin, Doc. 809-4.) The adjudication process took place
entirely on a low resolution black and white on-screen image, without looking at
the original paper ballot. Based on her observation of the two vote review panels
used by the Fulton County elections office, the panel members quickly clicked here
and there and switched from one view to another as they examined the ballot
images, without making a record of who approved each vote change or why the
decision was made. Martin also observed that at times, the panel members
appeared to almost forget to confer with one another and confirm that they agreed
on the interpretation of the vote because they were so focused on operating the
adjudication software.
Of the ten ballots Martin observed being adjudicated, three appeared to be
completely blank with no votes marked anywhere on the ballot. The first review
panel to encounter a blank ballot with no single vote shown paused to ask the
Registrations Chief, Ralph Jones, what to do. After waiting for a while for Mr.
Jones to finish up with the second review panel, the first review panel decided to
accept the blank ballot so they could continue adjudicating other ballots. They did
115

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 116 of 147

not request to see the original paper ballot to confirm that it was, in fact, blank.
While not impossible, Martin found it odd that a voter would go to the trouble of
returning a ballot with no vote marks at all.
3.

The Secretary of State’s Center for Election Systems
Study on Scanner Settings

When Plaintiffs filed their motion in August 2020, the State Election Board
was considering proposed revisions to the regulation providing for “the definition
of a vote” to designate specific settings for the ballot scanners used to tabulate
optical scan ballots marked by hand. Plaintiffs’ expert Harri Hursti asserted that
before the State sets threshold standards for the Dominion system, extensive
testing is needed to establish optimal configuration and to identify a setting that
will not have the widespread effect of discarding at least some valid votes. (See
Hursti Decl. ¶ 77, Doc. 809-3.) At that time, neither Mr. Hursti nor the Plaintiffs
were aware of a study undertaken by the Center for Election Systems of the
Secretary of State’s Office in July of 2020 to determine “how various reductions to
the default, ambiguous mark threshold setting within Democracy Suite 5.5A would
impact the scanning and interpretation of ambiguously marked ballot samples” on
the ICC central count scanner.

(Defs.’ Ex. 4 at 1, Doc. 887-4 at 2.)

“The

examination was done in an effort to increase absentee ballot scanning efficiency
and reduce the need to adjudicate ballots that reflect a clear voter intent.” (Id.) A
draft copy of the report prepared by CES’s Michael Barnes was subsequently
produced during expedited discovery prior to the injunction hearing.

116

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 117 of 147

As further explained in the draft report, CES undertook an examination to
determine whether “the high-end setting of 35% is forcing election officials to
review ballots that should instead be processed as marked by the ICC scanner on
the initial read by the IC scanner” and counted as a valid vote. (Defs.’ Ex. 4 at 2,
Doc. 887-4 at 3.) Because “Democracy Suite 5.5A gives the end user the ability to
adjust ambiguous mark threshold settings used by the Dominion scanners to
interpret voter intent on hand-marked optical scan ballots,” CES ran ballot test
decks through the ICC scanner using various threshold settings. (Defs.’ Ex. 4 at 1,
Doc. 887-4 at 2.)
At the start of the examination, a “test deck of 100 hand-marked optical scan
ballots was prepared. The instructions at the top of the ballot instruct the voter to
fill in the oval next to the candidate of their choice. The filling in of the oval (vote
target area) is designed to provide a clear intent for the ICC scanner to interpret.”
(Defs.’ Ex. 4 at 2, Doc. 887-4 at 3.) To examine the various ways the scanner might
interpret different marks, the testers did not fill in the vote target areas as
instructed. Instead, “testers placed a variety of marks that only darkened a portion
of the vote target areas” on the deck of test ballots. “Testers also used differing
marking devices (i.e., blue ink, black ink, red ink, pencil, etc.) and marking
pressures.” On some ballots, testers marked outside the vote target area (by
circling or underlining the candidate name rather than filling in the oval) “to
confirm that marks [placed] outside the vote areas would not be recognized” by the
scanner. (Id.)
117

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 118 of 147

Each test ballot had three contests with a total of 6 vote target areas (two
ovals per contest). “Testers used the same type of variable mark within each of
three contests when marking a ballot in an attempt to simulate how an individual
voter would most likely mark each oval on their ballot in the same manner
throughout.” (Id.) As described in the CES draft report, the scanner will interpret
a marked ballot in one of three ways: (1) Marked – the scanner will “interpret the
mark within all vote target areas on the ballot and increment vote totals and ballots
cast total forward” (the mark falls above the high-end threshold and is counted as
a vote); (2) Blank – the scanner “will interpret the vote area as not including a mark
and would not increment vote total forward, but would increment the ballots cast
forward” (the mark falls below the low-end threshold and is not counted as a vote
in the vote totals); and (3) Ambiguous – the scanner will “not be able to determine
marks and set the ballot aside for review” (the mark falls below the high-end
threshold to count as a vote but above the low-end threshold to register as a blank).
(Id.)
After marking the test ballots, the test deck was scanned a total of two times
on an ICC scanner configured with the default low-end 12% and the high-end 35%
settings. This process created two batches collected by the ICC scanner, each batch
containing 100 ballots. Each batch was then loaded into Dominion’s Adjudication
Client application. The Adjudication Client application was set to review all ballots
within the batch and isolate any ballots containing Ambiguous Marks, Blank
Ballots, and Overvotes (the standard Adjudication Client settings). The testers
118

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 119 of 147

created 6 criteria into which each ballot could fall under for review: (1) Marked –
all contests on ballot contained a single interpretable mark; (2) 1/3 Ambiguous –
one of the three contests on the ballot contained a mark requiring review; (3) 2/3
Ambiguous – two of the three contests on the ballot contained a mark requiring
review; (4) Ambiguous – all three contests on the ballot contained a mark requiring
review; (5) Blank Ballot – all three contests on the ballot contained no
interpretable marks; and (6) Overvote – all contests on ballot contained multiple
interpretable marks. (Defs.’ Ex. 4 at 2-3, Doc. 887-4 at 3-4.)
Upon completing the review of each scanned batch within the Adjudication
Client software, the testers documented the following results:
•
•
•
•
•
•

Marked
1/3 Ambiguous
2/3 Ambiguous
Ambiguous
Blank
Overvote

53
15
11
12
9
0

(Defs.’ Ex. 4 at 3, Doc. 887-4 at 4.) A total of 47 ballots required some level of
review after being processed by the ICC.

The testers were concerned that nearly

half of the test deck required additional review to determine voter intent.
In an effort to assess what impact a reduction in the high-end setting level
would have on potential ambiguous marked ballots being registered on the ICC,
testers reduced the default high-end setting 3 times: from 35% to 30%, from 30%
to 25%, and finally from 25% to 20%. (Defs.’ Ex. 4 at 3-5, Doc. 887-4 at 4-6.) In
the third test pass, the testers ran the test deck through the scanner following the
119

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 120 of 147

same protocol but the ICC scanner was configured with the low-end default setting
of 12% but the high-end setting was reduced from 35% to 20%. (Defs.’ Ex. 4, Doc.
887-4 at 5.) Using a high-end setting of 20%, testers documented the following
results for each batch within the Adjudication Client software:
•
•
•
•
•
•

Marked
1/3 Ambiguous
2/3 Ambiguous
Ambiguous
Blank
Overvote

70
10
8
1
10
1

(Defs.’ Ex. 4 at 4-5, Doc. 887-4 at 5-6.) With a low-end 12% and high-end 20%
setting, there was a 36% reduction in the number of ballots (47 to 30) after
scanning needing further review, in relation to the original default setting. (Defs.’
Ex. 4 at 5, Doc. 887-4 at 6.) The adjustment of the high-end setting down to 20%
also resulted in 17 more ballots being processed as marked (an increase of 53 to
70) and voter intent being registered and tabulated without need of further review
or adjudication. The reduction to 20% also resulted in a potential overvote being
detected in the test deck that had previously been undetected using the higher
high-end settings. This reduction in the high-end setting from 35% to 20% also
decreased the number of ballots with all three contests registering ambiguous
marks from 12 ballots down to 1 ballot. The reduction did not eliminate the
presence of ambiguous marks, but it does appear to reduce the number of instances
where the review of all contests on a ballot would be needed. (Id.)

120

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 121 of 147

In an effort to reveal if there were any additional ambiguous marks that
could be detected and made available for review to users, the testers reduced the
low-end threshold setting from 12% to 10% (keeping the high-end at the adjusted
20% threshold). (Id.) The testers ran the test deck through the scanner following
the same protocol described above, but the ICC scanner was configured with the
low-end at 10% and the high-end at 20%.

Using this configuration, testers

documented the following results upon reviewing the test ballots within the
Adjudication Client software:
•
•
•
•
•
•

Marked
1/3 Ambiguous
2/3 Ambiguous
Ambiguous
Blank
Overvote

71
13
6
2
7
1

(Id.) With the low-end 10% and high-end 20% settings, there was a 38% reduction
in the number of ballots (47 to 29) after scanning needing further review, in
relation to the original default setting. This configuration reduced the number of
instances of ambiguous (12 to 2) and blank ballots (9 to 7) from the original default
settings. Under these settings, 29 ballots remained as needing some physical
review. (Defs.’ Ex. 4 at 6, Doc. 887-4 at 7.) Of those 29, 7 ballots were seen by the
ICC as completely blank. Upon physical review of the 7 ballots, 5 ballots contained
no physical mark anywhere within the vote target oval, but did have the candidate
name circled or underlined. The remaining 2 ballots seen as blank by the ICC,
upon visual review, did have discernable marks within the vote target area,
121

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 122 of 147

however, the mark was made with red ink. While it did not remove the detection
of ambiguous marks or blank ballots, it does appear the combination of these
settings eliminated the need to review some ballots and reduced the number of
contests per ballot needing review when a ballot review was detected. (Defs.’ Ex. 4
at 5, Doc. 887-4 at 6.)
During the assessment, the testers made note of whether the type and
placement of marks in and around the vote target oval had an impact on the
scanner’s interpretation. (Defs.’ Ex. 4 at 6, Doc. 887-4 at 7.) In addition to partial
filling in of the vote target oval, the ICC scanner registered various types of marks,
including an X, checkmark, dash, and dots, when they were placed within the vote
target oval. The darker the mark within the vote target area, the easier the ICC
registered the mark. These findings indicate that instructions to voters should
inform the voter to fill in the oval next to the candidate name and to avoid circling,
underlining, or placing checkmarks or Xs, or otherwise marking the candidate
name outside the vote target oval. Voters should also be warned to NOT use red
ink.
4.

Georgia’s Election Code and Regulations Pertaining
to Optical Scan Ballots

Based on the results of the CES study in July 2020, the State Election Board
proposed a rule adopting the adjusted threshold settings that was. The regulation,
approved by the Board on September 10, 2020 now provides:
Ballot scanners that are used to tabulate optical scan ballots marked by
hand shall be set so that:
122

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 123 of 147

1. Detection of 20% or more fill-in of the target area surrounded by the oval
shall be considered a vote for the selection;
2. Detection of less than 10% fill-in of the target area surrounded by the oval
shall not be considered a vote for that selection;
3. Detection of at least 10% but less than 20% fill-in of the target area
surrounded by the oval shall flag the ballot for adjudication by a vote review
panel as set forth in O.C.G.A. 21-2-483(g). In reviewing any ballot flagged
for adjudication, the votes shall be counted if, in the opinion of the vote
review panel, the voter has clearly and without question indicated the
candidate or candidates and answers to questions for which such voter
desires to vote.
Ga. Comp. R. & Regs. 183-1-15-.02(2)(k).
The State Election Board’s regulation providing for the definition of a vote,
states that for optical scan paper ballots, the voter must “fill in the oval” to mark
their vote choice. Ga. Comp. R. & Regs. 183-1-15-.02(2)(2)(a). Where an optical
scan ballot marked by hand has been rejected by the scanner/tabulator as
containing an overvote in accordance with O.C.G.A. § 21-2-483(g), in reviewing
such a ballot: (1), if “it appears that there is a properly cast vote and what is clearly
a stray mark which has caused the ballot scanner to read the vote for such office as
an overvote, the properly cast vote shall be counted and the stray mark shall be
ignored;” and (2) if “a voter marks his or her ballot in a manner other than that
specified by law and this rule, the votes shall be counted if, in the opinion of the
vote review panel as provided in O.C.G.A. § 21-2-483(g)(2)(B), the voter has clearly
and without question indicated the candidate or candidates and answers to
questions for which such voter desires to vote.” Ga. Comp. R. & Regs. 183-1-15.02(2)(2)(c)&(d). Under O.C.G.A. § 21-2-483(g)(1), “[t]he central tabulator shall
be programmed to reject any ballot, including absentee ballots, on which an
123

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 124 of 147

overvote is detected and any ballot so rejected shall be manually reviewed by [a]
vote review panel . . . to determine the voter’s intent as described in subsection (c)
of Code Section 21-2-438.” O.C.G.A. § 21-2-438(c) in turn provides that “if the
elector has marked his or her ballot in such a manner that he or she has indicated
clearly and without question the candidate for whom he or she desires to cast his
or her vote, his or her ballot shall be counted and such candidate shall receive his
or her vote, notwithstanding the fact that the elector in indicating his or her choice
may have marked his or her ballot in a manner other than as prescribed by this
chapter.”
Similarly, “[i]f, in reviewing an optical scan ballot marked by hand, a
discrepancy is found between the voter’s mark on the ballot that clearly and
without question indicated the voter’s intent and the result tabulated by the ballot
scanner, the voter’s mark shall control and be counted.” Ga. Comp. R. & Regs.
183-1-15-.02(2)(2)(e). Finally, “[w]hen an optical scan ballot marked by hand
contains stray marks or marks which prevent the ballot scanner from properly
recording valid votes as determined under this rule and by law, the ballot shall be
duplicated in accordance with law to correct such problems and the duplicate shall
then be tabulated.” Ga. Comp. R. & Regs. 183-1-15-.02(2)(2)(f). The regulation
further provides that “[n]othing herein shall be deemed to disallow the use of ballot
scanners for tabulation of ballots.” Ga. Comp. R. & Regs. 183-1-15-.02(2)(2)(e).

124

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 125 of 147

5.

Plaintiffs’ Proposed Remedy

Coalition Plaintiffs seek from this Court “[a]n order commanding the State
Defendants to standardize required settings of Dominion precinct and central
ballot scanners and related tabulation software to ensure that all perceptible votes
written on mailed and hand marked paper ballots are either counted as votes or
flagged for human review by a Vote Review Panel, and requiring that Dominion
scanner sensitivity settings and tabulation software be uniform across all
counties.” (Mot., Doc. 809 at 2). According to their motion, the full problem with
the ballot scanners will not be solved by the State’s new rule, but it can be solved
by restraining the State from requiring scanner settings that automatically discard
any degree of perceptible voter markings. In response, the State Defendants assert
that Plaintiffs do not propose any solution beyond ensuring every single stray mark
on every hand-marked ballot is reviewed by a human.
For the reasons that follow, the court will not grant the requested relief for
the November general election based on pragmatic timing considerations where
absentee voting has already begun and alteration of the scanner settings would
require changes to the election system database and would result in disruption of
the ongoing administration of the election by the State and the Counties. Instead,
the Court has directed the State to itself explore and determine whether a solution
exists for the discounting of votes resulting from system deficiencies in the
tabulator/scanning and the potential implementation of remedial measures in
time for any runoffs in January 2021.
125

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 126 of 147

There is no question that the default scanner settings used in elections
conducted to date on the Dominion system caused certain voter marks to register
as blank and therefore prevented some valid votes on hand-marked ballots from
being counted. (See ballot images at Doc. 809-5.) The testimony of the vote review
panelists clearly establish the differences between the scanner’s perception and
human perception of voter intent. In addition, the ballots provided in the record
show that different results were reached by the scanners and the vote review panel
members about whether voter markings counted. Dr. Coomer acknowledged that
the scanners will not count marks that fall below the low-end threshold setting. It
is also evident that the State’s adjustment of the Dominion default settings (used
to date) pursuant to the SEB’s newly promulgated regulation will not cause the
scanner software to capture all perceptible ballot vote markings and count them as
votes in the upcoming November election. (See Defs.’ Ex. 4 at 6, Doc. 887-4 at 7)
(noting that even after the adjustment, 7 out of 100 test ballots were seen by the
ICC as completely blank though voter markings could be discerned upon physical
human review).
The scanners are programmed to flag overvotes 87 for review and
adjudication. They are not, however, programmed to flag undervotes (i.e., blank
contests) for review. As evidenced by the Fulton County ballots shown in Plaintiffs’
Exhibit 7, the result is that some votes are not recorded by the scanners and are

An overvote occurs when the scanner/tabulator registers more than one legible vote for a single
contest.
87

126

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 127 of 147

not counted. Under the current procedures used with the Dominion system, these
votes escape any review before being rejected – resulting in irreversible voter
disenfranchisement. 88 It appears that prior to the use of the Dominion system and
introduction of the adjudication software, no voter’s ballot choices were getting
kicked out based on their visible designations of candidate choices with an X or
check mark, as these markings are recognized under Georgia’s Election Code as
clear manifestations of voter intent. These circumstances are quite troubling and
present an opportunity to potentially disenfranchise older voters in particular –
based on their historical experience voting under the State’s prior systems – at a
greater percentage than younger voters.
To decide whether Plaintiffs have established a substantial likelihood of
prevailing on the merits of their claim related to the scanner settings, the Court
must first “consider the character and magnitude of the asserted injury to the
rights protected by the First and Fourteenth Amendment.” Anderson, 460 U.S. at
789. The Court must then “weigh the character and magnitude of the burden the
State’s rule imposes on those rights against the interests the State contends justify
that burden and consider the extent to which the State’s concerns make the burden
necessary.” Timmons, 520 U.S. at 358.

This is the result unless they can be discovered in a subsequent manual recount, like the one
conducted by Clarke County that recovered some of these types of lost votes by allowing full
examination of the ballots with “blanks” in the 5 districts where such re-counting was allowed.
The panel’s bipartisan members agreed on all of the vote determinations.
88

127

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 128 of 147

Here the asserted injury is that Plaintiffs and other absentee mail voters face
a risk of suffering a diminished ability to participate fully in the democratic process
and to elect the candidates of their choosing if the scanners do not recognize their
ballot markings as valid votes. To echo the late Congressman John Lewis, “The
vote is precious. It is the most powerful non-violent tool we have in a democratic
society, and we must use it.” As this Court has repeatedly recognized in this case,
“[t]he right to vote freely for the candidate of one’s choice is of the essence of a
democratic society, and any restrictions on that right strike at the heart of
representative government.” Reynolds, 377 U.S. 533, 555 (1964). This right carries
with it the right not only to cast a ballot but to have it counted. United States v.
Classic, 313 U.S. 299, 315 (1941); Democratic Exec. Comm. of Florida v. Lee, 915
F.3d at 1315 (“of course, voting alone is not enough to keep democracy’s heart
beating. Legitimately cast votes must then be counted”). The loss of a vote cast is
permanent. 89 The significance of the indelible nature of the injury cannot be
overstated.
It is precisely because of the character and magnitude of the interest at stake
that voters themselves have an independent responsibility to proceed with care

See Elrod v. Burns, 427 U.S. 347, 373 (1976) (plurality opinion) (The “loss of First Amendment
freedoms, for even minimal periods of time, unquestionably constitutes irreparable injury.”);
Martin v. Kemp, 341 F. Supp. 3d 1326, 1340 (N.D. Ga. 2018) (“The Court finds that [p]laintiffs
have established irreparable injury as a violation of the right to vote cannot be undone through
monetary relief and, once the election results are tallied, the rejected electors will have been
disenfranchised without a future opportunity to cast their votes.”); see also League of Women
Voters of N.C., 769 F.3d at 247 (“Courts routinely deem restrictions on fundamental voting rights
irreparable injury . . . [because] once the election occurs, there can be no do-over and no redress.
The injury to these voters is real and completely irreparable if nothing is done to enjoin the law.”).

89

128

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 129 of 147

and caution when exercising the franchise. Georgia has implemented a voting
system that relies on the efficiencies afforded by technology. The State Election
Board has adopted a regulation for processing and tabulating hand marked ballots
using optical scanners that requires the voter to “fill in the oval” to mark their vote
choice. Ga. Comp. R. & Regs. 183-1-15-.02(2)(a). Under the regulation, markings
that trigger “detection of 20% or more fill-in of the target area surrounded by the
oval shall be considered a vote for the selection,” while markings that trigger
“detection of less than 10% fill-in of the target area surrounded by the oval shall
not be considered a vote for that selection.” Ga. Comp. R. & Regs. 183-1-15.02(2)(k). The burden on voters to read and follow the instructions for marking
their absentee, provisional, or emergency ballots is minimal. 90 The burden to do
so in a manner consistent with the regulation’s adopted scanner settings to ensure
their vote is automatically accepted by the scanner software is a different matter.
Certain well-informed voters may be aware of this new regulation adopted just
weeks ago. Other voters may have read recent news articles documenting the
problems with Georgia’s scanners in failing to recognize certain types of voter
markings during the June primary elections. The average voter, however, is likely
unaware that their failure to adequately darken the oval to a certain percentage
may cause their vote to be rejected by the scanner and in turn, not counted

Although the burden is minimal, the evidence indicates the instructions are not effective or are
ignored by a number of voters.
90

129

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 130 of 147

altogether. The Court therefore finds this burden to be more than minimal but less
than severe and will apply an intermediate level of scrutiny.
The Court must weigh the burden on the right to vote against “‘the precise
interests put forward by the State as justifications for the burden imposed by its
rule,’ taking into consideration the ‘extent to which those interests make it
necessary to burden the plaintiff’s rights.’” Burdick, 504 U.S. at 434 (quoting
Anderson, 460 U.S. at 789); see also People First of Alabama v. Sec’y of State for
Alabama, 2020 WL 3478093, at *6 (11th Cir. June 25, 2020) (Rosenbaum, J. &
Pryor, J., concurring) (“But whatever the burden, no matter how slight, ‘it must be
justified by relevant and legitimate state interests sufficiently weighty to justify the
limitation.’”) (internal citations omitted).
State Defendants assert that any burden on the right to vote created by the
10% threshold for discarding voter marks is justified by the regulatory interests of
the State as outlined by the Secretary of State’s Director of Elections, Chris Harvey.
Mr. Harvey attested that “[r]equiring a manual review of every stray mark that
happens to be in a target area would require significant time by county officials and
would result in delays of finalizing results, certifying results, and conducting
audits.” (Decl. of Chris Harvey, Doc. 834-3 ¶ 9.) According to Harvey, “[u]sing a
10% threshold for scanners minimizes the burden on election officials while still
ensuring that ambiguous marks are properly evaluated.” (Id. ¶ 10.)
The Court understands that the State does not want to make the standard so
low that it sweeps in thousands of ballots with actual blank contests and some truly
130

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 131 of 147

errant marks for adjudication panel review because it might lead to an
unreasonably inefficient process and become potentially unmanageable in the
timeframe permitted under Georgia law for finalizing the results of the election.
However, there is no evidence in the record of any burden on the Counties were
the Court to grant some form of relief to address the ballot scanner settings. No
evidence has been presented from any county election official to support Mr.
Harvey’s supposition that changes to the scanner, tabulation, and adjudication
software to ensure that all perceptible votes written on mailed and hand marked
paper ballots are either counted as votes or flagged for human review by a Vote
Review Panel would create an undue administrative burden on county officials and
would “result in delays of finalizing results, certifying results, and conducting
audits.” And notably, Fulton County’s response to Plaintiffs’ motion is silent on the
issue of the ballot scanner settings.
Each county election superintendent must certify the county’s consolidated
election results not later than 5:00 P.M. on the second Friday following the date of
the election (i.e., Friday, November 13, 2020) and immediately transmit the
certified returns to the Secretary of State, “provided, however, that such
certification date may be extended by the Secretary of State in his or her discretion
if necessary to complete a precertification audit.” O.C.G.A. § 21-2-493(k). The
Secretary of State must certify the election results not later than 5:00 P.M. on the
seventeenth day following the date of the election, in this year that date falls on
Thursday, November 20, 2020. O.C.G.A. § 21-2-499(b). Prior to final certification,
131

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 132 of 147

Georgia’s election code requires the Secretary of State “[u]pon receiving the
certified returns of any election from the various superintendents . . . shall
immediately proceed to tabulate, compute, and canvass the votes cast,” prior to
certifying the returns. Id. § 21-2-499(a). “In the event an error is found in the
certified returns presented to the Secretary of State or in the tabulation,
computation, or canvassing of votes . . . the Secretary of State shall notify the
county submitting the incorrect returns and direct the county to correct and
recertify such returns. Upon receipt by the Secretary of State of the corrected
certified returns of the county, the Secretary of State shall issue a new certification
of the results.” Id.
Under these provisions, the counties have ten days to tabulate and certify
their results to the Secretary of State, 91 who in turn has an additional seven days to
certify the election after a thorough review of the returns. The State Defendants’
fear of an unsupported and unquantified “delay” in certification caused by review
of additional ballots by a Vote Review Panel is outweighed by the burden on voters.
See Common Cause Georgia v. Kemp, 347 F. Supp. 3d 1270 (N.D. Ga. 2018)
(rejecting the State’s argument that remedy requiring measures to ensure proper
counting of provisional ballots would delay certification of election under statutory
timeline for certification); Doe v. Walker, 746 F. Supp. 2d 667, 678–80 (D.Md.
2010) (finding that Maryland’s statutory deadline for the receipt of absentee

This deadline can be extended by the Secretary of State, if necessary, in order to perform an
audit.
91

132

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 133 of 147

ballots imposed a severe burden on the absent uniformed services and overseas
voters that was not justified by the state’s interest in certifying election results).
The Court finds that Plaintiffs have satisfied the first two prerequisites for
preliminary injunctive relief. Plaintiffs have presented enough evidence to
establish a substantial likelihood of success on the merits of their claim that the
State Defendants’ use of an arbitrary threshold on its ballot scanners to discard
voter ballot markings for specific candidates or initiatives that are obvious to the
human eye results in a violation of the fundamental right of each voter to have his
or her vote accurately recorded and counted. See Wash. State Grange v. Wash.
State Republican Party, 552 U.S. 442, 451 (2008) (holding that state and local laws
that unconstitutionally burden the right to vote are impermissible); Democratic
Exec.

Comm.

of

Florida

v.

Lee,

915

F.3d

at

1321

(characterizing

disenfranchisement by signature mismatch rules as imposing a serious burden on
the right to vote); League of Women Voters of N.C. v. North Carolina, 769 F.3d
224, 244 (4th Cir. 2014) (“[E]ven one disenfranchised voter—let alone several
thousand—is too many.”) The threat of this injury is substantial and irreparable if
relief is not granted before the election. See Elrod v. Burns, 427 U.S. 347, 373
(1976) (plurality opinion) (The “loss of First Amendment freedoms, for even
minimal periods of time, unquestionably constitutes irreparable injury.”); Martin
v. Kemp, 341 F. Supp. 3d 1326, 1340 (N.D. Ga. 2018) (“The Court finds that
[p]laintiffs have established irreparable injury as a violation of the right to vote
cannot be undone through monetary relief and, once the election results are tallied,
133

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 134 of 147

the rejected electors will have been disenfranchised without a future opportunity
to cast their votes.”); see also League of Women Voters of N.C., 769 F.3d at 247
(“Courts routinely deem restrictions on fundamental voting rights irreparable
injury . . . [because] once the election occurs, there can be no do-over and no
redress. The injury to these voters is real and completely irreparable if nothing is
done to enjoin the law.”).
The Court must now consider the requested relief in connection with the two
remaining requirements for granting a preliminary injunction: whether the
threatened injury to the Plaintiffs outweighs the harm an injunction may cause the
Defendants and whether granting the injunction is in the public interest. The
Court considers these last two factors “in tandem . . . as the real question posed in
this context is how injunctive relief at this eleventh-hour would impact the public
interest in an orderly and fair election, with the fullest voter participation possible.
. . .” Curling v. Kemp, 334 F. Supp. 3d 1303, 1326 (N.D. Ga. 2018), aff’d in part,
appeal dismissed in part, 761 F. App’x 927 (11th Cir. 2019); see also Purcell v.
Gonzalez, 549 U.S. 1, 4 (2006)). Indeed, the Supreme Court has recognized that
there are special considerations involved with impending elections and the critical
issues at stake. In Reynolds v. Sims, the Court stated:
[O]nce a State’s [election-related] scheme has been found to be
unconstitutional, it would be the unusual case in which a court would
be justified in not taking appropriate action to insure that no further
elections are conducted under the invalid plan. However, under
certain circumstances, such as where an impending election is
imminent and a State’s election machinery is already in progress,
equitable considerations might justify a court in withholding the
134

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 135 of 147

granting of immediately effective relief in a legislative apportionment
case, even though the existing apportionment scheme was found
invalid. In awarding or withholding immediate relief, a court is
entitled to and should consider the proximity of a forthcoming
election and the mechanics and complexities of state election laws,
and should act and rely upon general equitable principles.
377 U.S. at 585. The Court notes, however, that Reynolds is not an inviolable
commandment against pre-election injunctions where the constitutional
violations are significant, and the relief is not adverse to the public interest.
Plaintiffs’ requested relief is based on proposed solutions of their
cybersecurity and scanner expert, Harri Hursti.
First, in his August 24, 2020 declaration, Mr. Hursti called for extensive
testing before choosing mandated threshold settings. The Secretary of State’s
Center for Election Systems conducted an assessment of various scanner settings
before landing on the low-end 10% and high-end 20% threshold settings. But the
CES did not test or assess thresholds lower than 10%. CES’s assessment resulted
in a significant increase in the number of marks recognized by the ICC as valid
votes and a corresponding decrease in the number of marks characterized as blank
votes as well as significant decrease in the number of marks flagged as ambiguous
requiring further adjudication.

Despite this notable improvement, this one

adjustment alone does not address the outstanding injury experienced by a
significant number of voters who cast hand marked ballots (and votes) that will
continue to be excluded from “counting” although they manifest the voter’s
electoral designation intent. Based on the results of the CES study as well as other

135

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 136 of 147

evidence in the record, clearly evident ballot vote markings will not be detected by
the Dominion tabulators, and such marks will not be counted as votes absent
further exercise of human judgment in review of improved images of the ballots or
the original ballots or alternatively, improved screening by the adjudication
software. While the precise scope of the affected ballots is unknown, the evidence
reviewed indicates that there remains a sufficient volume of impacted voters post
implementation of the State’s new 10% bottom threshold rule, that these incidents
are not errant, isolated cases that can be simply ignored as the incidental vote
counting errors or irregularities that can be expected in a large election. Nor are
they just “incidental” or accidental “errors” to the extent that the software operates
to exclude voting marks that clearly manifest the intent of the voter and therefore
must be considered as a vote under Georgia law.
Second, for the ICC central count scanner Mr. Hursti proposes that the
current configuration be modified “to allow the scanner to capture the images with
a higher resolution and higher amount of information, meaning either color or gray
scale images” and to adjust the DPI from 200 to the “current minimum standard
of office technology” of 300 DPI. 92 (Vol. I at 143.) He recommends as a stop-gap
On the other hand, during his September 10th testimony before this Court, Mr. Hursti seemed
to indicate that no other system configuration adjustments could be made to increase the accuracy
of the ICP tabulators used at precinct locations. Instead, his proposed solution for the ICP precinct
scanner is to provide better instructions to voters carefully to fill the whole oval and provide all
voters with black felt ink pens for marking paper ballots by hand. (Tr. Vol. I at 141, 159, 168.)
According to Mr. Hursti, the evidence demonstrates that many voters do not follow the existing
written instructions printed on the absentee/provisional/emergency paper ballots – an indication
that the instructions have not been effective. (Id. at 159.) The CES study similarly concluded that
instructions to voters should be modified to inform the voter to fill in the oval next to the candidate
92

136

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 137 of 147

measure and mitigation for the November 2020 election that the State undertake
an examination of the necessary changes to ensure that every vote is counted. (Id.
at 161-62.)
As previously discussed, Dr. Coomer testified, scanner threshold settings for
the Dominion Democracy Suite 5.5-A are not set on each individual scanner.
Instead, scanner threshold settings are set when the voting database is built. (Tr.
Vol II at 83.) While Dr. Coomer acknowledged that the settings on the central
count scanners could be changed before the project is built, he stated that as of
September 11, 2020, Dominion is in the midst of building the project for the
November election. (Id. at 84.)
Accordingly, the Court must consider remedies that go beyond the 10 to 20
percent threshold standard recently adopted by the Secretary of State, while
balancing the potential for administrative confusion and serious vote mishaps by
any course of action that is not deliberate and properly researched. The Court is

name and to avoid circling, underlining, or placing checkmarks or Xs, or otherwise marking the
candidate name outside the vote target oval. The CES study also determined that voters should
be warned to not use red ink when marking ballots. The Court takes judicial notice that the
Secretary of State has revised the written instructions on its paper ballots to incorporate these
recommendations from the CES study, though its revised ballot instructions removed the visual
illustration showing how to blacken in the oval. And the Secretary of State’s guidance on the use
of emergency paper ballots for in-person voting specifies that precincts provide only the two pens
approved by Dominion Voting – the Sharpie Fine Point black pen and the Paper Mate Flair M
Medium Point black pen.92 (See Pls.’ Ex. 11.) The casting of hand marked emergency ballots in
prior elections in the 2020 election cycle appears to have been fairly rare based on the evidence
before the Court. However, as the Secretary of State’s Office and County Registrar’s Offices should
be providing more training to county poll workers on the State’s emergency ballot options and
process prior to the 2020 general election, a focus upon scanning issues impacting the scanning
of hand marked ballots at the precinct level, where scanners produce even less refined images,
would be sensible.

137

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 138 of 147

not prepared to direct the State to make additional adjustments to the settings
prior to the November election because it is not feasible under the circumstances
where the voting database has already been built, has been rolled out to the
counties, and has already or soon will be undergoing logic and accuracy testing.
There are additional challenges of implementing manageable relief where the
evidence is not clear that the resolution can be fixed on the software in time or
moreover, whether a software fix of ballot image resolution quality would be
effective or not in increasing the number of ballot markings that will be
automatically read and counted as votes by the scanner/tabulators.
The current adjustments of the default settings adopted by the State in time
for the November election lowers the gateway and allows more paper ballots with
voter marks such as Xs or checks (rather than oval fill-ins) to be counted or referred
for adjudication of voter intent. This change in settings used in the 2019 pilots and
the 2020 primary elections, while an incomplete remedy, should be an improved
mechanism to address the issue of lost scanned hand marked ballot votes in the
voting tabulation in the November election. Plaintiffs as well as the Defendants or
County Boards of Election may of course revisit the question of additional relief
related to the ballot scanners if there turns out to be more evidence after the
election and if huge swaths of voters’ absentee, provisional, or emergency paper
ballot votes did not count. 93
The Court recognizes that some counties have indicated they do not plan to use the adjudication
software and will proceed according to their established procedures to systematically review

93

138

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 139 of 147

That said, the evidence supports a finding that the modified scanner settings
may well still result in the rejection of valid votes and ballots falling through the
identified crack in the system by failing to flag visibly clear voter marks for
adjudication by a review panel. Although the Court will not require further
changes to the scanner settings prior to the November election, another potential
measure may allow for an expanded review of optical scan hand-marked ballots in
connection with the adjudication software. Ballot contests flagged for human
review by the adjudication software appear on the review screen with a red box
outline around the contest. The adjudication software assigns green highlighting
to voter marks that meet the high-end threshold setting to count as a vote and
assigns yellow highlighting to voter marks that fall between the high and low-end
threshold settings and deemed by the scanner as ambiguous. Currently, the
adjudication software does not assign any highlighting to voter marks that are
deemed blank because they fall under the low-end threshold setting. 94 Because
the adjudication software is capable of isolating ballot marks flagged as
ambiguous, it would make sense that the software could similarly be configured to
isolate ballot marks interpreted as “blank.” It therefore appears likely that the
adjudication software can be used to review ballot images flagged with blank
contests to verify that no clearly discernable ballot marks are present on the ballot

scanned hand marked ballots along with the original ballots, consistent with the penultimate
“voter intent” standard established under Georgia law.
94 Dr. Coomer, however, testified that the scanner software (not the adjudication software) is
programmed to provide an alert where a ballot is scanned that registers as completely blank.

139

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 140 of 147

images that have not been recognized by the scanner software as falling within the
designated threshold to constitute a vote. 95 As the vote review panel testimony
indicates, the adjudication software allows the reviewer to quickly scan and move
through the flagged ballot images on the review screen. 96 The Court recognizes the
potential for a large number of ballots with truly blank contests (those where a
voter intentionally chose not to mark a vote for a particular candidate or ballot
question) are swept in for review. For this reason, a thorough examination of the
feasibility of using the adjudication software for this purpose may reveal that any
material increase in burden on election officials to perform this additional review
measure weighs against its consideration as a potential method of relief in future
elections after November.
Accordingly, the Court GRANTS relief that is narrowly tailored to address
the

specific

voter

disenfranchisement

by

operation

of

the

optical

scanners/tabulators in tandem with the BMD adjudication software raised in

Every hand-marked paper ballot has a unique corresponding ballot ID number printed at the
bottom that is recorded by the scanner/tabulator and reflected on the AuditMark associated with
the ballot image. The AuditMark that indicates the disposition of the candidate choices on each
scanned ballot contains a record of the ballot ID from the paper ballot. The AuditMark on the
scanned ballot image is therefore traceable to the original paper ballot. As a result, the original
paper ballots can be compared, as needed under the circumstances, to the AuditMark to confirm
that voter intent has been accurately recorded by the scanners.
96 To the extent questions arise whether voter marks are clearly discernible on the scanned image,
the Vote Review Panels can review the original paper ballots if necessary. Every hand-marked
paper ballot has a unique corresponding ballot ID number printed at the bottom that is recorded
by the scanner/tabulator and reflected on the AuditMark associated with the ballot image. The
AuditMark that indicates the disposition of the candidate choices on each scanned ballot contains
a record of the ballot ID from the paper ballot. The AuditMark on the scanned ballot image is
therefore traceable to the original paper ballot. As a result, the original paper ballots can be
compared, as needed under the circumstances, to the AuditMark to confirm that voter intent has
been accurately recorded by the scanners.
95

140

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 141 of 147

Plaintiffs’ motion. The Court finds that injunctive relief is warranted but based on
the testimony and evidence in the record, recognizes that there will not be an
“instant fix” of this issue, though in any event, remedial measures should be in
place by the next election cycle following the January 2021 election cycle, or if
feasible, by the January 2021 runoff elections.
The Court has reviewed the Coalition Plaintiffs’ requested relief (Docs. 809,
817) and finds that the relief identified is at once broader than what is called for to
address the specific injury identified 97 and on the other hand, insufficiently
precise.

Accordingly, the Court DIRECTS Plaintiffs to submit a proposed

injunctive relief order that delineates the specific measures or course of action they
are seeking that the Court adopt to address this vote counting issue by October
26, 2020. In that connection the Court recognizes the State Election Board and
Secretary’s staff and/or Plaintiffs may likely need to conduct a further review with
Dominion and other potential experts of some additional suitable options to
address the issues raised here and to run sample tests to further assess such
options; to consider the remedy of red outlined vote target ovals on hand marked
ballots as used in other jurisdictions contracting with Dominion that facilitate the
reading of a fuller range of voter markings; and the schedule for proceeding if
programming changes must be made to implement the chosen option(s) in
conjunction with the build of the ballot database for the election in question, as Dr.
Coomer indicated would be necessary for some changes. This is how Dominion
97

See, e.g., Paragraph (a) of proposed Order at Doc. 809-17.

141

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 142 of 147

proceeded with the build of the database for the current election while a proposed
regulation for modified threshold percentages was pending before the State
Election Board.
In a rational world, the parties’ representatives would sit down and discuss
these matters together to discuss alternative remedial courses of action and further
review. The Court would be more than willing to facilitate this by modifying
timelines. In any event, the expanded method(s) to address the scanner/tabulator
and adjudication software’s per se “blank” exclusion of marks that may reasonably
be considered by an adjudication panel as indicating voter intent must be in place
no later than the next election cycle following the conclusion of the January 2021
runoffs. The Court will enter a further relief order upon receipt of Plaintiffs’
proposed remedy by October 26, 2020 and Defendants’ response within 14 days of
receipt of the Plaintiffs’ proposal.
IV.

Conclusion
The Constitution’s preamble speaks first of “We, the People,” and then
of their elected representatives. The judiciary is third in line and it is
placed apart from the political fray so that its members can judge
fairly, impartially, in accordance with the law, and without fear about
the animosity of any pressure group.
In Alexander Hamilton’s words, the mission of judges is “to secure a
steady, upright, and impartial administration of the laws.” I would
add that the judge should carry out that function without fanfare, but
with due care. She should decide the case before her without reaching
out to cover cases not yet seen. She should be ever mindful, as Judge
and then Justice Benjamin Nathan Cardozo said, “Justice is not to be
taken by storm. She is to be wooed by slow advances.” 98

Justice Ruth Bader Ginsburg – Opening Remarks to Senate Judiciary Committee in her 1993
Senate Confirmation Hearing.
98

142

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 143 of 147

Plaintiffs’ challenge to the State of Georgia’s new ballot marking device QR
barcode-based computer voting system and its scanner and associated software
presents serious system security vulnerability and operational issues that may
place Plaintiffs and other voters at risk of deprivation of their fundamental right to
cast an effective vote that is accurately counted. While these risks might appear
theoretical to some, Plaintiffs have shown how voting equipment and voter
registration database problems during the 2019 pilot elections and again in the
June and August 2020 primary elections caused severe breakdowns at the polls,
severely burdening voters’ exercise of the franchise.

(See September 28, 2020

Order, Doc. 918.)
Established Supreme Court authority recognizes that States retain the
authority and power to regulate their elections and the voting process itself, subject
to the preservation of citizens’ fundamental First and Fourteenth Amendment
rights. And the Supreme Court has repeatedly emphasized in the last months the
principle that district courts must exercise great restraint in considering the grant
of injunctive relief that requires major new electoral rules on the cusp of an
election where a court’s order could cause electoral disruption and potential voter
confusion. The posture of this case collides with this latter principle. The sweeping
injunctive relief that Plaintiffs seek would require immediate abandonment of the
ballot marking device voting system enacted by the Georgia Legislature in 2019
that is in its first year of implementation by the Secretary of State pursuant to his

143

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 144 of 147

authority under Georgia law. Though major difficulties have arisen during the
course of this new system’s rocky first year, the Court recognizes that the staff of
the Secretary of State’s Office and county election offices have worked hard to roll
out the system in short order during a Covid-19 pandemic era that presents unique
hurdles. That hard work though does not answer the fundamental deficits and
exposure in the system challenged by Plaintiffs.
Thus, although Plaintiffs have put on a strong case indicating they may
prevail on the merits at some future juncture, the Court must exercise real caution
in considering the grant of their request for extraordinary injunctive relief, given
its obligation to follow governing Supreme Court and Eleventh Circuit authority.
Despite the profound issues raised by the Plaintiffs, the Court cannot jump off the
legal edge and potentially trigger major disruption in the legally established state
primary process governing the conduct of elections based on a preliminary
evidentiary record. The capacity of county election systems and poll workers, much
less the Secretary of State’s Office, to turn on a dime and switch to a full-scale handmarked paper ballot system is contradicted by the entire messy electoral record of
the past years. Implementation of such a sudden systemic change under these
circumstances cannot but cause voter confusion and some real measure of electoral
disruption. As with any systemic change, implementation of a statewide handmarked paper ballot system as the State’s primary electoral system would require
long term planning and advanced poll worker training. Accordingly, based on the
binding appellate legal authority, the State’s strong legal interest in ensuring an
144

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 145 of 147

orderly and manageable administration of the current election, and the Court’s
assessment of the operational realities before it, the Court must deny the Plaintiffs’
Motions for Preliminary Injunctive Relief in so far as they request immediate
replacement of the current BMD system with a statewide hand-marked paper
ballot system. 99
But the Court cannot part with that message alone. The Court’s Order has
delved deep into the true risks posed by the new BMD voting system as well as its
manner of implementation. These risks are neither hypothetical nor remote under
the current circumstances. The insularity of the Defendants’ and Dominion’s
stance here in evaluation and management of the security and vulnerability of the
BMD system does not benefit the public or citizens’ confident exercise of the
franchise. The stealth vote alteration or operational interference risks posed by
malware that can be effectively invisible to detection, whether intentionally seeded
or not, are high once implanted, if equipment and software systems are not
properly protected, implemented, and audited. The modality of the BMD systems’
capacity to deprive voters of their cast votes without burden, long wait times, and
insecurity regarding how their votes are actually cast and recorded in the
unverified QR code makes the potential constitutional deprivation less
transparently visible as well, at least until any portions of the system implode

For the reasons discussed in Section III D, the Coalition Plaintiffs’ Motion is GRANTED IN
PART in connection with the scanner/tabulator settings in tandem with Dominion’s adjudication
software that as currently configured allow certain voter marks on hand-marked absentee and
provisional ballots to disregarded and not be counted.
99

145

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 146 of 147

because of system breach, breakdown, or crashes. Any operational shortcuts now
in setting up or running election equipment or software creates other risks that can
adversely impact the voting process.
The Plaintiffs’ national cybersecurity experts convincingly present evidence
that this is not a question of “might this actually ever happen?” – but “when it will
happen,” especially if further protective measures are not taken.

Given the

masking nature of malware and the current systems described here, if the State
and Dominion simply stand by and say, “we have never seen it,” the future does
not bode well.
Still, this is year one for Georgia in implementation of this new BMD system
as the first state in the nation to embrace statewide implementation of this QR
barcode-based BMD system for its entire population. Electoral dysfunction –
cyber or otherwise – should not be desired as a mode of proof. It may well land
unfortunately on the State’s doorstep. The Court certainly hopes not.
The Court recognizes the major challenges facing the Secretary of State’s
Office in rapidly implementing a new statewide voting system. Yet the vital issues
identified in this case will not disappear or be appropriately addressed without
focused State attention, resources, ongoing serious evaluation by independent
cybersecurity experts, and open-mindedness. The Secretary of State and Dominion
are obviously not without resources to tackle these issues. And at very least, the
Court cannot fathom why, post-election, the State and Dominion would not at least
be moving toward consideration of the software upgrade option Dominion
146

Case 1:17-cv-02989-AT Document 964 Filed 10/11/20 Page 147 of 147

originally promised, allowing voters to cast ballots that are solely counted based
on their voting designations and not on an unencrypted, humanly unverifiable QR
code that can be subject to external manipulation and does not allow proper voter
verification and ballot vote auditing.
Time will tell whether Act V here can be still avoided or at least re-written.
For the foregoing reasons, the Court DENIES the Curling Plaintiffs’ Motion
for Preliminary Injunction [Doc. 785] and DENIES IN PART AND GRANTS
IN PART the Coalition Plaintiffs’ Motion for Preliminary Injunction on BMDs,
Scanners, and Tabulators, and Audits [Doc. 809].
IT IS SO ORDERED this 11th day of October, 2020.
____________________________
Honorable Amy Totenberg
United States District Judge

147

